<html>
<title> - CALIFORNIA DESERT BILL</title>
<body><pre>[Senate Hearing 111-625]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-625
 
                         CALIFORNIA DESERT BILL 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY ON S. 2921, TO PROVIDE FOR THE CONSERVATION, ENHANCED 
 RECREATION OPPORTUNITIES, AND DEVELOPMENT OF RENEWABLE ENERGY IN THE 
 CALIFORNIA DESERT CONSERVATION AREA, TO REQUIRE THE SECRETARY OF THE 
  INTERIOR TO DESIGNATE CERTAIN OFFICES TO SERVE AS RENEWABLE ENERGY 
COORDINATION OFFICES FOR COORDINATION OF FEDERAL PERMITS FOR RENEWABLE 
 ENERGY PROJECTS AND TRANSMISSION LINES TO INTEGRATE RENEWABLE ENERGY 
                  DEVELOPMENT, AND FOR OTHER PURPOSES

                               __________

                              MAY 20, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

61-623 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel

























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abbey, Robert V., Director, Bureau of Land Management, Department 
  of the Interior................................................     6
Baker, Harry, Vice President, California Association of 4 Wheel 
  Drive Clubs, Sacremento, CA....................................    43
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Feinstein, Hon. Dianne, U.S. Senator From California.............     3
Hubbard, David, P., Esquire, Gatzke, Dillon & Ballance LLP, 
  Escondido, CA..................................................    39
Krueger, Faye, Acting Associate Deputy Chief, National Forest 
  System, Department of Agriculture..............................    19
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Myers, David, Executive Director, The Wildlands Conservancy, Oak 
  Glen, CA.......................................................    33
Pizarro, Pedro, Executive Vice President, Power Operations, 
  Southern California Edison, Rosemead, CA.......................    36
Robyn, Dorothy, Deputy Under Secretary of Defense, Installations 
  and Environment, Department of Defense.........................    14
Wald, Johanna, Senior Attorney, Natural Resources Defense 
  Council, San Francisco, CA.....................................    51
White, V. John, Director, Center for Energy Efficiency and 
  Renewable Technologies, Sacremento, CA.........................    47

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    61

                              Appendix II

Additional material submitted for the record.....................    73


                         CALIFORNIA DESERT BILL

                              ----------                              


                         THURSDAY, MAY 20, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK, let us get started. Thank you all for 
being here.
    This morning, we receive testimony on S. 2921, the 
California Desert Protection Act of 2010. This is legislation 
Senator Feinstein has proposed.
    Sixteen years ago, Senator Feinstein shepherded into law 
one of the most sweeping conservation bills ever. That was the 
California Desert Protection Act, protecting millions of acres 
of southern California desert through a combination of 
wilderness and national park designations. The current bill 
would expand on the 1994 law with a series of new conservation, 
recreation, and renewable energy provisions.
    Any legislation involving the California desert presents 
unique and complicated management challenges due to the many 
competing uses, including military bases, national parks, 
endangered species habitat, motorized and nonmotorized 
recreation, mining, and renewable energy development. I know 
Senator Feinstein spent a great deal of time and effort to try 
and balance these uses, and I congratulate her not only for her 
past California desert successes, but also for her continuing 
efforts as reflected in this bill we are considering.
    At almost 180 pages of text, S. 2921 is not a typical park, 
wilderness, or energy proposal. Because of the broad scope of 
the bill, the large amount of acreage involved, as well as the 
many policy issues that are raised by the various conservation 
and renewable energy proposals, I thought that we should have a 
hearing before the full committee as the appropriate way for us 
to begin to understand the many issues that are dealt with.
    Title I of the bill would make several new conservation 
designations, including 2 new national monuments, totaling over 
1 million acres. It would designate 250,000 acres of new BLM 
and Forest Service wilderness, add almost 75,000 acres to the 
existing national parks in the region, and establish 5 new off-
highway recreation areas.
    As Senator Feinstein knows from her work on other bills to 
designate wilderness in the California desert and elsewhere in 
the State, any conservation proposals on this scale will bring 
with them controversy, and we will work with her and Federal 
agencies to better understand the potential effects of these 
designations on other uses and address concerns with some of 
the specific management provisions.
    Title II addresses the development of renewable energy on 
public lands. As I read the bill, these provisions would affect 
renewable energy authorizations on public lands West wide and 
not just in California. The energy legislation reported by the 
committee on a bipartisan basis last summer also addresses the 
development of renewable energy on public lands, and we need to 
focus on some of the provisions that I believe may be 
inconsistent with what the committee reported.
    We look forward to working with Senator Feinstein on this 
whole range of issues. I know we share an interest in promoting 
the development of renewable energy on appropriate Federal 
lands, and I certainly support her efforts to protect important 
natural and cultural desert resources.
    Before calling on Senator Feinstein for her statement, let 
me call on Senator Murkowski for her opening statement.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Welcome to you, Senator Feinstein. Please know that I have 
great respect for you, your leadership here in the Senate, and 
for the people that you represent in the State of California.
    While I--and I think certainly on this committee, we have a 
longstanding tradition of allowing a delegation from a State to 
take the lead on wilderness bills within their State, and I 
respect that, I do have some concerns about the bill that we 
have in front of us. I will just take a brief moment to state 
what those concerns are.
    Primarily, the message that will be sent concerning the 
development of renewable energy on Federal lands. Many in this 
body, including myself, believe in the importance of reducing 
our dependence on oil by developing a new energy economy based 
on our alternative sources.
    But it seems that many times, when we have actual wind or 
solar or geothermal projects proposed, there are those who will 
move to kill the project. My concern is that if we move forward 
without significant changes, that it will encourage more of the 
``not in my backyard'' behavior that we have seen with respect 
to other renewable energy projects on Federal land.
    I do think and agree quite strongly with the chairman that 
we must diversify our energy sources to include wind, solar, 
biomass, geothermal, as well as nuclear and other sources. But 
it has been frustrating when we recognize that it took 10 years 
to approve offshore wind farm on the east coast, even more 
frustrating to see one of the better areas for solar production 
in the West to be encumbered by national monuments and 
wilderness areas.
    I think that we must be cautious when we oppose renewable 
energy projects on Federal lands by proposing more wilderness 
areas and other forms of procedures where we essentially take 
those lands off the table before our Federal agencies have had 
an opportunity to complete their assessment, make 
recommendations as to where to site the projects.
    I also will raise a concern about the rights of those who 
have invested private funds in pursuing the solar permits in 
the areas that are covered by S. 2921, and who did so at the 
suggestion of the Bureau of Land Management. As I understand, 
this bill would negate that investment without compensation.
    I do understand that there is a process that would allow 
the companies that were working on developing the solar permit 
proposals to get bumped up in line for applications in other 
areas. But I think there is some question as to whether or not 
that is adequate compensation for the investments that are 
made.
    I think we recognize that there is an issue that these 
companies depend on private financing to fund these projects, 
and we all know how difficult it is to secure the necessary 
financing in this economy. I am concerned that those who are 
willing to invest in these projects are going to get gun shy 
about investing in future projects if when they feel they have 
got a good project proposed that Congress or the administration 
or the courts again take the ``not in my backyard'' protest 
even before the impacts of the project have been evaluated.
    I do look forward to working with the chairman, working 
with the committee on this issue about the concerns that I have 
raised and look forward to working with you, Senator Feinstein, 
as we try to find that balance that does allow for 
opportunities to truly expand our renewable resources, do so on 
our public lands, and do so in a way that is able to meet the 
needs of all involved.
    With that, I thank you, Mr. Chairman.
    The Chairman. Senator Feinstein, welcome to the committee 
and go right ahead.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing.
    Senator Murkowski, thank you as well, and I thank both of 
you for your comments.
    Let me get right to it. The bill I have introduced would 
designate 2 new national monuments. The first is the Mojave 
Trails National Monument, and there you have a picture of the 
very famous Cady Mountains, which are part of it. The Sand to 
Snow National Monument, and there you have a picture of the 
Pacific Crest Trail on that Sand to Snow Monument.
    The bill would add adjacent lands to Joshua Tree and Death 
Valley National Parks and the Mojave National Preserve. Now 
those were all part of my 1994 desert bill. These parts simply 
fill in and are really done because they have been suggested to 
us by the Government as positive adds to that. There you see 
the Castle Mountains.
    The bill would permanently protect 5 wilderness study areas 
as designated wilderness and protect 4 important waterways--the 
Amargosa River, Deep Creek--as wild and scenic rivers. The bill 
would also facilitate renewable development on suitable lands, 
improve the permitting process for wind and solar on public and 
private land, and enhance recreational opportunities, while 
ensuring that the training needs of the military are met.
    Now here is how this all happened. Following the passage of 
the Desert Protection Act in 1994, it became evident that the 
southern part of the Mojave Preserve needed additional 
protection. There were literally hundreds of thousands of acres 
in patchwork squares owned by the Catellus Corporation on which 
private development could happen.
    The Wildlands Conservancy at the time was able to raise $40 
million from the private sector. Together with $18 million of 
Federal funds, which we put in over 6 years, we were able to 
purchase some 600,000 acres of these former Catellus inholdings 
to protect those lands for conservation.
    Now I thought all was well. In February of last year, David 
Myers, who is going to be testifying today, of the Wildlands 
Conservancy, came to my office in San Francisco. He brought 
with him charts, photographs, and renderings of huge energy--
solar trough facilities--intended for the very inholdings that 
had been purchased to remain in conservation.
    Now, obviously, I viewed that with some surprise. 
Obviously, I thought, ``Oh, my goodness, how did this happen?'' 
But it happened.
    Now, up to that point, the largest solar facility in 
America was approximately 160 megawatts. Yet I learned that 
some companies were proposing to build solar facilities of 
sizes that had never been built before. One company in 
particular proposed to build an 8-mile-square solar facility, 8 
miles square, in Sleeping Beauty Valley, which is here, which 
would have generated 800 megawatts of power.
    Now I should also mention that these large solar facilities 
do, in fact, alter the landscape. The ground is removed. It is 
leveled. Gravel is placed on it. The troughs go in. The tower 
goes up. Outbuildings are built. The projects are fenced. So 
they are very, very large. One 8 square miles is not a small 
facility. The area is substantially changed.
    So, last March, I went out to see exactly where these 
projects would go. I asked the CEOs of BrightSource, Cogentrix, 
Southern California Edison, and PG&E to accompany me, and in 
fact, they did. We were also joined by individual company 
developers from Solel, Florida Power and Light, and Oak Creek 
Wind.
    We spent the day looking at these lands, and I think it 
quickly became apparent that land set aside for conservation 
had been done so for very good reason. We saw prime desert 
tortoise habitat. We drove to the middle of this beautiful 
valley. We drove down the famous Route 66. We also stopped at 
the Pisgah lava flow and the Amboy Crater.
    Over the course of many months then, my staff and I met key 
stakeholders, including Federal, State, and local officials, 
environmental groups, renewable energy companies, off-highway 
recreation enthusiasts, hunters, cattle ranchers, mining 
interests, the Department of Defense, California's public 
utility companies, the county officials, and local officials 
that were involved.
    We worked hard to incorporate the vast majority of their 
suggestions, and out of these meetings, this bill emerged. We 
tried to achieve a careful balance between conserving the 
desert's pristine heritage, while creating an efficient process 
for renewable energy development. We also made sure to 
incorporate lands designated for recreation and military 
training purposes.
    So far, we have assembled a diverse coalition of support. I 
would like to submit to the committee 76 endorsements for the 
record.
    The Chairman. We are glad to have that in the record.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    The bill is supported by several energy companies, 
including Cogentrix, Abengoa, and Edison International, the 
parent company of Southern California Edison. Southern 
California Edison, who will testify today, is one of the 
largest electric utilities in the country. It provides power to 
more than 13 million people across 11 counties in central, 
coastal, and southern California. They are, in fact, the 
largest purchaser of renewable energy in the entire country, 
particularly solar. Their support is very important to me.
    One thing we learned through this process is that the 
Federal renewable energy permitting system was broken. Until 
recently, the BLM process had operated on a first-come, first-
served basis. It didn't distinguish between a viable project 
and a speculative one.
    In fact, over the past 5 years, more than 100 applications 
have been submitted to build utility-scale renewable energy 
projects on public lands, and not a single project has received 
a permit. Under this status quo, no one wins.
    We have written this bill to try to help fix the system and 
ensure that the development of wind and solar occurs on 
suitable land. We have done this by streamlining the Bureau of 
Land Management permitting process for renewable energy 
development, seeing that disturbed private lands are not 
penalized, but can also be used for development.
    When I drove through the area with biologists, 
environmentalists, what they pointed out to me were acres and 
acres of disturbed private land that could be used, but in this 
process, it was all public land. Now I happen to believe land 
is made public for a purpose, and one of those purposes is 
generally to conserve it and not to have development on it. 
Seeing that disturbed private lands are not penalized, but can 
also be used for development, which we do in this bill.
    Improving and expanding the existing transmission 
infrastructure, which actually runs right through this area. 
Requiring that, in addition to the BLM, the Forest Service and 
the Department of Defense evaluate their lands and set up 
renewable energy development on that land which is suitable.
    The BLM has identified 350,000 acres in California as solar 
energy study areas. Now California needs roughly 120,000 to 
150,000 acres to meet the 33 percent renewable electricity goal 
by 2020. That goal is actually the highest of any State, and we 
can easily achieve twice that amount through the BLM zones.
    Now, not one acre of the proposed monument is within these 
BLM solar study zones. Not one acre of what I propose is within 
the solar study zones. The bill also has no negative impact on 
any of the 9 solar and 3 wind ``fast-track'' BLM proposals. Nor 
does it impact the 4,803 megawatts of solar energy under review 
at the California Energy Commission.
    We have worked a map, which we will submit for your 
consideration, which clearly shows those zones and the fact 
that they do not conflict. Additionally, there are transmission 
corridors that can be improved to accommodate renewable power.
    I would like to close by making one final recommendation. I 
would have no objection if the committee were to add an 
amendment to establish a new solar energy study area in the 
western Mojave. It is believed that there are literally 
hundreds of thousands of acres directly north of Edwards Air 
Force Base, which should be seriously evaluated for solar 
potential. I have encouraged the BLM to do this 
administratively, and I would welcome an amendment by the 
committee in this bill to achieve that.
    I want to thank you for the opportunity to testify, and I 
am very grateful, Mr. Chairman, that you have scheduled this. I 
would look forward to working with the committee on any 
accommodations or changes that you might want to make.
    The Chairman. Thank you very much for your excellent 
testimony.
    Why don't we--unless Senator Murkowski or Senator Udall 
have questions, why don't we allow you to go on with your other 
duties, and we have 9 witnesses on 2 panels. So we would go 
ahead with the first panel at this point.
    It is made up of 3 Government representatives: Honorable 
Robert Abbey, who is the Director of the BLM in the Department 
of Interior; Dr. Dorothy Robyn, who is the Deputy Under 
Secretary of Defense for Installations and Environment with the 
Department of Defense; and Faye Krueger, who is the Acting 
Associate Deputy Chief with the National Forest System, for the 
Forest Service in the Department of Agriculture.
    So we are glad to have all 3 of you here, and I think, as 
is our usual custom, if you could take 5 or 6 minutes each and 
just make the main points. Obviously, we will include your 
complete statement in the record, and then we will have some 
questions.
    Mr. Abbey.

    STATEMENT OF ROBERT V. ABBEY, DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Thank you, Mr. Chairman and members of the 
committee.
    The Department of Interior appreciates the invitation to 
testify on S. 2921, the California Desert Protection Act of 
2010. S. 2921 represents a milestone in Senator Feinstein's 2 
decades-long effort to conserve the deserts of southern 
California while providing for appropriate public access, 
recreation, and development, including the growing demand for 
renewable energy development.
    This bill provides a comprehensive approach to future 
management of Federal lands in the California Desert 
Conservation Area. In addition, S. 2921 strives to enhance the 
efficiency and responsiveness of the wind and solar energy 
development permitting process on public lands throughout the 
West.
    The Department of the Interior supports the goal of S. 2921 
and looks forward to working closely with Senator Feinstein and 
others as this bill moves through the legislative process.
    I am accompanied today by Jim Abbott, the BLM's California 
State Director, and Ray Brady, Manager of the BLM's Energy 
Policy Team.
    The California Desert Conservation Area contains over 25 
million acres and includes 16 million acres of public lands 
administered by the Department of the Interior. The management 
of this conservation area's fragile resources must be balanced 
with the public's needs for recreation access, energy 
development, rights-of-way, and other uses.
    Responsible renewable energy development is one of the 
department's highest priorities, and the BLM is balancing its 
renewable energy goals with the protection of its treasured 
landscapes, wildlife, and cultural resources. We have expanded 
our efforts to evaluate applications for wind and solar energy 
projects by establishing Renewable Energy Coordination Offices 
and expanded renewable energy staffing in 10 western States.
    In addition, the BLM and the Department of Energy are 
preparing a Solar Energy Development Programmatic Environmental 
Impact Statement to address this use. Under consideration is a 
plan for selectively siting solar energy projects on BLM-
administered public lands in the Southwest that have the best 
potential for utility-scale solar energy development. 
Landscape-scale planning and zoning could provide a more 
efficient process for permitting and siting this type of 
development.
    The department is committed to working closely with Senator 
Feinstein, this committee, and the Congress on addressing the 
renewable energy national priority and the many challenges in 
accommodating a multitude of uses in California's deserts.
    Title I of S. 2921 is the outcome of Senator Feinstein's 
extensive local collaborative effort. Her office engaged a 
broad cross-section of desert groups and interests in dialog, 
meetings, and field trips. This effort achieved a significant 
level of consensus among participating groups, most notably 
consensus regarding the bill's conservation provisions, and it 
led to important compromises concerning designation boundaries, 
accommodations for future military expansions, allowances for 
renewable energy development and transmission corridors, and 
many other uses.
    Title I includes the establishment of 2 new national 
monuments, creation of 3 new wilderness areas and expansion of 
2 existing wilderness areas, designation of potential 
wilderness areas, designation of 5 Off-Highway Vehicle 
recreation areas, expansion of 3 existing units of the National 
Park Service, and additions to the National Wild and Scenic 
River System.
    Title II of S. 2921 proposes to improve the wind and solar 
energy development permitting process on BLM-administered lands 
throughout the West and balance renewable energy development 
and conservation in the California desert. Key provisions of 
title II include designation of BLM Renewable Energy 
Coordination Offices in each BLM State with significant wind 
and solar resources; distribution of revenue receipts from wind 
and solar projects on BLM-administered public lands; 
development of an MOU with affected Federal agencies to address 
the processes for improving renewable energy project review; 
deposit of solar and wind energy revenues in the existing oil 
and gas BLM Permit Improvement Fund; and other miscellaneous 
provisions.
    The Department of the Interior supports the goals of S. 
2921, but we do have numerous substantive as well as minor and 
technical modifications to recommend. We look forward to 
working closely with Senator Feinstein, the member of this 
committee, and our Federal partners as S. 2921 moves through 
the legislative process.
    [The prepared statement of Mr. Abbey follows:]

    Prepared Statement of Robert V. Abbey, Director, Bureau of Land 
           Management, Department of the Interior, on S. 2921
    Thank you for the invitation to testify on S.2921, the California 
Desert Protection Act of 2010. S. 2921 represents a milestone in 
Senator Feinstein's two decades-long effort to conserve the deserts of 
southern California while providing for appropriate public access, 
recreation, and development, including the growing demand for renewable 
energy development. This bill, which amends the 1994 California Desert 
Protection Act (CDPA) (Public Law 103-433) and Section 365 of the 
Energy Policy Act of 2005, provides a comprehensive approach to future 
management of federal lands in the California Desert Conservation Area 
(CDCA). In addition, S. 2921 strives to enhance the efficiency and 
responsiveness of the wind and solar energy development permitting 
process on public lands throughout the west. We defer to the Department 
of Agriculture and the Department of Defense regarding provisions 
concerning their lands and interests.
    The Department of the Interior supports the goals of S. 2921 and 
looks forward to working closely with Senator Feinstein, the Committee, 
and our federal partners as this bill moves through the legislative 
process. Given the complexity of the bill, we also note that the 
Department will provide a letter detailing our comments to the 
Committee at a later date. I am accompanied today by Jim Abbott, the 
Bureau of Land Management's (BLM) acting State Director in California 
and Ray Brady, Manager of BLM's Energy Policy Team.
Background
    The CDCA contains over 25 million acres and includes 16 million 
acres of public lands administered by the Department. It was the only 
public land area in the country singled out for special management in 
the Federal Land Policy and Management Act of 1976 (FLPMA). Section 601 
of FLPMA recognized the unique location of the CDCA which is adjacent 
to the metropolitan areas of the Southern California coastal region and 
its estimated 20 million citizens. This juxtaposition has always meant 
the management of the CDCA's fragile resources must be balanced with 
the public's need for recreation access, energy development, rights-of-
way, and other uses.
    The CDCA Plan, mandated by FLPMA and completed in 1980, was vast in 
scale, ambitious in goals, and designed to accommodate many future 
uses. In the early 1990s, however, concerns about conservation balance 
led to the enactment of the 1994 CDPA, which amended the Desert Plan on 
a broad scale. The current focus on renewable energy development is 
again raising concerns about how much of the Desert is protected, and 
how and where the national, region, and state priorities for renewable 
energy development will be accommodated. S. 2921 proposes to amend both 
the Desert Plan and the 1994 CDPA to address these public concerns and 
national priorities.
    Responsible renewable energy development is one of the Department's 
highest priorities, and the BLM is balancing its renewable energy goals 
with the protection of its treasured landscapes, natural resources, 
wildlife, and cultural resources. We have expanded our efforts to 
evaluate applications for wind and solar energy projects by 
establishing Renewable Energy Coordination Offices (RECOs) and expanded 
renewable energy staffing in 10 western states. Renewable energy 
policies on payment of rents, required bonding, diligent development, 
and best management practices designed to support and guide progress in 
the field are being developed and issued.
    In addition, the BLM and the Department of Energy are preparing a 
Solar Energy Development Programmatic Environmental Impact Statement 
(PEIS). Under consideration is a plan for selectively siting solar 
energy projects on BLM-administered public lands in the Southwest that 
have the best potential for utility-scale solar energy development. The 
plan will include mandatory best management practices. Landscape-scale 
planning and zoning could provide a more efficient process for 
permitting and siting this type of development. The draft Solar PEIS is 
expected to be released for public comment near the end of the year.
    The BLM is also reviewing 34 ``fast track'' renewable energy 
projects that include 14 solar energy projects with a potential 
capacity of nearly 6,500 MW; 7 wind energy projects with a potential 
capacity of about 800 MW; 6 geothermal projects with a potential 
capacity of 285 MW, and 7 transmission projects traversing over 750 
miles of BLM-administered lands. Through the ``fast track'' process, 
the Bureau is conducting full environmental analysis and public 
participation while focusing our staff and resources on the most 
promising renewable energy projects. The U.S. Fish and Wildlife Service 
(FWS) and the National Park Service (NPS) are also engaged in this 
review.
    In California specifically, the BLM's two RECO offices are fully 
staffed and operational with work proceeding on more than a dozen fast 
track projects. These offices are working to streamline application 
processing and enforce due diligence on pending applications to avoid 
speculation. The state of California is lead in the preparation of a 
Desert Renewable Energy Conservation Plan (DRECP), with the BLM and the 
U.S. Fish and Wildlife Service as full partners, to take a long-term 
strategic view of where best to site these important projects in the 
future, including on private lands already disturbed from past 
activities.
    The Department is committed to working closely with Senator 
Feinstein, the Committee and the Congress on addressing the renewable 
energy national priority and the many challenges in accommodating a 
multitude of uses in California's deserts.
Title I--``California Desert Conservation and Recreation''
    Title I of S. 2921 is the outcome of Senator Feinstein's extensive 
local collaborative efforts. Her office engaged a broad cross-section 
of desert groups and interests in dialogue, meetings, and field trips. 
This effort achieved a significant level of consensus among 
participating groups-most notably consensus regarding the bill's 
conservation provisions-and it led to important compromises concerning 
designation boundaries, accommodations for future military expansions, 
allowances for renewable energy development and transmission corridors, 
and many other issues.
    Title I includes--the establishment of two new National Monuments; 
creation of three new wilderness areas and expansion of two existing 
wilderness areas; designation of potential wilderness areas; 
establishment of five Off-Highway Vehicle (OHV) Recreation Areas; 
expansion of three existing units of the National Park System and 
additions to the National Wild and Scenic River System.
Conservation Designations
    The spectacular and diverse landscapes of the BLM's National 
Landscape Conservation System (NLCS) include 16 National Monuments. S. 
2921 would add the Mojave Trails National Monument and the Sand to Snow 
National Monument to that list. The proposed Mojave Trails National 
Monument (NM) encompasses approximately 940,000 acres of BLM-
administered public lands in the desert of southeastern California 
along historic Route 66 between Needles and Ludlow, California. It 
surrounds six existing designated BLM wilderness areas and lies to the 
south of the NPS' Mojave National Preserve. The Mojave Trails NM would 
protect critical wildlife corridors between Joshua Tree National Park 
and the Mojave National Preserve as well as the best preserved section 
of the ``Mother Road'' (historic Route 66). Within the proposed NM are 
nearly 200,000 acres of ``Catellus lands'' acquired by the BLM through 
donation and purchase with Land and Water Conservation Fund monies in 
the late 1990s for conservation purposes. The BLM currently manages 
much of this area to protect the desert environment through 
administratively-created Areas of Critical Environmental Concern 
(ACECs) and Desert Wildlife Management Areas (DWMAs) protecting the 
habitat of the threatened desert tortoise and many other listed and 
sensitive species.
    The proposed Sand to Snow National Monument straddles a 
biologically diverse terrain and includes approximately 73,000 acres of 
BLM-administered lands and 60,000 acres of lands under the management 
of the U.S. Forest Service within the San Bernardino National Forest. 
The proposed monument extends from the snows of the 11,000 foot Mount 
San Gorgonio on the west down through the sands of the Sonoran and 
Mojave deserts, on to the unusual desert riparian oasis of Big Morongo 
Canyon, and finally connects in the east to the stark beauty of Joshua 
Tree National Park.
    Each of the National Monuments and National Conservation Areas 
(NCAs) designated by Congress and managed by the BLM is unique. 
However, all of these designations have certain critical elements in 
common, including withdrawal from the public land, mining, and mineral 
leasing laws; OHV use limitations; and language that charges the 
Secretary of the Interior with allowing only those uses that further 
the purposes for which the area is established. The designations 
proposed in S. 2921 are consistent with these principles and we support 
their designation.
    The Department believes it is critical to maintain the integrity of 
existing designated federal rights-of-way and utility corridors 
throughout the United States. As we develop renewable energy throughout 
the west, new transmission capacity will be needed to bring this clean 
energy to the population centers. S. 2921 recognizes the critical role 
played by the public lands within the proposed Mojave Trails National 
Monument in the transmission of energy to southern California. As such, 
the bill specifically makes provisions for both existing and future 
energy transmission rights-of-way. In addition, the bill recognizes and 
preserves this portion of the West Wide Energy Corridor, established 
under the provisions of section 368 of the Energy Policy Act of 2005, 
which bisects the proposed monument. The Department supports these 
provisions.
    While a variety of multiple uses continue in the BLM's NCAs and 
National Monuments, these energy transmission provisions are unusual 
and represent specific collaboration with stakeholders regarding the 
unique needs and values of this specific area. We do not anticipate 
similar management direction in future proposed monuments or NCAs. The 
Department would like the opportunity to work with the Committee on a 
number of specific provisions in S. 2921 regarding both the Mojave 
Trails and Sand to Snow National Monument.
    At present there is only one grazing allotment within the proposed 
Mojave Trails NM. Section 1303(c) (1) provides that the monument 
designation does not affect that existing permit, and we do not oppose 
this subsection. However, subsection 1304(c) (2) and (3) makes 
allowance for the federal government to acquire the base property of 
this individual rancher, and associated grazing privileges. While we 
have no objection to acquiring this private inholding, the BLM has 
serious concerns about the practice of federal buyouts of grazing 
privileges in general. Grazing permits and leases are privileges and 
not rights, a position reaffirmed most recently by the Supreme Court in 
Public Lands Council v. Babbitt, 529 U.S. 728 (2000). Grazing permits 
do not rise to the level of a protectable property interest and they do 
not confer a right, title or interest to the lands of the United 
States. The provisions of Public Law 111-11, the Omnibus Public Land 
Management Act of 2009, that address the management of grazing in 
Owyhee County, Idaho, provide an alternative approach to a proposed 
reduction in grazing.
    There are currently 12 pending renewable rights-of-way energy 
applications on the public lands within the proposed Mojave Trails NM, 
encompassing over 200,000 acres; six are for solar authorizations and 
six are for wind authorizations. These right-of-way applications do not 
represent valid existing rights and perfecting these applications would 
not be allowed after designation of the monument. Section 1307 provides 
authority to the six solar applicants to apply for replacement sites 
for other lands that are not currently encumbered by other applications 
or for lands within Solar Energy ``Zones'' to be designated by the 
Solar Programmatic EIS. Although these applications do not represent 
valid existing rights, the bill language would disrupt the application 
process. We would like the opportunity to work with the sponsor and the 
Committee to explore alternatives to address the concerns that have 
been raised regarding these applications.
    Section 1501 would designate the 86,000-acre Avawatz Mountains 
Wilderness, 8,000-acre Great Falls Basin Wilderness, the 80,000-acre 
Soda Mountains Wilderness, and the 30,000 acre Bowling Alley 
Wilderness, and would expand the existing Golden Valley Wilderness by 
2,600 acres, the Kingston Range Wilderness by 53,000 acres, and the 
Death Valley National Park Wilderness by approximately 59,000 acres. 
The Department supports each of these designations. These proposed 
National Wilderness Preservation System additions will protect fragile 
desert ecosystems and provide important habitat for a diversity of 
plant and animal life. They also serve as a unique and irreplaceable 
living research laboratory. The Avawatz Mountains has been identified 
as an important link for regional habitat connectivity, enabling 
wildlife to move across a large landscape. All of the proposed 
wilderness areas provide opportunities for hiking, rock-climbing and 
horseback riding, for those who wish to experience the desert solitude 
and an outstanding backcountry experience.
    We would like the opportunity to work with Senator Feinstein and 
the Committee on mapping issues as well as management language 
modifications in both section 1502 and the related section 102(b) of S. 
2921.
    Section 1503 proposes to release over 120,000 acres of BLM-
administered wilderness study areas (WSAs) from WSA restrictions 
thereby allowing a full range of multiple uses. We support this 
provision and recommend additional small WSA releases in the Kingston 
Range WSA, Avawatz Mountains WSA, Death Valley WSA and White Mountain 
WSA. These lands are small portions of WSAs that were not designated 
wilderness by this or previous legislation.
    Sections 1601 through 1604 create the 75,000-acre Vinagre Wash 
Special Management Area (SMA) and identify four future potential new 
wilderness areas or expansions of existing designated wilderness areas 
within the SMA. The Secretary is directed to preserve the character of 
these lands for eventual inclusion in the National Wilderness 
Preservation System with limited specific exceptions for military uses. 
Designation of the lands would occur when the Secretary of the 
Interior, in consultation with the Secretary of Defense, determines 
that all activities on these lands are compatible with the Wilderness 
Act of 1964.
    On other lands within the SMA, 112 miles of motorized vehicle 
routes are designated. In recognition of the importance of the lands 
within the SMA to the Quechan Indian Nation and other Indian tribes, 
this section includes special protections of tribal cultural resources 
and provides for a two-year study of those resources and related needs.
    Finally, the Wild and Scenic Rivers Act (16 U.S.C. 1274(a)) is 
amended in Title I by adding segments of five rivers to the National 
Wild and Scenic River System. Three of these, the Amargosa River, 
Surprise Canyon Creek and Whitewater River, cross public lands managed 
by the BLM and NPS. All three of these are important and rare riparian 
areas in the deserts of southern California providing habitat for a 
number of threatened, endangered and sensitive species.
    We support these designations and would like to work with the 
Committee on technical issues.
National Park Service Transfers
    Over 72,000 acres of BLM-managed lands would be transferred to the 
NPS under the provisions of sections 1701-1703 for the expansion of 
Death Valley and Joshua Tree National Parks and Mojave National 
Preserve. These provisions will enlarge each unit to improve resource 
protection and management efficiencies. The BLM and the National Park 
Service support these provisions and would like to work with the 
Sponsor and Committee staff to address mapping issues, make management 
language modifications, and to clarify future management of rights-of-
way and land acquisition authority of the agency in these areas.
OHV Recreation
    Section 1801 designates five OHV Recreation Areas totaling nearly 
345,000 acres. These areas were administratively designated as ``open'' 
areas for OHVs in the CDCA Plan of 1980. The BLM supports each of these 
designations as they would provide congressionally designated areas for 
this popular recreational activity in the California Desert. BLM-
California estimates that these areas receive nearly 600,000 visitor 
days of use annually. We would appreciate the opportunity to work with 
Senator Feinstein and the Committee on minor and technical amendments 
to this section.
Miscellaneous Provisions
    Sections 1901 through 1905 contain a number of miscellaneous 
provisions including transfers and land exchanges within the State of 
California, studies on climate change and tribal issues, and 
restrictions on donated and acquired lands. Specifically, the Secretary 
is directed to transfer nearly 1,000 acres of BLM-administered lands 
within the Table Mountain Wilderness Study Area to the California 
Department of Parks and Recreation; develop a process, in consultation 
with the California State Lands Commission, to exchange isolated 
parcels of federal and state land within the California Desert 
Conservation Area; develop a process, in consultation with the 
Secretary of Defense and the Commission, to purchase or exchange 
parcels of state lands within the area of expansion for the Twentynine 
Palms Marine Corp Base; convey approximately 3,500 acres of BLM-
administered lands to the Department of Transportation for airport 
expansion in Imperial County; and grant the State Lands Commission 
right of first refusal to exchange state land for BLM-administered land 
within the city limits of Needles, California. The Secretary is also 
directed to complete studies on the impacts of climate change on the 
CDCA and a tribal resource management plan on the Xam Kwatchan Trail. 
Lastly, Section 1904 would prohibit certain uses on lands acquired for 
the Conservation Area through the Land and Water Conservation Fund and 
on lands donated to the Conservation Area for conservation purposes.
    We generally do not object to these miscellaneous provisions and 
propose to work with the Sponsor and the Committee on minor 
modifications. For example, we propose that the land exchanges be 
conducted in accordance with FLPMA, standard appraisal practices, and 
reflect fair market value exchanges.
    Section 520 prohibits the BLM from processing any right-of-way 
applications for projects that propose to use native groundwater from 
aquifers adjacent to the Mojave National Preserve in excess of the 
estimated recharge rate as determined by the United States Geological 
Survey (USGS). The USGS has developed a model to estimate recharge in 
the desert southwest using precipitation and air temperature data from 
1970 through 2006. Rainfall, runoff, and recharge estimates for 
groundwater basins adjacent to Mojave National Preserve could be 
extracted from this model to assist in the evaluation of right-of-way 
applications for projects adjacent to the Mojave National Preserve. 
Continued hydrologic monitoring will be necessary to avoid any 
significant impacts on the groundwater resource and other environmental 
resources supported by groundwater. The Department has no objection to 
this provision, which would strengthen protection of this critical 
resource by requiring a careful and balanced review of development 
proposals in this area.
Title II--``Desert Renewable Energy Permitting''
    Title II of S. 2921 proposes to modify the wind and solar energy 
development permitting process on BLM-administered lands throughout the 
West, and balance renewable energy development and conservation in the 
California Desert. Among its key provisions, Title II requires the 
designation of BLM Renewable Energy Coordination Offices (RECOs) in 
each BLM state with significant wind and solar resources; requires the 
distribution of revenue receipts from wind and solar projects on BLM-
administered public lands; requires the development of a Memorandum of 
Understanding (MOU) with affected federal agencies to address the 
processes for improving renewable energy project review; places solar 
and wind energy revenues in the existing oil and gas BLM Permit 
Improvement Fund; and provides other miscellaneous provisions aimed at 
improving and streamlining the wind and solar energy application 
process.
Renewable Energy Coordination Offices
    Section 201 would require the Secretary to designate at least one 
BLM field or district office in ten western states to serve as RECOs. 
The BLM has already established four RECOS in the states with the 
greatest renewable energy development demand: Arizona, California, 
Nevada, and Wyoming. In addition, the BLM has established renewable 
energy teams in six other western states-Colorado, Idaho, Montana, New 
Mexico, Oregon/Washington and Utah-to support the timely processing of 
renewable energy project applications. The BLM supports the RECO 
process but has concerns about the specific legislative mandates in 
this bill. We would like to work with Senator Feinstein and the 
Committee to ensure the Secretary maintains flexibility in determining 
the number and location of RECOs. This flexibility is necessary in 
order to maximize workload and management efficiencies.
    S. 2921 recognizes the importance of improving the renewable energy 
permit process on federal lands throughout the west. The bill 
specifically requires the development of an MOU among affected federal 
agencies to address RECO coordination and to establish a single 
multiagency joint process for the review and approval of renewable 
energy projects. We support the need for improved coordination, and we 
recommend that the section be amended to include Department of Energy 
as a party to that MOU. However, we oppose the 90-day period for 
completion of an MOU, which would involve ten states and numerous and 
separate authorities for renewable energy, as this short timeframe 
would not provide the entities involved with sufficient time to develop 
an effective agreement. We would be happy to discuss alternative time 
frames.
Renewable Energy Receipts
    Section 201 (a) provides for the deposit of wind and solar energy 
receipts into the existing oil and gas BLM Permit Processing and 
Improvement Fund, authorized under Section 365(a) of the Energy Policy 
Act. This fund is currently funded by receipts from oil and gas 
operations pursuant to separate authorities and responsibilities under 
the Mineral Leasing Act. The BLM has authority under the Mineral 
Leasing Act to authorize oil and gas operations on other federal lands. 
However, the BLM does not possess similar authorities to administer 
wind and solar development on other federal lands. As such, the bill 
would blend revenues from programs with different authorizing statutes 
and regulations, thus creating significant administrative and financial 
management issues.
    We also have serious concerns regarding the diversion of solar and 
wind energy receipts from the Treasury, as this change in the revenue 
distribution formula would have significant long term costs. We would 
like to work with the Committee to resolve these concerns. The 
President's fiscal year 2011 Budget proposes to terminate the BLM 
Permit Processing Improvement Fund for the oil and gas program, 
replacing it instead with a combination of discretionary appropriations 
and user fees that have a clear connection to program funding needs. 
The Department strongly supports renewable energy development on the 
public lands, as evidenced by the attention and funding BLM's program 
has received in the President's Budget and through funding made 
available by the American Recovery and Reinvestment Act. Under Section 
201, the revenue from wind and solar energy authorizations collected by 
the BLM would be distributed as follows: states (25%), counties (25%), 
BLM Permit Processing Improvement Fund (40% through 2020), Land and 
Water Conservation Fund (LWCF) (40% after 2020), and a Solar Energy 
Land Reclamation, Restoration, and Mitigation Fund (10%).
    S. 2921 also contains provisions addressing performance bonds for 
reclamation of renewable energy sites upon termination of a project. 
The BLM already requires a performance and reclamation bond for all 
renewable energy project authorizations sufficient to cover the costs 
of reclamation and restoration. It is appropriate that all such costs 
remain the responsibility of the renewable energy project developer and 
not the federal taxpayer.
Renewable Energy Application Process
    Section 202 contains provisions to streamline the solar and wind 
energy application process for projects on lands administered by the 
Secretary of the Interior such as: establishing timeframes for 
processing and evaluating wind and solar projects; providing guidance 
to deny and prioritize wind and solar right-of-way applications; and 
requiring a wind and solar application fee. The issuance of right-of-
way permits for renewable energy projects is a discretionary decision. 
The BLM's existing regulations provide the authority to deny right-of-
way applications based on several factors including when the proposed 
use is inconsistent with the BLM's existing land use plan, would not be 
in the public interest, would be inconsistent with FLPMA and other 
laws, or when the BLM determines that an application is deficient.
    Section 202(h) requires a 50% refundable application processing fee 
(deposit) upon acceptance of a right-of-way application for a wind or 
solar facility on BLM-administered lands. Under existing authorities 
and regulations, the BLM currently collects full cost recovery as costs 
are incurred throughout the wind and solar application process. Due to 
the difficulty in estimating 50% of the total cost for processing an 
application upfront, the BLM recommends continuing its current cost 
recovery process.
Mitigation Zones
    Section 205 describes a mechanism to allow payments into a 
federally administered mitigation fund to facilitate the review of 
renewable energy projects on non-federal land under Section 7 of the 
Endangered Species Act (ESA). While we share the objective of finding a 
means whereby projects on non-federal lands can be considered within 
the same timeframes as those on public lands, we have serious concerns 
with the establishment of new mandatory funding, supplemented by 
additional appropriations, and we would like to work with the committee 
to resolve these concerns.
Miscellaneous Provisions
    Sections 203 through 208 contain a number of miscellaneous 
provisions including the following: requiring a Solar Programmatic 
Environmental Impact Statement (EIS); establishing a Habitat Mitigation 
Zone program in the California Desert Conservation Area; establishing a 
categorical exclusion for meteorological site testing and monitoring; 
and requiring various renewable energy reports to Congress. The bill 
would also require RECOs to prepare environmental reviews for renewable 
energy projects under the Habitat Mitigation Zone program on non-
federal lands. This is a significant expansion of the role and 
responsibilities of the BLM RECOs, and we recommend deleting this 
provision. In addition, we recommend minor technical corrections 
throughout these sections.
Conclusion
    The Department of the Interior supports the goals of S. 2921 and 
has numerous substantive as well as minor and technical modifications 
to recommend. Generally the bill includes substantial workloads within 
short timeframes which may be overly optimistic; we want to insure that 
the goals of the legislation can be realistically achieved. We look 
forward to working closely with Senator Feinstein, the Committee, and 
our federal partners as this bill moves through the legislative 
process.

    The Chairman. Thank you for your statement.
    Dorothy Robyn, we are glad to see you here in your new 
capacity.

STATEMENT OF DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF DEFENSE, 
      INSTALLATIONS AND ENVIRONMENT, DEPARTMENT OF DEFENSE

    Ms. Robyn. Thank you, Senator Bingaman, and thank you for 
the other members of this distinguished committee for allowing 
me the opportunity to testify today.
    The California Desert Protection Act represents a 
significant and laudable effort to preserve the environment and 
promote the development of renewable energy while, at the same 
time, protecting the ability of the U.S. military to carry out 
its mission. The Department of Defense supports all 3 of these 
goals.
    Renewable energy represents a critical plank in the 
Department's energy security platform. Military installations, 
many of them located in the Southwest and along our coasts, are 
well-situated to support large-scale solar, wind, and 
geothermal energy projects. Such projects can help the 
department achieve 2 important goals.
    First, renewable energy can help us reduce our costly 
reliance on fossil fuels and the related greenhouse gas 
emissions they generate. The Department of Defense has pledged 
to reduce its greenhouse gas emissions by a third over the next 
decade, and the expansion of renewable energy development on 
our installations will be key to meeting that goal.
    Second, the development of renewable energy can help 
installations provide for greater mission assurance. When 
combined with microgrid technology and energy efficiency 
investments that significantly reduce demand, distributed 
renewable energy sources can assist in allowing military 
installations to carry out mission-critical activities in the 
event of disruption to the electricity grid.
    For these and other reasons, we have been actively pursuing 
solar, wind, geothermal, and other forms of renewable and 
alternative energy. For example, Nellis Air Force Base, where 
the President spoke a year ago, in southern Nevada built a 1-
megawatt photovoltaic solar array. Nellis saves $1 million a 
year in electricity costs and avoids 24,000 tons of carbon 
dioxide emissions.
    The military's interest in renewable is nothing new. Naval 
Air Weapons Station China Lake in California has been operating 
a 270-megawatt geothermal plant since 1987. The department is 
also doing a significant amount of R&D on renewable energy. The 
Navy is looking at ocean thermal energy conversion, OTEC. A 
program that I oversee is using DoD installations as a testbed 
for next-generation renewable and other forms of energy 
technology.
    Those technologies that prove effective, the military can 
help create a market for them, as it has done with aircraft, 
electronics, and the Internet. So, in many, many ways, we are 
deeply supporting renewable energy, but specific projects can 
pose problems for us.
    The siting of a large-scale renewable energy project on or 
near a military installation may not be compatible with a 
current or projected mission. The issue of wind turbines and 
radar comes to mind. I have been dealing with that lately.
    A second potential conflict arises from the fact that 
military installations, which represent some of the best 
protected and most pristine land in the Federal inventory, are 
home to many threatened and endangered species, more than 300 
to be exact. An installation may not be able to, in all cases, 
accommodate the construction of, say, a large solar facility if 
it would adversely affect sensitive habitat.
    We are grateful to Senator Feinstein for recognizing how 
important her legislation is to the military and for working so 
cooperatively with the department's regional environmental 
staff in California prior to introducing the bill. As a result 
of that collaboration, the bill incorporates many provisions 
that address and protect our operations.
    Let me highlight several things where our initial review 
suggests that we would like to have further discussion. First, 
in Title I, we see many potential benefits to the bill's basic 
approach, namely the designation of large monument and 
wilderness areas as off limits to development. I lay out a 
number of reasons why that would have positive benefits for 
military installations.
    It could, depending on--the devil is in the details, 
depending on where the--if that serves to steer development to 
other areas, that could conceivably present a problem for us. 
So we need to do a more detailed site-by-site analysis of 
exactly what is in the bill in order to determine that.
    In title II, there are 2 specific sections that raise 
potential concerns for us. Section 206 calls for the Defense 
Department and other Federal agencies to do a programmatic 
Environmental Impact Statement. We like that approach for a 
variety of reasons.
    However, we are concerned with the time restrictions 
included in the bill. For the results of this programmatic EIS 
to improve the quality of our siting process and our land 
management decisions, we need to use a rigorous and complete 
analysis. We believe it will take significantly more time than 
currently provided in the bill.
    Second, section 201 calls for BLM to create Renewable 
Energy Coordination Offices in 10 States. It is not clear from 
the bill if the intent is for those offices to have permitting 
authority for all Federal lands in these States or only for 
those lands currently managed by the BLM. We have overriding 
responsibility to protect our ability to test, train, and 
operate on all of our installations, including those formed in 
whole or in part from lands withdrawn from the public domain.
    The Department of Defense already has a permitting process, 
under its separate authorities, for lands under its management. 
This process works well to ensure that appropriate energy 
production occurs on these lands, without interfering with the 
mission of the department. Although our own permitting process 
would no doubt benefit from additional coordination with the 
permitting process of BLM, it would not be beneficial to limit 
our authority with regard to permitting on our installations.
    In closing, we strongly support the goals of S. 2921. We 
like many of the approaches embodied in the bill. We will 
provide additional views on the bill in the near future, and 
along with the other Federal agencies here today, we look 
forward to working closely with the committee in the coming 
months to address the issues that I have highlighted today.
    Thank you very much.
    [The prepared statement of Ms. Robyn follows:]

Prepared Statement of Dorothy Robyn, Deputy Under Secretary of Defense, 
          Installations and Environment, Department of Defense
    Thank you for the opportunity to testify today and provide 
preliminary comments on S. 2921, the California Desert Protection Act 
of 2010, introduced by Senator Feinstein. This bill represents a 
significant and laudable effort to preserve the environment and promote 
the development of renewable energy while at the same time protecting 
the ability of the U.S. military to carry out its mission. The 
Department of Defense supports these goals and we want to work closely 
with the committee to ensure that military, renewable energy, and 
environmental equities are protected as you further develop this 
legislation. We defer to the Department of Interior and Agriculture 
with respect to provisions that solely concern their lands and 
interests.
    As the Quadrennial Defense Review made clear, crafting a strategic 
approach to energy and climate change is a high priority for the 
Department. This reflects mission considerations above all. The 
Department's own analysis confirms what outside experts have long 
warned: our military's heavy reliance on oil and other fossil fuels 
creates significant risks and costs at a tactical as well as a 
strategic level. They can be measured in lost dollars, in reduced 
mission effectiveness and in U.S. soldiers' lives. Unleashing 
warfighters from the tether of fuel and reducing our military 
installations' dependence on a costly and potentially fragile power 
grid will not simply enhance the environment, it will significantly 
improve our mission effectiveness.
    Renewable and alternative energy represents a critical plank in the 
Department's energy security platform. Military installations-many of 
them located in the Southwest and along our coasts-are well-situated to 
support large-scale solar, wind and geothermal energy projects that are 
carefully sited and developed in ways that are consistent with our 
current and projected military mission requirements. The development of 
such mission-compatible renewable energy to support our military 
installations can help the Department achieve two important goals.
    First, it can help the Department reduce its costly reliance on 
fossil fuels and the related greenhouse gas emissions they generate. 
DoD's permanent installations, which include some 300,000 buildings and 
2.2 billion square feet of floor space, account for about 28 percent of 
the Department's total energy usage ($4 billion in 2009). Installations 
account for even more of DoD's greenhouse gas emissions-nearly 40 
percent-because of their reliance on the commercial electricity grid, 
which is heavily powered by coal. The Department has pledged to reduce 
greenhouse gas emissions from non-combat activities by 34 percent over 
the next decade, and the expansion of renewable energy development on 
our installations will be key to meeting that goal.
    Second, combined with appropriate technologies and necessary energy 
assurance policies, the development of renewable energy can help 
military installations provide for greater mission assurance. According 
to the Defense Science Board, the increasing fragility of the 
commercial grid to cyberattack, natural disaster and other threats 
places the continuity of critical military missions at growing risk.\1\ 
When combined with microgrid technology and energy efficiency 
investments that significantly reduce demand, distributed renewable 
energy sources can assist in allowing installations to carry out 
mission-critical activities and support restoration of the grid in the 
event of disruption.
---------------------------------------------------------------------------
    \1\ ``More Fight-Less Fuel,'' Report of the Defense Science Board 
Task Force on DoD Energy Strategy, February 2008.
---------------------------------------------------------------------------
    The military has been actively pursuing solar, wind, geothermal and 
other forms of renewable and alternative energy to achieve these and 
other goals. For example, Nellis Air Force Base in southern Nevada 
built a 14-megawatt (MW) photovoltaic solar array: more than 72,000 
solar panels track the sun to generate 30 million kilowatt-hours of 
electricity per year-equivalent to a quarter of the total power used at 
the 16,000+ population base. As with most renewable energy projects on 
military installations, Nellis took advantage of third-party financing. 
Nellis saves $1 million a year in electricity costs and avoids 24,000 
tons of carbon dioxide emissions.
    The military's interest in renewable energy is nothing new. Naval 
Air Weapons Station China Lake in California has been operating a 270-
MW geothermal plant since 1987. The heat from 166 wells, some of them 
12,000 feet deep, is sufficient to light up 180,000 homes. The Navy is 
helping the Army tap into geothermal resources at its Weapons Depot in 
Hawthorne, Nevada, and that project will be capable of producing 30 MW 
of clean power. Working to further develop and deploy advanced 
geothermal technologies to make this a viable strategy at additional 
installations may be an important element of our energy assurance 
program.
    Also relevant is the Department's effort to use DoD's installations 
as a testbed for next-generation energy technologies coming out of 
industry, Department of Energy and university laboratories. These 
include technologies to improve the conservation and efficiency of 
building energy, control and management of local energy loads, as well 
as on-site alterative and renewable energy generation. DoD can assess 
the performance, cost, and environmental impact of these advanced, pre-
commercial technologies. For those technologies that prove effective, 
DoD can serve as an early customer, helping create a market, as it did 
with aircraft, electronics and the internet. This approach is key to 
meeting the Department's needs but it is also an essential element of a 
national strategy to develop and deploy the next generation of energy 
technologies needed to support our built infrastructure.
    Despite the Department's support for renewable energy, specific 
renewable energy projects can pose problems for the military. Let me 
discuss three situations.
    First, the siting of a large-scale renewable energy project on or 
near a military installation may not be compatible with the current or 
projected mission of the installation. For example, wind turbines or a 
solar tower can interfere with mission-critical navigation or other 
radar. We are working actively both to identify potential problems well 
in advance of siting and to develop better mitigation technology. 
However, some conflicts may be unavoidable, and sustaining our ability 
to conduct our current and projected mission requirements must be our 
overriding consideration.
    A second potential conflict arises from the fact that military 
installations, which represent some of the best protected and most 
pristine land in the federal inventory, are home to many threatened and 
endangered species and other species at risk. Such an installation may 
not be able to accommodate the construction of, for instance, a large 
solar facility if it would adversely affect sensitive habitat. Even if 
the proposed site for a solar facility were outside of the installation 
fence, the facility could negatively affect military operations by 
placing additional burdens on the installation for species recovery or 
by potentially increasing the vulnerability of installation 
populations.
    A third potential conflict has to do with the competition for 
water. The same areas that are ideally suited to large solar projects 
also typically face severe water shortages. The construction of such a 
solar project on or near an installation will almost always increase 
the competition for water supplies that are already scarce and which 
may become even more scarce in the future. In addition to putting 
pressure on the military mission directly, this can make it even more 
difficult for an installation to maintain its sensitive habitat and the 
threatened and endangered species it sustains.
    In sum, the military has significant interests and equities in 
federal policy dealing with the development of renewable and 
alternative energy sources. This is particularly the case with respect 
to energy development in the Mojave and Colorado Deserts, where we 
conduct an enormous amount of testing, training and other operational 
activity. The test and training ranges in this unique part of the 
country are among the Department's most valuable and irreplaceable 
installations, often described as our ``crown jewels.''
    We are grateful to Senator Feinstein for recognizing how important 
this legislation is to the military and for working so cooperatively 
with the Department's regional environmental staff in California prior 
to introducing the bill. As a result of that collaboration, the bill 
incorporates many provisions that address and protect our operations. 
Below, I mention some of them. I also highlight several sections where 
the Department's initial review has revealed the need for further 
discussion. We will provide a letter to the Committee detailing our 
comments after we have had an opportunity to review the legislation in 
depth.
Title I--California Desert Conservation and Recreation
    We appreciate that, throughout Title I, the bill recognizes that 
the military is an essential presence in both the proposed Mojave 
Trails National Monument and the Sand to Snow National Monument. Let me 
cite three examples:

  <bullet> The bill includes representatives from the Department of 
        Defense on the Advisory Committee for both Monuments, giving us 
        an important role in their long term management.
  <bullet> The bill excludes certain areas from the Mojave Trails 
        National Monument pending possible withdrawal and addition to 
        the Marine Corps Air Ground Combat Center at Twentynine Palms, 
        protecting our options to address future mission needs.
  <bullet> In establishing the Avawatz Mountains, Golden Valley, and 
        Soda Mountains Wilderness Areas adjacent to Fort Irwin, the 
        Great Falls Basin Wilderness Area adjacent to China Lake, and 
        the Kingston Range Wilderness Area to the east of Fort Irwin, 
        the bill protects the authority of the Secretary of Defense to 
        conduct military activities at desert installations, 
        facilities, and ranges. Particularly critical is the language 
        explicitly protecting those military activities that can be 
        seen or heard from within the Wilderness Areas.

    Nevertheless, to ensure that our activities are protected, we must 
better understand the bill's land management requirements in total, 
particularly as they relate to our ability to conduct testing, 
training, and operational activities and our responsibilities under the 
Endangered Species Act to protect threatened and endangered species and 
the associated critical habitat.
    We see many potential benefits to the bill's approach-namely, the 
designation of large monument and wilderness areas as off-limits to 
development. This approach may protect our installations from the 
encroachment that such development could cause. Having these areas 
protected may expand critical habitat and spread species management 
responsibilities over a larger area, thereby lessening the pressures on 
the species and on DoD's land management responsibilities. Precluding 
development in these areas would also reduce the competition for 
limited water resources. On the other hand, the limitation of 
development in certain areas would likely steer development to other 
areas, which may not be compatible with our current and projected 
mission requirements in every case. Therefore, we need to conduct a 
detailed, site-by-site analysis in light of our current and projected 
missions to understand the full implications of Title I.
Title II--Desert Renewable Energy Permitting
    One thrust of Title II would be to concentrate renewable energy 
development in particular geographic areas within the Mojave Desert. 
This is potentially quite beneficial: the designation of specific areas 
for renewable energy development would facilitate such development by 
giving developers and Federal agencies alike clear parameters early in 
the planning process, by facilitating coordination with ongoing 
regional planning efforts at the local, state, and federal levels, and 
by streamlining that process in numerous other ways. Depending on where 
those areas are located, however, the concentration of renewable energy 
development could be incompatible with the Department's current and 
projected mission requirements. Here, again, we would need to conduct a 
more detailed analysis.
    In addition, based on our preliminary review of the legislation, 
there are three specific sections in Title II that are of particular 
interest or that raise potential concerns for the Department.
            Programmatic Environmental Impact Statement (Sec. 203)
    We appreciate the bill's intent to have federal agencies evaluate 
the environmental impacts of renewable energy in a programmatic manner, 
early in the process. This approach enables a more strategic assessment 
of the range of options and the associated direct, indirect and 
cumulative impacts. By evaluating these impacts earlier, it shortens 
the process when we move to site specific decisions while ensuring that 
we better understand the cumulative impacts of each project.
    The Department is, however, concerned with the time restrictions 
included in the bill. As you can appreciate, for the results of this 
programmatic environmental impact statement to improve the quality of 
our siting process and our land management decisions, we need to gather 
the appropriate information and apply a rigorous and complete 
environmental analysis. To ensure that this is a thoughtful and 
meaningful process, we believe it will take significantly more time 
than currently provided in the bill. Moreover, in the interests of 
efficiency and overall environmental protection, any programmatic 
assessment for renewable energy options by DoD should be produced 
concurrently with assessments done by the Forest Service, Bureau of 
Land Management and other federal agencies to coordinate efforts, 
scope, regional coverage, use of data and desired outcomes.
            Military Installations Study (Sec. 204)
    The military installations study directs the Department to assess 
the financial, environmental, and national security implications of 
renewable energy development on military installations in the Mojave 
and Colorado Deserts in the States of California and Nevada. This area 
includes many large and critical military installations and contains 
some of the most important testing and training ranges within the 
Department of Defense. Renewable energy is a critical component of the 
Department's energy strategy and this region of the country has 
significant renewable energy resources that could be exploited. Section 
204 identifies important issues that the Department must consider as we 
continue to develop renewable energy programs. The Department needs to 
understand the full impacts of renewable energy development on our 
installations. We have already initiated plans to conduct such a study 
based on language in the Department of Defense Appropriations Act for 
FY 2010.
            Renewable Energy Coordination Offices (Sec. 201)
    We appreciate the Senator's efforts to make the Department an 
integral part of the Federal permit coordination process. Renewable 
energy siting decisions in this region, on or off military 
installations, must comport with military activities in order to ensure 
the viability of our training, testing, and operations, to safeguard 
the public, and to protect the security of sensitive activities.
    We believe some aspects of the prescribed process and structure 
need clarification. First, it is not clear if the Renewable Energy 
Coordination Offices that the bill would create will have permitting 
authority for all Federal lands in these states or only those lands 
currently managed by the Bureau of Land Management (BLM). We have the 
overriding responsibility to protect our ability to perform testing, 
training, and operational missions on all of our installations, 
including those formed in whole or in part from lands withdrawn from 
the public domain. The Department of Defense already has a permitting 
process, under its separate authorities, for lands under its 
management. This process works well to ensure that appropriate energy 
production occurs on such lands, without interfering with the mission 
of the Department. The Department's authorities provide strong 
incentives to installation commanders to pursue such projects. Although 
the Department's own permitting process would benefit from additional 
coordination with the permitting process of BLM, it would not be 
beneficial to limit the authority of the Department with regard to 
permitting on our installations.
    In addition, siting of renewable energy facilities and associated 
infrastructure on private and state lands has the potential to have a 
significant impact on our testing, training, and operational missions. 
It is not clear that the permitting process outlined in the bill 
adequately addresses the critical interaction of Federal agencies with 
state and local permitting processes.
            Conclusion
    We strongly support the goals of S. 2921-namely, to advance 
renewable energy while protecting the environment and protecting our 
current and projected military missions. We will provide additional 
views on the bill in the near future. Along with the other federal 
agencies, the Department of Defense looks forward to working closely 
with the Committee in the coming months to address the issues we have 
highlighted today.

    The Chairman. Thank you very much.
    Ms. Krueger, why don't you go ahead? Then I know that 
Senator Udall has to leave by 10:15 a.m. So we will defer to 
him to ask a question before he leaves after you finish your 
testimony.

   STATEMENT OF FAYE KRUEGER, ACTING ASSOCIATE DEPUTY CHIEF, 
       NATIONAL FOREST SYSTEM, DEPARTMENT OF AGRICULTURE

    Ms. Krueger. All right. Mr. Chairman, members of the 
committee, thank you for the opportunity to provide the views 
of the Department of Agriculture on S. 2921.
    The department supports this bill. However, we defer to the 
Department of Interior and Department of Defense regarding the 
provisions concerning their lands and interests. We look 
forward to working closely with Senator Feinstein, the 
committee, and our Federal partners to address the concerns of 
the administration as this bill moves through the legislative 
process.
    Most of the Forest Service lands in the bill are in the San 
Bernardino National Forest. The San Bernardino National Forest 
Land Management Plan Revision of 2006 was developed through an 
extensive 5-year process with considerable public involvement. 
The monument and wilderness designations in S. 2921 are closely 
aligned with recommended wilderness and forest management 
objectives included in the revised plan.
    S. 2921 would designate approximately 60,000 acres of land 
in the San Bernardino National Forest, along with approximately 
73,000 acres of Bureau of Land Management lands as the Sand to 
Snow National Monument, to be managed jointly by both agencies. 
The purpose of the monument would be to preserve the nationally 
significant biological, cultural, educational, geological, 
historic, scenic, and recreational values at the convergence of 
the Mojave and Colorado Deserts and the San Bernardino 
Mountains.
    The legislation would also provide for consistent 
management of the area with BLM. The Forest Service and BLM 
have been successful in similar co-management in California. 
The proposed wilderness addition would also designate a little 
over 7,000 acres to be added to the San Gorgonio Wilderness in 
San Bernardino National Forest, and the department supports the 
wilderness designation.
    The bill would also designate 76.3 miles of the Deep Creek 
and Whitewater River as part of the National Wild and Scenic 
River System. During our initial evaluation, we found each 
river eligible for designation based on their free-flowing 
character and regionally important river-related values. The 
department supports designation of these eligible rivers.
    Energy section 203 would direct the Secretary to complete a 
programmatic Environmental Impact Statement no later than 18 
months after the date of enactment of the bill. The 
programmatic EIS would analyze the potential impacts of a 
program to develop solar, biomass, and wind energy on National 
Forest System lands.
    We agree that renewable energy options from sources on 
National Forest System lands should be fully explored, and we 
would like to look at how best to focus our resources for on-
the-ground efficiencies. We would like to work with the 
committee on revisions to clarify the roles and relationships 
of Federal agencies in the permitting process as well.
    In conclusion, Mr. Chairman, the department generally 
supports this legislation and looks forward to working with the 
committee on the changes requested. I would be happy to answer 
any questions you might have.
    Thank you.
    [The prepared statement of Ms. Krueger follows:]

  Prepared Statement of Faye Krueger, Acting Associate Deputy Chief, 
           National Forest System, Department of Agriculture
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to provide the views of the Department of Agriculture on S. 
2921. The Department supports the goals of S. 2921. However, we defer 
to the Department of the Interior (DOI) and the Department of Defense 
regarding provisions concerning their lands and interests. We look 
forward to working closely with Senator Feinstein, the Committee, and 
our Federal partners to address the concerns of the Administration as 
this bill moves through the legislative process. Most of the Forest 
Service lands in the bill are in the San Bernardino National Forest. 
The San Bernardino National Forest Land Management Plan Revision of 
2006 was developed through an extensive five-year process with 
considerable public involvement. The selected plan alternative 
emphasized ``environmentally sustainable recreation.'' The monument and 
wilderness designations in S. 2921 are closely aligned with recommended 
wilderness and forest management objectives included in the revised 
plan. We would like to work with the committee on some minor 
modifications to provisions in Title I, including some technical 
aspects of the bill such as map reference dates and wilderness acreage 
figures.
Monument Designation
    S. 2921 would add section 1402 to the California Desert Protection 
Act of 1994 to designate approximately 60,000 acres of land within the 
San Bernardino National Forest; along with approximately 73,000 acres 
of Bureau of Land Management (BLM) lands as the Sand to Snow National 
Monument, to be managed jointly by the agencies. The purpose of the 
monument would be to preserve the nationally significant biological, 
cultural, educational, geological, historic, scenic and recreational 
values at the convergence of the Mojave and Colorado Deserts and the 
San Bernardino Mountains. Designation would also secure the opportunity 
for present and future generations to experience and enjoy the 
magnificent vistas, wildlife, land forms, and natural and cultural 
resources of the monument. The bill also would direct DOI and USDA to 
complete a management plan for the conservation and protection of the 
monument within 3 years, and address whether a visitors center should 
be established.
    The 2006 Forest Plan recognizes the importance of wildlife 
connections and corridors to and from the National Forest, as well as 
the significant biological, cultural, scenic and recreational values of 
the greater San Gorgonio Mountain ecosystem. The monument designation 
would help us address these critical wildlife and resource issues.
    The legislation would also provide for consistent management of the 
area with the BLM. The Forest Service and BLM are successfully using 
the Service First co-management model for the Santa Rosa and San 
Jacinto Mountains National Monument. The Department anticipates using a 
similar management model if this new monument is designated.
    The requirement to establish an advisory committee that would 
provide advice on the development and implementation of the management 
plan for the monument closely mirrors the success of the Santa Rosa and 
San Jacinto Mountains National Monument. The Department believes that 
an advisory committee would also be helpful in developing the Sand to 
Snow Monument plan.
    However, due to the length of time necessary to establish a FACA 
committee, and the importance of creating a successful management plan, 
the Department recommends that the bill language be changed to provide 
that the management plan be completed three years after the advisory 
committee is established.
    The Department agrees that the monument plan should address the 
needs for a visitor center. If the Secretaries determine that a visitor 
center is needed, it is critical that the advisory committee provide 
recommendations about sources of funding to build, staff, operate and 
maintain the visitor center.
Proposed Wilderness Addition
    Section 1501(c), as added to the California Desert Protection Act 
of 1994 by S. 2921, would also designate a 7,141-acre wilderness 
addition to the west and south of the existing 95,953-acre San Gorgonio 
Wilderness in the San Bernardino National Forest. The area under 
consideration is currently an inventoried roadless area. The Department 
supports the wilderness designation. Although this designation is 
smaller than what was recommended in the 2006 Forest Plan revision, the 
adjustment would make management of the area less complex.
Wild and Scenic River Designation
    Section 102 of S. 2921 would designate approximately 76.3 miles of 
the specified rivers as part of the National Wild and Scenic Rivers 
System. Of this total, approximately 34.5 miles of Deep Creek, 
including its principal tributary, Holcomb Creek, and 17.1 miles of the 
North, Middle and South Forks of the Whitewater River are within the 
boundary of the San Bernardino National Forest and would be 
administered by the Department of Agriculture.
    During step one of the evaluation process, the Forest Service found 
each river eligible for designation based on their free-flowing 
character and regionally important river-related values. We have not 
conducted the second part of the evaluation process, the suitability 
study, for either of the rivers. However, the Department supports 
designation of these eligible rivers based on general support from the 
communities of interest and consistency of designation with the 
management of National Forest System lands within the river corridors. 
We wish to work with the Subcommittee to clarify the co-administration 
of the designated segments of the Whitewater River and provide other 
technical corrections.
Energy
    Section 203 would direct the Secretary to complete a programmatic 
environmental impact statement (EIS) not later than 18 months after the 
date of enactment of the bill. The programmatic EIS would analyze the 
potential impacts of a program to develop solar, biomass, and wind 
energy on National Forest System (NFS) lands, and any necessary 
amendments to land use plans for the land as appropriate.
    We agree that renewable energy options from sources on NFS lands 
should be fully explored. We'd like to look at how best to focus our 
resources to expand our on-the-ground efficiencies; including whether a 
programmatic EIS might be helpful in expanding our capabilities while 
protecting our National Forests. In addition, any programmatic 
assessment for renewable energy options should be done concurrently 
with assessments done by the Bureau of Land Management, Department of 
Defense, and other federal agencies to coordinate efforts, scope, 
regional coverage, use of data, and desired outcomes.
    Section 201(a) of the bill would amend section 365 of the Energy 
Policy Act of 2005 (42 U.S.C. 15924) to add subsection (j) requiring 
the Secretary of the Interior to establish a process for the 
coordination of Federal permits for projects to develop renewable 
energy derived from wind, solar, renewable biomass, hydro and 
geothermal sources and associated transmission lines, and a subsection 
(k) providing for the distribution of income collected by the Bureau of 
Land Management (BLM) for solar and wind energy development. We would 
like to work with the committee to clarify the roles and relationship 
of Federal agencies in the permitting process.
    In conclusion Mr. Chairman, the Department supports the goals of 
this legislation and looks forward to working with the committee on the 
changes requested. I would be happy to answer any questions you may 
have. Thank you.

    The Chairman. Thank you very much.
    Senator Udall, why don't you go ahead with your questions?
    Senator Udall. Thank you, Mr. Chairman, for putting me at 
the front of the line. I very much appreciate it.
    The testimony this morning is important. I did want to 
acknowledge Senator Feinstein's leadership. These are big and 
important and contentious questions. But if we were to avoid 
facing them, then we miss opportunities on the renewable energy 
front. We also miss opportunities to preserve these remarkable 
lands.
    I look forward to working with the chairman and the ranking 
member and others as we grapple with what I think can 
ultimately be an important solution.
    Let me make a comment in addition, and then I have a 
question for Dr. Robyn. I did want to just register, Mr. 
Chairman, my concern about the use of categorical exclusions in 
the bill.
    I understand the need to move quickly. I understand energy 
industry frustrations. But I also think we have seen, in some 
cases, CEs, as they are known in the parlance, being used 
perhaps inappropriately. Most notably, the oil and gas spewing 
out of the Gulf right now was part of a process where a CE was 
used. So I think it would be important to have conversations 
about the use of categorical exclusions, particularly in a 
broad-based way.
    So if I could turn to Dr. Robyn? Again, thank you for your 
testimony. I serve on the Armed Services Committee, as does the 
chairman, and I am really interested in your testimony in 
regard to the DoD serving as a testbed for new and emerging 
technology. You already are, frankly. There are lot of great 
stories, and the military is leading on this whole effort, this 
mission to be energy self-reliant.
    I would ask that you would provide detailed information to 
the committee concerning this initiative that would outline the 
current scope of activities, the relationships with the DOE and 
other agencies, current and projected resources to take 
advantage of this approach, and the applicability of the 
approach to a broader range of energy technologies, as well as 
energy-related policies and programs within the broader Federal 
Government.
    I have thrown a lot at you. Can you talk briefly about this 
and then provide additional information for the record? If you 
would turn your mike on, that would be great, too.
    Ms. Robyn. Yes. You asked me about my--perhaps my favorite 
topic. The Defense Department in general, but in particular, 
installations that I oversee, serving as a testbed for pre-
commercial technology, technology coming out of DOE labs, 
industry laboratories.
    First of all, let me say that the reason the Defense 
Department has been so successful as in support for technology 
going back to Eli Whitney and interchangeable parts for musket 
production is that we perform the R&D, and then we have a hand-
in-glove relationship with the people who take that R&D, the 
services, and use it. No one else has that kind of a 
relationship, and it has historically been incredibly 
successful.
    In the case of energy, we won't be doing the bulk of the 
R&D. We will be doing R&D in areas where we have mission-unique 
needs. But most of the R&D is going to be done in the 
Department of Energy, in industry, other places. But we still 
have that ability to serve as a very, very sophisticated first 
adopter. So at the alpha and beta stage for this pre-commercial 
technology, and then as an early customer, as we have done 
historically.
    So for those technologies that are successful, we can help 
create the market. We are working closely--the Department of 
Energy has from Dr. Chu on down, have recognized that this is a 
natural partnership, that where DOE has been weak in the past 
has been the lack of customer pull. It has all been technology 
push from the laboratory.
    So we are working with them so that we can be their 
customer, in effect, and so that they can carry out R&D on 
batteries, storage, building energy in ways that suit our needs 
as a customer. That will make both of us more effective. So I 
see this as being a very, very powerful part of our national 
energy program, and I would love to give you more information.
    Senator Udall. I very much look forward to additional 
information for the record. I know the chairman, the ranking 
member, and the rest of the committee would as well.
    It seems only right, given that the DOE is, in effect, an 
offspring of the Department of Defense, and perhaps now that it 
is an adult child will work fully hand-in-hand with the 
Department of Defense. But DoD is going to lead us in many ways 
to this goal we have of energy self-reliance.
    Thank you.
    Mr. Chairman, just one 10-second additional comment.
    Ms. Krueger, thank you for your testimony, and I was 
thinking about Colorado when you talk about a Sand to Snow 
National Monument. We may have a model that would be of some 
use as an analog, and that is the Great Sand Dunes National 
Park, based in the San Luis Valley, which includes elevations 
from about 6,000 feet to 14,000 feet and is a quilt, if you 
will, of Federal land, some private lands, forest lands, now 
national park lands. There may be some examples and lessons 
learned there that would be applicable as we pursue Senator 
Feinstein's vision that is tied to this important piece of 
legislation.
    Thank you.
    Ms. Krueger. Thank you for that information.
    Senator Udall. Thank you.
    Mr. Chairman, thank you.
    The Chairman. You are certainly welcome.
    Senator Murkowski, go ahead with your questions.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
it.
    Mr. Abbey, with regards to the renewable energy permitting 
office in section 201 that sets forth the specific uses for the 
funding and how the income that is generated is disbursed. Can 
you inform me whether or not if 2921 is enacted, would you 
impose this revenue-sharing proposal on all renewable projects 
that are proposed for Federal lands?
    Mr. Abbey. Senator Murkowski, it is my understanding, based 
upon my interpretation of the bill, that it would apply to all 
renewable energy, or solar energy projects throughout the West, 
the distribution of revenue.
    Senator Murkowski. Correct. But you say on Federal lands 
throughout the West. What if you have Federal lands that are 
not necessarily in the West? I just want to know whether you 
envision this as a nationwide revenue proposal?
    Mr. Abbey. It would apply to BLM-managed projects.
    Senator Murkowski. OK. All right. Then how is this proposed 
formula different than from the onshore oil and gas royalty 
formula?
    Mr. Abbey. The oil and gas revenue include both rental and 
royalties. The rental revenue provides 50 percent to the State 
and 50 percent to the oil and gas permit processing improvement 
fund. The royalties go 50 percent to the State and 50 percent 
to the Federal Treasury.
    The distribution of revenue as proposed by Senator 
Feinstein is unique. It differs from what is currently in place 
for oil and gas revenues. So it would create a different 
disbursal--mechanism for disbursal.
    Senator Murkowski. Is the BLM in agreement that that 
distinction is something that you would support?
    Mr. Abbey. This is one of those areas that we would like to 
work with Senator Feinstein and the members of this committee 
to address. We certainly have differences of opinions of how 
those moneys could be disbursed.
    Senator Murkowski. Let me ask you about the situation with 
the companies that had potential leases for solar development 
on these lands, have a pending application. Now as I understand 
it, these companies will have the option to move to the head of 
the line for other potential lease opportunities on Federal 
lands, but doesn't specify where.
    The first question is did BLM encourage companies to 
consider leasing solar sites within any of these 1.6 million 
acres that are proposed by the bill?
    Mr. Abbey. I wouldn't use the term ``encourage.'' We 
certainly accepted applications within those areas. We were--we 
received several hundred applications over a short period of 
time. Some of the applications that were submitted on the 
Catellus lands that were acquired and donated to the Bureau of 
Land Management primarily for conservation purposes were 
included in some of those applications.
    The BLM did receive applications on those lands. They began 
processing those applications up until May 2009, when the 
Bureau of Land Management issued clarifying directions to our 
offices, restricting the acceptance of applications on lands 
that were acquired through lands and water conservation funds 
or through donations for purposes of conservation.
    Senator Murkowski. So, those that were pending have 
effectively been placed on hold since May of last year?
    Mr. Abbey. The applications are still being processed. We 
are working with the proponents for those projects on their 
applications to see whether or not their projects are 
compatible with the uses of those land.
    Senator Murkowski. Tell me where you are seeking to make 
these Federal lands available for these applicants that will be 
allowed to jump to the head of the line.
    Mr. Abbey. We would be directing them toward lands that are 
under consideration as part of the solar study areas that are 
now being analyzed. These applicants would be directed to look 
at the appropriateness of those lands for their projects.
    Senator Murkowski. Do you know whether they would have 
equivalent or perhaps better solar potential, not only the 
potential but access to infrastructure such as the roads and 
transmission?
    Mr. Abbey. Those solar study areas were selected for 
specific reasons, and one of the primary factors were that they 
were more conducive to this type of development. We believe 
those areas that would be designated in the future as solar 
zones would probably be more compatible for such development 
than where they are currently being proposed.
    Senator Murkowski. Let me ask you, Dr. Robyn, just very 
quickly, given the proposals in the bill related to the 
wilderness and national monuments, are you prepared to say that 
the training and the other needs for the military for the 
present and then going into the future are going to be fully 
protected under this legislation?
    Ms. Robyn. We need to look more closely at exactly what 
lands are set aside. We like the general approach. We just--it 
can be--some of these areas can provide buffer protection 
around installations. But if they serve to steer development to 
other areas that are incompatible, then that could be an issue.
    So we need to look at it closely. We like the approach. The 
devil is in the details.
    Senator Murkowski. Thank you.
    Mr. Chairman, I have some additional questions that I will 
be submitting for the record. I have to attend another hearing 
this morning, but I appreciate the testimony from the 
witnesses.
    Thank you.
    The Chairman. Thank you very much.
    Let me ask a few questions that occur to me. First, 
Director Abbey, let me ask you about it is my understanding 
that Secretary Salazar set up a group called the Renewable 
Energy Action Team, REAT. I don't know if that is the right way 
to pronounce the acronym. But it is comprised of 
representatives of the BLM, the California Energy Commission, 
the U.S. Fish and Wildlife, California Department of Fish and 
Game.
    That team, according to what I have been told, is 
developing a Desert Renewable Energy Conservation Plan for the 
State, which would identify areas primarily for conservation 
and other areas suitable for development. If that is underway--
I guess that group was set up in November 2009--and the report 
is due, I guess, later this year, wouldn't it be premature for 
us to be trying to legislate in many of these areas dealt with 
in this bill until we see the results of that team's report?
    Mr. Abbey. I am not sure I would use the term 
``premature,'' but certainly, as we move forward and continue 
to work in cooperation with the State of California as well as 
our other Federal partners, we are learning more and more about 
which areas are more appropriate for such large-scale 
commercial development for solar and wind projects.
    We have a tremendous working relationship in the State of 
California, as we do throughout the western United States since 
our common goals is to increase the amount of renewable energy 
as part of our Nation's energy portfolio.
    The purpose of the California Desert Renewable Energy 
Conservation Plan is to look at a variety of lands, including 
previously disturbed lands, for possible use for such 
development. The conservation plan will help direct where such 
solar and wind commercial projects should be developed, whether 
that is Federal or private lands.
    The Chairman. Let me ask about this permitting system that 
there is a set of proposals for changing the permitting system. 
What is the status of the BLM's effort to revise its permitting 
process with regard to renewable energy projects on BLM land?
    Mr. Abbey. Mr. Chairman, I am glad you asked that because 
this morning I just pulled together some of the actions that 
have been taken over the past year to help improve the 
efficiencies and the effectiveness of our permitting process. 
For one, you have heard about the solar programmatic EIS that 
is now moving forward.
    We anticipate releasing a draft programmatic EIS in 
December 2010. As part of this effort, the Bureau of Land 
Management is analyzing 23 million acres, which appear to be 
technically and environmentally suitable for solar energy 
development, and also within that acreage, 24 solar energy 
study areas, encompassing almost 700,000 acres. Four areas are 
located in California.
    In the meantime, we are processing 34 fast-track renewable 
energy projects, and by fast track, I mean that we anticipate 
reaching decisions on all 34 of those projects by December 
2010. Even though the Bureau of Land Management got off to a 
fairly slow start as far as dealing with solar energy project 
proposals, we are rapidly advancing the permitting process. We 
are working with the industry to improve the efficiencies of 
our permitting process without taking shortcuts because we are 
talking about large-scale footprints on our public lands.
    We want to make sure that all analysis is thorough, that 
mitigation measures are identified and potentially incorporated 
into any decision document. I am quite pleased with the 
progress that we have made over the course of the last year.
    The Chairman. Let me just try to ask a little more 
specifically. It seems to me that we reported a bill out of our 
committee here last summer that contains some provisions that 
are intended to improve the process itself, the permitting 
process that you folks follow. You have got other initiatives 
underway to improve that process.
    Senator Feinstein's legislation that we are considering 
this morning has a whole series of recommended changes in that 
process. Has the BLM settled on what it would like that process 
to look like and how it would like that process to operate, 
separate from the question of how many applications you can get 
approved by December. But the process itself, do you have a 
good idea of what that should look like and how much of it we 
should be trying to legislate?
    Mr. Abbey. Mr. Chairman, we do have a good idea. In fact, 
we continue to provide directions to our field offices 
regarding this particular issue. Quite frankly, we do have some 
concerns with the provisions that are incorporated into Senator 
Feinstein's legislation relative to the process.
    We believe that there are areas that need improving. We 
have the administrative remedies to create those efficiencies 
ourselves without a legislative mandate. We understand the 
serious role that we have to be smart from the start when 
addressing and reviewing these project proposals that come 
before us. We are, again, as I mentioned earlier, making 
significant progress in improving the process.
    The Chairman. Let me just ask finally, and then I will call 
on Senator Bennett for his questions. But I think both Interior 
and Defense have noted that they will provide detailed comments 
on the bill at a later time. When would we be able to expect 
that?
    Mr. Abbey. We will work with this committee to provide 
timely responses to the questions that we might receive, based 
upon how quickly you would like to move this bill.
    The Chairman. I think we would like any--if you are 
preparing detailed comments on the bill, not responses to 
questions from us, but detailed comments on the bill, which is 
what I thought you had indicated, then we would be anxious to 
get those as soon as you have them available.
    Mr. Abbey. We can have those available fairly quickly 
because we have done a thorough analysis of this bill.
    The Chairman. OK. If you could get those to us in the next 
couple of weeks, is that reasonable? That would be very 
helpful.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    Thank you all for being here. My own attitude about 
wilderness bills is that great deference should be paid to the 
attitude and wishes of the Senator in the State in which the 
wilderness is being created. We have had a number of fights 
about that with respect to Utah, and I have always argued the 
Utah Senator should be the one to make this decision. So I am 
more than happy to defer to Senator Feinstein and Senator Boxer 
in this area. But I do have some questions, and you may not be 
the ones to answer them.
    I would like a procedure where we have an EIS, not only an 
Environmental Impact Statement, but an economic impact 
statement. I wonder if any studies have been done as to how 
much economic value will really come out of these various solar 
arrays that get put there?
    Solar energy is one that always has great promise, but only 
produces with heavy subsidies, and we are going to put your 
phrase, Mr. Abbey, large-scale footprints in some of the area 
of greatest protection for our public lands, and what are we 
going to get out of it? Has anybody in the department done any 
examination of that?
    Mr. Abbey. We haven't performed any kind of economic 
analysis of this bill. I would like to point out, Senator 
Bennett, that in the areas proposed for designation, we have 
received 12 applications--6 for solar, 6 for wind--all within 
the proposed Mojave Trails National Monument.
    Again, looking at the resources within the proposed area, 
we believe there are more appropriate lands managed by the 
Bureau of Land Management or even on private lands where such 
projects can be developed rather than where they are currently 
being proposed. This information doesn't address your concerns 
relative to an economic impact study.
    Senator Bennett. Once you generate the electricity, how do 
you get it to market?
    Mr. Abbey. Through transmission.
    Senator Bennett. Yes. My examination, cursory though it has 
been, suggests that transmission lines are going to intrude in 
wilderness areas or other areas in ways that a lot of folks may 
not like.
    Now maybe subsequent witnesses, Wilderness Society and 
others, can address that and tell us how the transmission of 
this power is going to get to market in such a way that it will 
not be damaging. But is that an area that any of you looked at?
    Mr. Abbey. Let me address that, and then maybe there would 
be some other responses as well. Senator Feinstein has worked 
diligently with--through a collaborative process to identify 
where transmission needs might be for some of the proposed 
renewable projects in southern California. She has provided for 
corridors in some of these proposed national monuments and some 
of the other areas to allow transmission lines to be built not 
in designated wilderness areas, but certainly in some of the 
other designated areas.
    Senator Bennett. They are handy to where the solar array 
would be or the wind farm would be?
    Mr. Abbey. Based upon our best projections and where we 
anticipate development.
    Senator Bennett. Ms. Krueger, you look anxious to respond?
    Ms. Krueger. Oh, I was just going to respond and say for 
the wilderness in the monument area, we didn't find any 
conflict with transmission lines.
    Senator Bennett. OK, very good. My concern about solar, the 
sun doesn't always shine. Now maybe in this part of the world 
it always does. But there is one factor that applies to solar 
that can be depended upon is that at the end of the day, the 
sun goes down.
    Some studies that I have seen suggest that the assumption 
that solar power is available during the peak hours of demand, 
in fact, are off by about an hour or 2. That is the sun is 
shining and strongest about an hour or 2 before the demand for 
peak power hits.
    Now, Dr. Robyn, have you had any examination of that as far 
as your experience at Nellis? Or does the Nellis array not 
service the peak power demands of Nellis Air Force Base?
    Ms. Robyn. Actually, I think the power from Nellis goes 
directly into the commercial grid, and then----
    Senator Bennett. Yes. Right.
    Ms. Robyn [continuing]. Nellis. So, no. I mean, we 
typically analyze these things in terms of the benefits to us 
rather than the broader economic benefits that you are 
referring to.
    Senator Bennett. We are talking about--just a concluding 
comment, Mr. Chairman. We are talking about a very significant 
commitment. Again, to use your phrase, Mr. Abbey, a large-scale 
footprint, and the Senator from California is fine with that, 
other people are fine with that, I am fine with that--if, at 
the other end, we get something worthwhile.
    I want to be absolutely sure that the studies have been 
done to say once we have this massive amount of land that is 
taken over by solar arrays or wind farms, and we have got the 
transmission lines built, do we know that the way the power 
will be generated, because both solar and wind are intermittent 
power. This is not a nuclear plant where you know it is 
available 24 hours a day.
    Do we know, has somebody done--did the State of California, 
the Government--maybe Southern California Edison when they can 
testify will describe it. Has somebody done a very careful 
economic analysis to say once all of this has been built, and 
as I say, with solar and wind, it will be built with subsidies 
because right now, the market does not support either solar or 
wind without some kind of subsidy.
    This massive amount built with subsidies, will we get 
anything out of it that we can actually use? I think that is a 
legitimate question, and I hope that if not in this panel, the 
next we can get some answers to it.
    The Chairman. All right. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Questions for you, if I could, Dr. Robyn. I am increasingly 
concerned about the gridlock between 2 objectives that this 
country absolutely has to address. One of them is national 
security. I sit on the Intelligence Committee. It's obviously a 
dangerous world. The other is energy security. As you know, 
there are pending scores of projects that can result in 
thousands of good-paying jobs for our people and thousands of 
megawatts of good, clean, renewable green power.
    But there has got to be a way to resolve these conflicts 
that are cropping up all over the country, and I want to relate 
very specifically what I am concerned about this morning. As 
you know, I and the Oregon congressional delegation, we are 
very troubled about the problem of getting approved what will 
be the world's biggest wind farm. It will be located at 
Shepherds Flat in eastern Oregon. The challenge was dealing 
with radar that was near Fossil, Oregon.
    I put more than 4 years into the project, 4 years. At the 
very last minute, DoD came in and raised an objection. Came out 
of nowhere. Nobody had heard word one about this during the 4 
years. The last minute, DoD comes in.
    As you know, we were in extensive discussions with 
Secretary Gates and the White House and others, and a couple of 
weeks ago, we got it resolved. That is good news. I appreciate 
it and appreciate the department stepping up and helping us in 
that regard.
    My concern is yesterday I just learned we have got the same 
problem at another project close by. In other words, Shepherds 
Flat, after all of the wrestling and all of the discussions 
back and forth, got approved. But just yesterday, I heard about 
a problem at the Montague wind project, again in the general 
area--400 megawatts of wind power, 2,000 construction jobs, 80 
permanent jobs--and exactly the same situation.
    Instead of a hands-on discussion with the Defense 
Department and the community and the energy people and all the 
people related, the Defense Department did exactly what it did 
until I and the congressional delegation stepped in on 
Shepherds Flat, and the Defense Department filed all these 
objections with the Federal Aviation Administration. Everything 
is on hold.
    We can't go on like this. The investors, for example, are 
going to walk. They are going to walk on these projects if the 
Defense Department doesn't step up and get a way to resolve 
these issues. I read your statement, and you basically said, 
hey, conflicts are unavoidable. By God, we have got to get our 
mission taken care of.
    I support your mission completely. It is a dangerous world. 
I am not going to take a back seat to anybody in terms of 
national security. But what is the department going to do to 
set in place a system, a process to get these issues resolved? 
Because that is what is really needed.
    As you know, a group of Senators sent you a letter a year 
ago, and there is still no evidence that a system is being 
developed. The area, for example, that I am most concerned 
about is let us bring these conflicts out at the beginning 
rather than the end. That alone, if you were to do nothing else 
but to have a system that would provide for that, I would feel 
we are moving in the right direction.
    So tell me, if you would, what is being done to get a 
system in place? So this country can have national security and 
energy security together rather than these conflicts which, 
after the good news at Shepherds Flat, I am now concerned we 
are going to be back in exactly the same spot not just in 
Oregon, but all over the country.
    Ms. Robyn. Let me address the specific one and then talk 
more generally. I think the--well, let me talk about the 
general problem.
    We are not a regulator, nor do we want to be a regulator. 
When these issues come up, we are able to resolve them in 
almost all cases. Something like 98 percent of all wind farm 
proposals, we have had no--we have approved outright or have 
been able to find mitigation for.
    I think we all got a wakeup call with the Caithness project 
at Shepherds Flat. We realized how ill-suited the timing of the 
FAA process, the obstacle OEAAA process that the FAA has is for 
DoD. The FAA does not need to know until fairly late in the 
process where--what a developer is proposing. They are looking 
for impediments to air navigation.
    We use that process. We want to continue to use that 
process, but we need to have developers come to us at an 
earlier stage. I could not agree more . The process is broken. 
I said that in testimony several months ago.
    I think the silver lining of Caithness, aside from the fact 
that it did get resolved, is that it made very, very clear to 
everybody and all agencies at the National Security Council, 
and we are very actively working now to come up with an 
alternative process. Do we need our own screen? Can we continue 
to rely on the FAA, but get developers to us at an early stage?
    Senator Wyden. Mr. Chairman, my time has expired.
    Dr. Robyn, I feel so strongly about this. I need to have 
more specifics on this. Will you get back to me, to the 
committee, within 30 days and outline your plan for a strategy 
here? Will you get that to me within 30 days?
    Ms. Robyn. Yes. Can I just say one more piece of it because 
there has been----
    Senator Wyden. But you will get to me within 30 days?
    Ms. Robyn. Yes. No, no, no. I would be happy to.
    There is a tendency--I mean, fixing the process is step 
one. There are things in the pipeline that are not going to--we 
are still going to have issues with them. But fixing the 
process is step one.
    But step 2 is increasing the level of R&D by the Defense 
Department, Homeland Security, and other agencies in 2 areas. 
Coming up with better tools, better modeling tools to estimate 
what the impact of proposed turbines or a solar tower will be 
on radar. That is the low-hanging fruit. Then the somewhat 
higher-hanging fruit is mitigation technology. Digital signal 
processing, stealth blades, there are a variety of things.
    We don't have a silver bullet here. I am very hopeful that 
Lincoln Lab will come up with a mitigation strategy at Fossil, 
Oregon, and that that will take care of the Montague project as 
well. We won't know that until they come back. But R&D is as 
important as fixing the process. Technology will solve this 
problem at the end of the day.
    The Chairman. All right. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Chairman, there is an article in today's Wyoming 
Tribune-Eagle in Cheyenne, Wyoming--Governor Dave Freudenthal 
on the wind projects. Wind projects and power transmission 
lines are the topic for a question-and-answer session in 
Wheatland, Wyoming, with Governor Dave Freudenthal.
    This is in light of, Ms. Krueger, in November 2009, the 
U.S. Forest Service published new guidelines for siting 
transmission lines, and in Wyoming, we have world-class wind. 
The new manual reads, ``The Forest Service will--'' and this is 
FSM 2700 under Denial of Use. ``The Forest Service will deny 
proposals,'' this is in quotes, ``deny proposals for uses of 
National Forest System land which can reasonably be 
accommodated on non National Forest System land.''
    So the directive seems very plain and simple. Your position 
is just say no. The administration is forcing transmission 
lines onto private land. That means farms, ranches, businesses, 
homes, and schools will have transmission lines, but not 
Federal land. This will site these lines using eminent domain.
    The administration's policies explicitly disadvantage 
private land owners. I tried to fix this problem with an 
amendment to the energy bill by requiring transmission siting 
to minimize use of private land whenever possible. 
Unfortunately, that amendment was defeated in this committee, 
but we will certainly take that up with the bill gets to the 
Senate floor in the future.
    So I want to just get this straight. Does the Obama 
administration oppose private property rights?
    Ms. Krueger. The Governor did bring that issue forward to 
the Forest Service, and we have done a policy review. Our 
manual direction, we proposed some updates to it because we 
don't want to just say no. We have over 14,400 miles of 
transmission line on National Forest System land. So our policy 
is not to just say no, and we work in conjunction often with 
BLM and other agencies to permit those.
    So we do support energy transmission lines. We have 
reinstated our direction with a letter in March 2010, of this 
year, to our field units to make sure that it is not a just say 
no policy, that we continue to look at opportunities to site 
energy lines on National Forest System lands. So we are moving 
forward to clarify our policy.
    Senator Barrasso. We will look forward to some additional 
clarification.
    Mr. Abbey, if I could, you don't follow the same manual. 
Can you talk a little bit about the BLM policy directing 
transmission siting and private land?
    Mr. Abbey. We entertain proposals from the industry to 
place transmission lines on public lands that are managed by 
the Bureau of Land Management, and we go through an application 
review. We conduct a NEPA analysis to determine whether or not 
those lands are appropriate for such a use and make a decision 
accordingly.
    Except where areas are designated for special uses like 
wilderness or national conservation areas or national 
monuments, we look at the appropriateness of the public lands 
where applications are submitted.
    Senator Barrasso. I appreciate that. I wanted to talk a 
little bit, Mr. Abbey, if I could, with you about oil and gas 
leasing.
    Mr. Abbey. You bet.
    Senator Barrasso. Whether it is siting transmission lines 
or permitting wind or solar or natural gas product, the process 
obviously takes years. On Monday, the Department of Interior 
added what seems to me to be more red tape to the process. The 
policy changes are going to discourage energy production and 
investment in the Rocky Mountain West, and I think it is going 
to cost jobs, hurt State and local budgets.
    In Wyoming, the revenues paid by private companies to BLM 
for oil and gas bonus bids and for rental fees were down 
considerably between 2008 and 2009, and I think 2008, we 
collected $93 million, and in 2009, it dropped to $10 million. 
So $93 million down to $10 million, and that is a huge loss of 
revenue not just for the State of Wyoming, but also to the 
Federal Government.
    So did the department analyze the potential loss in terms 
of jobs before implementing these changes and also about loss 
of revenues for the State and for the Federal Government?
    Mr. Abbey. Senator Barrasso, we believe that some of that 
downward trend in the oil and gas industry was based upon the 
market conditions. We do not believe the new procedures that we 
have distributed to our field offices on Monday will add the 
additional bureaucratic layer that you described.
    The whole purpose of these new procedures is, again, to be 
smart from the start. We want to determine the appropriateness 
of leasing those areas prior to leasing them and then dealing 
with the aftermath of the issues that might come about during 
the analysis of an application for permit to drill.
    In 1999, 1 percent of all the parcels that were proposed 
for leasing by the Bureau of Land Management were protested or 
litigated. In 2009, the number of parcels that were protested 
or litigated was almost 50 percent.
    We believe by putting our efforts up front to do a thorough 
review prior to offering these parcels for leasing, that it 
will actually provide greater certainty to the industry and to 
all the public who have interest in how these public lands are 
going to be managed for the long term.
    Senator Barrasso. Thank you, Mr. Abbey.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    At this point, I think we will dismiss the first panel and 
call the second panel of six witnesses. Thank you all very much 
for your testimony. Appreciate it.
    The second panel is made up of 6 witnesses from California: 
David Myers, executive director of the Wildlands Conservancy in 
Oakland, California; Pedro Pizarro, who is the executive vice 
president for power operations with Southern California Edison; 
David Hubbard, who is an attorney with EcoLogic Partners; Harry 
Baker, who is south district vice president with the California 
Association of Four-Wheel Drive, 4WD Clubs, Inc.; V. John 
White, who is the executive director for the Center for Energy 
Efficiency and Renewable Technologies in Sacramento; and 
Johanna Wald, who is a senior attorney with the Natural 
Resources Defense Council.
    Thank you all for being here. I think we will try to do the 
same format as before. If each of you could take about 5 
minutes and make the main points you think we need to 
understand, and we will include your entire statement in the 
record, as if read.
    Mr. Myers, why don't you go ahead? Then we will just go 
right down the table.

  STATEMENT OF DAVID MYERS, EXECUTIVE DIRECTOR, THE WILDLANDS 
                   CONSERVANCY, OAK GLEN, CA

    Mr. Myers. Mr. Chairman, members of the committee, S. 2921 
will preserve California's irreplaceable desert landscapes, 
including the geographic center, as Mojave Trails National 
Monument. This legislation will not impact millions of acres 
being studied and planned for renewable energy in California.
    The Mojave Trails National Monument honors one of America's 
storied landscapes. This land includes the Creation Trail that 
is sacred to all seven Colorado River tribes. It includes the 
Mojave Trail, the route early pioneers forged through steep red 
rock canyon walls of Afton Canyon along the Mojave River. It 
includes the National Trails Highway, which John Steinbeck 
traveled in search of America's soul and dubbed ``The Mother 
Road'' in The Grapes of Wrath.
    It covers a vast network of jeep roads for exploring, 
sightseeing, and remote camping amid heroic scenery with names 
like Sleeping Beauty Mountains and Pisgah lava flow. It 
encompasses hiking trails that wind into Amboy Crater, a 
national natural landmark, and trails leading to the Trilobite 
Fossil Beds, home of 450 million-year-old creatures that were 
among the first living things on Earth to have eyes.
    It includes valleys and vistas so vast that our hopes seem 
grand and our problems seem small. These iconic national 
treasures, including magnificent cactus gardens, are bundled 
into the Mojave Trails National Monument.
    The Wildlands Conservancy answered our Nation's call when 
Catellus Development Corporation was selling over 600,000 acres 
inside Joshua Tree National Park, Mojave National Preserve, 20 
congressionally designated wilderness areas, and critical 
wildlife habitat. We donated $45 million in private funds 
toward acquiring this land, which was called the largest land 
gift in American history.
    This gift became the hallmark of Vice President Gore's 
Legacy of the Land Program. Vice President Gore called these 
lands ``some of the most pristine and scenic desert lands in 
the world.'' He also stated, ``These stunning California desert 
lands are being preserved for future generations through a true 
public-private partnership.''
    The monuments and wilderness areas in this legislation are 
outside the Department of the Interior's 351,000 acre solar 
energy study areas, as well as outside the preliminary 2.7 
million acre renewable energy study area that the California 
Renewable Energy Action Team is looking at. All 14 Federal 
fast-track wind, solar, and transmission projects lie outside 
the conservation lands in this bill.
    Over 1 million acres of BLM applications for solar, wind, 
and geothermal energy projects in California are also outside 
this bill's proposed conservation lands. Additionally, 
environmentalists support solar energy on hundreds of thousands 
of acres of degraded, fallowed, and abandoned farmlands 
throughout high-solar insulation areas of the State.
    Some opponents of this legislation say the Mojave Trails 
National Monument will take a million acres out of potential 
solar development. The 468,000 acres of the 941,000 acre 
monument are within wildlife management areas and areas of 
critical environmental concern, 99 percent of which are 
restricted from disturbance.
    The 84,000 acres are in the Cady Mountains wilderness study 
area and off limits for solar. The 103,000 acres outside of the 
areas of critical environmental concern were donated and 
pledged for conservation. Of the remaining 283,000 acres, the 
vast majority is over 5 percent slope and too steep for solar 
or in critical Big Horn sheep wildlife corridors.
    Conservationists originally recommended a 2.8 million acre 
national monument that was scaled down to 941,000 acres to 
accommodate energy projects on the east, west, and south sides 
of the monument boundary, many of which would industrialize 
donated lands. The Wildlands Conservancy supports the 
legislation and its provision for the acquisition of private 
inholdings inside Mojave Trails National Monument as a one-to-
one compensation for donated lands outside the monument 
repurposed for energy development.
    This legislation honors the representations to protect this 
land made by President Clinton, Vice President Gore, Interior 
Secretary Bruce Babbitt, and BLM Director Tom Fry. Ten years 
ago, prominent Democrats and Republicans alike saluted this 
donation as a patriotic private sector solution. We urge the 
committee to support this legislation and to reaffirm America's 
tradition of wildlands philanthropy that has expanded national 
parks from Acadia to Grand Tetons to the California redwoods.
    Thank you.
    [The prepared statement of Mr. Myers follows:]

 Prepared Statement of David Myers, Executive Director, The Wildlands 
                       Conservancy, Oak Glen, CA
    Ladies and Gentlemen--Good Morning
    Senate Bill 2921 will preserve California's last large unprotected 
desert landscapes, including the geographic center, as Mojave Trails 
National Monument. This legislation will not impact millions of acres 
being studied or planned for renewable energy in California.
    The Mojave Trails National Monument honors one of America's storied 
landscapes. This land includes the Creation Trail that's sacred to all 
seven Colorado River tribes. It includes the Mojave Trail, the route 
early pioneers forged through the steep red rock canyon walls of Afton 
Canyon along the Mojave River. It includes the National Trails Highway, 
which John Steinbeck traveled in search of America's soul and dubbed 
the Mother Road in The Grapes of Wrath. It covers a vast network of 
Jeep roads for exploring, sight seeing, and remote camping amid heroic 
scenery with names like: Sleeping Beauty Mountains and Pisgah Lava 
Flow. It encompasses hiking trails that wind into Amboy Crater, a 
National Natural Landmark; and trails leading to Trilobite fossil beds, 
home of 450 million year-old creatures that were among the first living 
things on Earth to have eyes. It includes valleys and vistas so vast 
that our hopes seem grand and our problems seem small. These iconic 
national treasures, including magnificent cactus gardens, are bundled 
into the Mojave Trails National Monument.
    The Wildlands Conservancy answered our nation's call when Catellus 
Development Corporation was selling over 600,000 acres inside Joshua 
Tree National Park, Mojave National Preserve, 20 congressionally 
designated wilderness areas, and critical wildlife habitat. TWC donated 
$45 million in private funds toward acquiring this land, which was 
called the largest land gift in American history. This gift became the 
hallmark of Vice President Gore's Legacy of the Land Program. Vice 
President Gore called these lands ``some of the most pristine and 
scenic desert lands in the world.'' He also stated, ``These stunning 
California Desert lands are being preserved for future generations 
through a true public-private partnership . . . ''
    The monuments and wilderness areas in this legislation are outside 
of the Department of the Interior's 351,069 acre Solar Energy Study 
Areas as well as outside California's preliminary 2,771,807 acre 
Renewable Energy Study Area. All 14 federal fast-tracked wind, solar 
and transmission projects lie outside the conservation lands in this 
bill. Over 1 million acres of BLM applications for solar, wind and 
geothermal energy projects in California are outside this bill's 
proposed conservation lands. Additionally, environmentalists support 
solar energy on hundreds of thousands of acres of degraded, fallowed or 
abandoned farmlands throughout high solar insulation areas in 
California.
    Opponents of this legislation say the Mojave Trails Monument will 
take a million acres out of potential solar development.

          1. 468,672 acres of the 941,000 acre monument are in Wildlife 
        Management Areas and Areas of Critical Environmental Concern, 
        99% of which is restricted from disturbance.
          2. 84,400 acres are in the Cady Mountains Wilderness Study 
        Area and off limits to solar.
          3. 103,221 acres that are outside the Areas of Critical 
        Environmental Concern were donated and pledged for 
        conservation.
          4. Of the remaining 283,707 acres, less than 78,000 acres is 
        under 5% slope and suitable for solar.

    Conservationists initially recommended a 2.8-million-acre national 
monument that was scaled down to 941,000 acres to accommodate energy 
projects on the east, west, and south sides of the monument boundary, 
many of which will industrialize lands donated for conservation. TWC 
supports the legislation's provision for the acquisition of private 
inholdings inside Mojave Trails National Monument as a one to one land 
compensation for donated lands outside the monument repurposed for 
energy development.
    This legislation honors the representations to protect this land 
(which you have copies of) made by President Clinton, Vice President 
Gore, Interior Secretary Bruce Babbitt, and BLM Director Tom Fry. Ten 
years ago prominent democrats and republicans alike saluted this 
donation as a patriotic private sector solution. We can protect 
America's natural heritage while developing renewable energy resources. 
We must do both.

    The Chairman. Thank you very much for your statement.
    Mr. Pizarro, go right ahead.

  STATEMENT OF PEDRO PIZARRO, EXECUTIVE VICE PRESIDENT, POWER 
      OPERATIONS, SOUTHERN CALIFORNIA EDISON, ROSEMEAD, CA

    Mr. Pizarro. Thank you, Chairman Bingaman.
    I want to thank you and the rest of the committee for 
inviting Southern California Edison to participate here. Our 
utility, or our parent company, Edison International, have 
worked with you and several of the members of the committee on 
renewable-related projects in each of your respective States, 
and I thank you for those efforts also.
    Importantly, I also want to thank Senator Dianne Feinstein 
for her leadership and tireless effort in drafting this bill, 
the California Desert Protection Act of 2010. As testimony 
today indicates, this legislation impacts a number of very 
disparate and sometimes competing interests, and Southern 
California Edison applauds Senator Feinstein for working to 
address all of these views.
    As many of you know, last year, Governor Arnold 
Schwarzenegger signed an executive order setting a new goal 
that 33 percent of California's energy come from renewable 
generating sources like wind, solar, and geothermal. I believe 
this act will help the State increase its renewable energy 
resources in a manner that safeguards our State's natural 
beauty and resources.
    SCE, again, a subsidiary of Edison International, is 
currently country's the largest purchaser of renewable 
electricity. In 2009, we delivered 13.7 billion kilowatt hours 
of renewable energy, representing approximately 17 percent of 
our customers' energy consumption. We are also the leading 
purchaser of solar energy, and we procured approximately 65 
percent of all U.S. solar generation in 2008.
    I am responsible for the procurement, generation, and 
delivery of electricity for our customers. As such, a lot of my 
time is spent working to increase the company's renewable power 
portfolio and ensuring that our high-voltage transmission 
system is capable of delivering that renewable power.
    The California Desert Protection Act of 2010 protects 1.7 
million acres of California desert from development. It should 
also help speed up renewable development outside of those 
areas, while preserving a corridor for the construction and 
upgrade of transmission lines that are needed to bring 
renewable power to urban load centers.
    There is probably no entity on which these new designations 
will have more direct impact than Southern California Edison, 
both as a transmission owner and as a purchaser of renewable 
resources. I want to assure the committee that SCE would not 
support this legislation if we believed, as some critics 
suggest, that it would endanger our ability to increase 
delivery of renewable energy to our customers.
    The actual threat to building transmission comes from the 
arbitrary and sometimes draconian nature of the permitting 
process. Just as an example, today SCE has energized recently 
the first 700 megawatts of one of the most significant 
renewable transmission lines in the country, bringing wind and 
solar energy from the Tehachapi region to the demand center in 
Los Angeles.
    We are ready to construct the rest of the 4,500 megawatt 
line, but we may face some considerable delay from 11th-hour 
concerns raised by a Federal agency. So we understand what it 
takes to work to these issues.
    SCE believes that the desert renewable energy permitting 
provisions of the bill will help expedite the development of 
new renewable energy projects. The bill allows projects on 
private lands to mitigate environmental impacts by providing 
funding to help purchase or rehabilitate additional BLM lands.
    SCE also supports provisions establishing deadlines for 
action by Federal agencies and holding those agencies 
accountable for meeting those deadlines. Just as importantly, 
the bill ensures that the agencies have the staff and the 
resources to enable them to meet those deadlines, which is 
critical.
    Finally, SCE appreciates the language in the bill that 
expressly authorizes the company to maintain, to upgrade, and 
to replace existing transmission and substation facilities in 
the monuments, including the development of a new east-to-west 
line that has been preliminarily identified through the State 
of California's Renewable Energy Transmission Initiative, or 
RETI, stakeholder process.
    I want to take just a moment to point out the extraordinary 
steps that Senator Feinstein has taken to build consensus for 
this legislation. She led a group of stakeholders including Ted 
Craver, the chairman and CEO of Edison International; 2 of 
today's panelists, Mr. Myers and Ms. Wald; and others on a tour 
of the proposed monument site. Seeing the natural beauty of 
California's desert areas made it clear why the Senator is so 
passionate about this issue.
    Simply put, this legislation is a win-win for the 
environment. It will conserve irreplaceable desert lands for 
future generations while promoting renewable energy 
development. Senator Feinstein is to be commended for her 
leadership in developing this very innovative and comprehensive 
approach.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pizarro follows:]

 Prepared Statement of Pedro Pizarro, Executive Vice President, Power 
          Operations, Southern California Edison, Rosemead, CA
    I want to thank Chairman Bingaman, Ranking Member Murkowski, and 
the rest of the Committee for inviting Southern California Edison to 
participate in this hearing. I also want to thank Senator Dianne 
Feinstein for her leadership and tireless effort in drafting S. 2921, 
the California Desert Protection Act of 2010. As today's testimony 
indicates, this legislation impacts a number of very disparate and 
sometimes competing interests. Southern California Edison applauds 
Senator Feinstein for working to address all of these views.
    As many of you know, last year, Governor Arnold Schwarzenegger 
signed an executive order setting a new goal that 33 percent of 
California's energy come from renewable generating sources such as 
wind, solar, and geothermal. Developing significant new wind and solar 
generation while protecting California's natural resources is a big 
challenge--especially since most of our state's best renewable areas 
lie amidst relatively pristine desert and remote mountain areas. Absent 
a thoughtful balancing of interests, doing the right thing by reducing 
California's emissions can be the wrong thing for our own desert 
natural resources. This legislation does a good job of reconciling 
these important and sometimes competing interests in a reasonable way. 
I believe the California Desert Protection Act of 2010 will help the 
state increase its renewable energy resources in a manner that 
safeguards our state's natural beauty and resources.
    Southern California Edison (SCE), a subsidiary of Edison 
International, is currently the largest purchaser of renewable 
electricity in the country. SCE serves about 13 million people and 
300,000 businesses over a 50,000 square mile service territory in 
southern and central California. In 2009, we delivered 13.7 billion 
kilowatt hours of renewable energy, representing approximately 17 
percent of our customers' energy consumption. Since 2002, SCE has 
entered into 58 contracts that are expected to deliver up to 31.2 
billion kilowatt-hours per year of renewable energy. SCE signed 
contracts for every major renewable technology: wind, solar, 
geothermal, small hydropower and biomass. SCE is the nation's leading 
purchaser of solar power, and procured approximately 65 percent of all 
U.S. solar generation for its customers in 2008. In February 2009, SCE 
executed one of the world's largest solar deals. The series of seven 
``power tower'' projects will provide up to 1,300 megawatts of solar 
thermal energy; they are to begin producing in San Bernardino County, 
California, starting in 2013.
    As SCE's Executive Vice President for Power Operations, I am 
responsible for the procurement, generation, and delivery of 
electricity for our customers. As such, much of my time is spent 
working to increase the company's renewable power portfolio and 
ensuring that our high voltage transmission system is capable of 
delivering that renewable power.
    The California Desert Protection Act of 2010 protects 1.7 million 
acres of California desert from development. It should also help speed 
up renewable development outside of those areas, while preserving a 
corridor for the construction and upgrade of transmission lines needed 
to bring renewable power to urban load centers.
    Senator Feinstein's proposed creation of the Mojave Trails and Sand 
to Snow national monuments and the proposed expansion of the Death 
Valley, Mojave Preserve and Joshua Tree national parks are all within 
SCE's service territory. There is probably no entity on which these new 
designations will have more direct impact than Southern California 
Edison, both as a transmission owner, and as a purchaser of renewable 
resources. We have worked long and hard with Senator Feinstein to make 
sure the proposals are good for our customers and employees and will 
help us meet the policy goals of the state of California.
    I want to assure the Committee that SCE would not support this 
legislation if we believed it would endanger our ability to increase 
delivery of renewable energy to our customers.
    SCE believes that the desert renewable energy permitting provisions 
of the bill will help expedite the development of new renewable energy 
projects. Some of the most noteworthy aspects of the legislation are 
the provisions designed to encourage the development of renewable 
projects on previously disturbed private lands through the creation of 
Habitat Mitigation Zones in the California Desert Conservation Area.
    Currently, when projects impact federally protected species or 
their habitat, the process for permitting renewable energy development 
on private lands is significantly slower than projects proposed on 
public lands, taking years instead of months. The bill addresses this 
inequity by allowing projects on private lands to mitigate 
environmental impacts by providing funding to help purchase or 
rehabilitate additional BLM lands. Use of this money would be guided by 
an advisory panel consisting of environmental groups, state and local 
governments, and the renewable energy industry.
    SCE also supports provisions establishing deadlines for actions by 
federal agencies and holding those agencies accountable for meeting 
those deadlines. Just as importantly, the bill ensures that the 
agencies have the staff and resources to enable them to meet those 
deadlines by creating a dedicated revenue stream through solar and wind 
leasing revenues.
    Finally, SCE appreciates the language in the bill that expressly 
authorizes the company to maintain, upgrade, and replace existing 
transmission and substation facilities in the monuments, including the 
development of a new east-to-west line that has been preliminarily 
identified through the State of California's Renewable Energy 
Transmission Initiative (RETI) stakeholder process. S. 2921 will both 
protect public lands and enable the construction of transmission 
projects necessary to support renewable energy development and deliver 
clean power to southern California. Specifically, SCE will be able to 
expand the current Pisgah switchyard to a new 500 kV substation which 
will collect power from renewable projects in the Mojave Desert and 
deliver it to California's electric customers. Additionally, the 
legislation permits future high voltage transmission lines within the 
monuments.
    I want to take just a moment to point out the extraordinary steps 
that Senator Feinstein has taken to build consensus for this 
legislation. She led a group of stakeholders including Ted Craver, 
Chairman and CEO of Edison International, two of today's panelists, Mr. 
Meyers and Ms. Wald, and others, on a tour of the proposed monument 
site. Seeing the natural beauty of California's desert areas made it 
clear why Senator Feinstein is so passionate about this issue. This act 
would conserve these spectacular and sensitive lands for the benefit 
and enjoyment of future generations.
    Decisions on where to site generation and transmission facilities 
require a delicate balancing act between providing electricity and 
protecting the environment. This legislation will help to achieve this 
balance. It is a win-win for the environment by conserving pristine 
land and promoting renewable energy projects. Senator Feinstein is to 
be commended for her leadership in developing a comprehensive approach 
that will spur renewable development in California and will provide new 
protections for vast portions of the desert.

    The Chairman. Thank you.
    Mr. Hubbard.

   STATEMENT OF DAVID P. HUBBARD, ESQUIRE, GATZKE, DILLON & 
                  BALLANCE LLP, ESCONDIDO, CA

    Mr. Hubbard. Good morning, Mr. Chairman, and thank you for 
this opportunity to speak.
    Since 2001, I have been legal counsel for a host of off-
highway vehicle groups, and among the many venues visited by my 
clients, the deserts of California are, by far, the most 
popular. Every year, my clients and their members, along with 
millions of other OHV enthusiasts, recreate in the California 
deserts, pumping hundreds of millions of dollars into local and 
regional economies. In fact, without OHV revenue, many of the 
little towns in the California desert would dry up and blow 
away.
    But the last 2 decades have taken a toll on OHV recreation 
and other outdoor activities that depend on OHVs for safe 
access to remote locations. While OHV sales have increased and 
while the number of OHV users continues to rise, the areas 
available for OHV recreation and camping have diminished 
sharply in both number and size. This has forced OHV users onto 
smaller parcels with fewer trails, resulting in more 
concentrated impacts on natural and cultural resources.
    So it is with great skepticism that my clients receive news 
of a fresh piece of legislation seeking to protect the 
California desert. Such statutes almost always result in us 
having to do more with less.
    But every once in a while, there is something new under the 
sun. The bill currently under review represents a radical 
departure from the way desert land use legislation has 
typically been developed. Rather than have a bill shoved down 
our throats, Senator Feinstein's staff asked for our input 
early and often, as they did with other stakeholders.
    The big surprise was not that we had disagreements on some 
issues or on the wording of certain provisions. The big 
surprise was that we had so much in common. For example, we 
agreed that OHV use and camping in the California desert are 
important recreational activities and warrant Federal 
recognition and protection.
    We also agreed that there are some places in the California 
desert where OHV use is not appropriate. We agreed that new 
monuments and wilderness areas could be created without 
reducing existing OHV routes and use areas.
    We agreed that renewable energy exploration and development 
was critical, but that it need not necessarily trump 
conservation areas and efforts or recreational uses. We also 
agreed that renewable energy projects needed a better process 
for permitting.
    We agreed that the military's mission, specifically with 
respect to the Twenty-Nine Palms Marine Corps Base, had to be 
accommodated in this bill but could be done in a way that was 
sensitive to both natural resources and recreational needs.
    These agreements did not come easy. They did not come 
cheap. People had to compromise. Yet we kept going, and we kept 
making progress.
    Now there are members of my OHV community who disagree and 
who oppose this bill. They don't like it at all. But as much as 
I respect their opinion, I think they are missing an 
opportunity to recast the old debate between OHV recreation and 
environmental protection, and they are also missing a chance to 
advance the somewhat more recent debate between public access 
and renewable energy development.
    In short, they are missing the chance to shape land use in 
the California desert for the next 50 years. This bill 
represents a new step forward, a paradigm shift that is long 
overdue.
    A couple of things I wanted to point out. One is that the 
bill does not create any new OHV trails or OHV use areas. It 
simply preserves the status quo, including trails that exist in 
monuments and in wilderness areas, but it doesn't create any 
new trails.
    With respect to the OHV recreation areas, what it does is 
it codifies the existing permitted OHV uses in those areas. It 
doesn't create anything new. The point for us is that this is 
Federal recognition that OHV recreation is a bona fide and 
accepted, under the Federal scheme, use of these public lands.
    The last thing I would want to say is that it is up to the 
Defense Department to decide whether and to what extent they 
need to expand into Johnson Valley. That hasn't been determined 
yet. We are more than happy to continue working with the 
military and with the Senator's office to find a means where 
perhaps a joint use alternative could be accommodated.
    Thank you.
    [The prepared statement of Mr. Hubbard follows:]

   Prepared Statement of David P. Hubbard, Esquire, Gatzke, Dillon & 
                      Ballance LLP, Escondido, CA
Introduction
    Since 2001, I have been legal counsel for a host of organizations 
that engage in off-highway vehicle (OHV) recreation throughout the 
western United States. Among the venues visited by my clients, the 
deserts of California, especially those managed by the federal 
government, are the most popular. Every year, my clients and their 
members, along with millions of other OHV enthusiasts, recreate in the 
California deserts, pumping close to a billion dollars into local and 
regional economies.
    But the last two decades have taken a toll on OHV recreation and 
other outdoor activities that depend on OHVs for safe access to remote 
locations. While OHV sales have increased, and while the number of OHV 
users continues to rise, the areas available for OHV recreation and 
camping have diminished sharply in both number and size. Hundreds of 
thousands of acres formerly open to OHV use have been closed in the 
last 10 years alone. This has forced OHV users onto smaller parcels 
with fewer trails, resulting in more concentrated impacts on natural 
and cultural resources. It has also devalued the wilderness experience 
for those families who travel to the desert to ride their motorcycles 
and quads in a safe and uncrowded environment.
The Process of Developing the ``California Desert Protection Act of 
        2010''
    The trend of closures is a sad and disturbing one for my clients. 
Not only do they consider themselves good stewards of the land, they 
view OHV recreation as one of those rare activities that allow families 
to spend time together outdoors--away from the television and video 
games, and away from the drugs and crime and violence which, 
unfortunately, characterize life in many California cities and suburbs.
    So it is with great skepticism that my clients receive news of a 
fresh piece of legislation seeking to ``protect'' the California 
Desert. Such statutes almost always cause further erosion of 
recreational access to the public lands of the state. My clients are 
never consulted, their interests are disregarded, and they are forced 
to do more with less.
    But every once in awhile, there is something new under the sun.
    The bill currently under review--the ``California Desert Protection 
Act of 2010''--represents a radical departure from the way desert land 
use legislation has typically been developed. Rather than shove the 
bill down our throats, Senator Feinstein's staff asked for our input 
early and often, and then did the same with other stakeholders, 
including key conservation organizations, energy interests, and the 
Department of Defense. The big surprise was not that we had 
disagreements on some issues and on the wording of certain provisions. 
We all kind of expected that. The big surprise was that we had so much 
in common.
    Let me give you some examples.

  <bullet> We agreed that OHV use and camping in the California Desert 
        are important recreational activities that warrant federal 
        recognition and protection.
  <bullet> We agreed that there are some places in the California 
        Desert where such activities are appropriate and can be enjoyed 
        with relatively minor environmental impacts.
  <bullet> We agreed that there are some places in the California 
        desert where OHV use is not appropriate, where the potential 
        for damage to natural and cultural resources is simply too high 
        to allow vehicle access.
  <bullet> We agreed that new National Monuments and New Wilderness 
        Areas could be created without reducing existing OHV routes and 
        use areas.
  <bullet> We agreed that renewable energy exploration, while important 
        to the nation and feasible in certain parts of the desert, must 
        not trump conservation efforts and recreational use.
  <bullet> We agreed that renewable energy project projects deserved a 
        streamlined permitting process.
  <bullet> We agreed that, with creative land use strategies, the 
        expansion of the Twenty-Nine Palm Marine Corps Base, which is 
        vital to our nation's security, could be accomplished without 
        significant loss of recreational opportunity or natural 
        resources.

    These ``agreements'' did not come easy. Nor did they come cheap. 
Everybody had to bend. Everybody had to compromise. There were hurt 
feelings, bruised egos, and internal feuds within each stakeholder 
camp. Yet we kept it together. We kept moving forward, making 
progress--largely because of the excellent leadership of the 
legislative staff and the open-mindedness of the groups involved.
    Are there members of the OHV community who oppose this bill? Sure. 
There are some who hate it, who view it as a travesty and a betrayal. 
You will hear from some of them today. But as much as I respect their 
opinion, I think they are missing the point. Worse, they are missing a 
great opportunity to recast the old debate between OHV recreation and 
environmental protection, and advance the somewhat more recent debate 
between public access and renewable energy development. In short, they 
are missing the chance to shape land use in the California Desert for 
the next 50 years. They want to fight the same old battles, using the 
same arguments and tactics which, in the past, have failed to produce 
enhanced recreational access, improved environmental protection, or a 
sound alternative energy policy. The current bill represents a new step 
forward--a paradigm shift that is long overdue.
The Benefits of the Proposed Bill
    So what did we achieve? Let me highlight a few key provisions that 
answer this question. The bill, if approved, would:

  <bullet> Establish the Mojave Trails National Monument and the Sand-
        to-Snow Monument. Existing OHV trails in the monuments would be 
        preserved, but no new trails would be created.
  <bullet> Add Wilderness areas to the Death Valley National Park 
        (59,264 acres), the San Gorgonio Wilderness (7,141 acres), and 
        the Bowling Alley Wilderness (30,888 acres).
  <bullet> Establish new Wilderness Areas in the following areas:

    --the Avawatz Mountains (86,614 acres)
    --Golden Valley (21,633 acres)
    --Great Falls Basin (7,871 acres)
    --Kingston Range (53,321 acres)
    --Soda Mountains (79,376 acres)

  <bullet> Release Wilderness Study Areas (WSAs) in the Cady Mountains, 
        in Great Falls, and in the Soda Mountains, so that they can be 
        planned and managed for other purposes consistent with the 
        ``multiple use'' mandate of the Federal Land Policy and 
        Management Act.
  <bullet> Establish a Special Management Area in Vinagre Wash (75,595 
        acres) that safeguards natural and cultural resources, respects 
        the OHV access needs of existing residents, and protects Navy 
        SEAL training areas.
  <bullet> Add land to Death Valley National Park (40,740 acres), the 
        Mojave National Preserve (29,246 acres), and the Joshua Tree 
        National Park (2,904 acres).
  <bullet> Establish OHV Recreation Areas at

    --El Mirage (25,600 acres)
    --Johnson Valley (180,000 acres minus USMC expansion of Twenty-Nine 
            Palm training base)
    --Rasor (24,170 acres)
    --Spangler Hills (56,198 acres)
    --Stoddard Valley (38,931 acres)

    It is important to note that OHV use is currently permitted in each 
of these newly-designated Recreation Areas. The new designations would 
merely codify the status quo; no new OHV routes or use areas would be 
created. However, the bill does instruct the Secretary of the Interior 
to conduct studies to determine whether more land might be added to the 
OHV Recreation Areas, provided the proposed acquisitions would not 
result in resource conflicts.
Renewable Energy, Military Preparedness, and OHV Use
    The proposed bill also addresses two other difficult land use 
issues in the California Desert--renewable energy development and 
military base expansion. With regard to the first, the bill would 
improve and streamline the federal permit process for renewable energy 
facilities. It also would create a rational method for distributing the 
income derived from solar and wind energy projects located on federal 
land. Finally, it would allow renewable energy projects to utilize 
programmatic Environmental Impact Statements and Land Use Plans, thus 
making compliance with NEPA and FLPMA easier, faster, and more cost 
effective.
    Contrary to what some people have stated, the bill would not 
preclude renewable energy development in the OHV Recreation Areas. 
Instead, the bill simply requires that energy projects proposed in such 
areas be compatible with OHV use. This is not an exceptionally 
difficult hurdle to overcome, if the project applicant is willing to 
work with the OHV community and BLM. It does, however, operate as a 
deterrent to energy speculators who wish merely to tie up desert land 
in hopes of ``flipping'' it for a profit.
    So please, review the text of the OHV and energy provisions 
closely. The bill does not sacrifice renewable energy development at 
the altar of OHV recreation; but neither does it allow the recreating 
public to be run over by those who want a cheap ride on the renewable 
energy bandwagon.
    With respect to military base expansion, the bill defers to the 
Secretary of the Navy to determine how much land must be added to the 
Marine Corps training facility at Twenty-Nine Palms. Indeed, it is very 
likely that a significant portion of the newly-designated Johnson 
Valley OHV Recreation Area will be lost to the expansion of the base. 
This is a substantial impact to the OHV community; but my clients--many 
of whom are or were members of the armed services--recognize that when 
it comes to preparing American Marines for battle, recreational 
interests must yield to those of national security. In addition, the 
Marine Corps has worked hard to integrate existing OHV uses into its 
land planning vision. As a result, the proposed bill includes a ``joint 
use'' provision. Under this provision, the Marine Corps and the 
recreating public would both have access to certain areas within 
Johnson Valley. Given the challenges that currently face our military, 
my clients consider this an acceptable compromise.
Conclusion
    In its 178 pages, the proposed bill covers a lot of ground and 
tackles many issues that are fraught with conflict. Yet the bill 
succeeds because it respects and honors both sides of these long-
standing debates, without getting bogged down in them. Instead, it 
builds a new land management regime on a platform of shared interests. 
The California Desert is a natural resource, an economic opportunity, a 
recreational haven, and a military asset. Senate Bill 2921 allows the 
Desert to play each of these roles simultaneously, while minimizing 
clashes between them. For that reason, it has earned my clients' 
support. We hope it earns yours as well.
    Thank you.

    The Chairman. Thank you very much.
    Mr. Baker.

     STATEMENT OF HARRY BAKER, VICE PRESIDENT, CALIFORNIA 
       ASSOCIATION OF 4 WHEEL DRIVE CLUBS, SACREMENTO, CA

    Mr. Baker. Thank you.
    Good morning. I am Harry Baker, and I am here to give my 
organization's views of S. 2921. Thank you for this 
opportunity.
    We oppose legislation that denies the public's access to 
public lands. We represent families and individuals, virtually 
anyone that uses a vehicle, including the handicapped, to 
access public land be it for work, recreation, sightseeing, 
trail head access, film making, or just relaxing.
    We are joined in these efforts and in this opposition by 
the California Off-Road Vehicle Association. Contrary to what 
you may have been told, not all OHV recreationalists support 
this bill.
    This legislation is really about changing the 
classification of public land to please special interest 
groups, and not because these lands present an opportunity to 
protect a special environment. The proposed new national 
monuments will block alternative energy and natural resource 
development in areas that have been identified for potential 
use.
    The management plans that are required for this monument 
has the potential to change the current uses and management, as 
has happened in monuments like the Carrizo Plains National 
Monument in California and the Escalante National Monument in 
Utah.
    This proposed bill will increase the wilderness acreage in 
the California desert, which already has 9 million acres of 
wilderness. Not all of this land is designated as being 
suitable for wilderness. These new wilderness areas would be on 
lands managed by the National Park Service, the U.S. Forest 
Service, and the Bureau of Land Management.
    While there is language in this legislation that certain 
OHV areas will be congressionally protected, there is no 
guarantee in this bill that they will remain as open areas, and 
that is very critical to the off-road community and the 
recreation community. There is nothing in this legislation that 
will require that.
    We object to language in the bill that would restrict the 
amount of acreage that can be set aside for OHV use. One of the 
OHV areas, the Johnson Valley OHV area, is being reviewed as an 
area for possible expansion of the Twenty-nine Palms Marine 
Base. Should this expansion occur, it would severely impact the 
amount of acreage available for recreational use. It would cut 
it by one third.
    The lands being added to the national parks that are now 
managed by the BLM as limited use areas. Do we really need to 
transfer this land to the National Park Service at this time of 
economic decline and incur the added cost of managing this land 
by the Park Service? It seems to us that this is not a prudent 
use of national taxpayers' money.
    This proposed legislation is about more than vehicle use. 
It is about alternative energy and national monuments. It is 
about limiting public access to public lands, creating a 
special interest, removing land from potential alternative 
energy development, blocking the military from future expansion 
of national defense needs, and ignoring the economic impact to 
the surrounding areas.
    This proposed legislation is using the terms 
``conservation,'' ``recreation,'' ``special management areas,'' 
and ``renewable energy'' to push a goal of locking up the 
California desert. We cannot support legislation which has been 
conceived and championed by special interest groups as being 
what the majority of Californians need and wants and supports.
    We respectfully request that field hearings be held in the 
areas that would be affected by this legislation to allow the 
local communities and desert visitors to have their voices 
heard and that all the current and cumulative financial 
ramifications be fully examined.
    I did have a map that I brought today. I want to kind of 
explain a couple of things on that. One of them is the land use 
right now, all the areas that you see in orange, those are 
wilderness areas currently in the California desert. The areas 
in gray are the military installations. The light yellow is the 
BLM-managed land.
    This area here in green, this is the proposed national 
monument, the Mojave Trails National Monument, and this is the 
proposed Sand to Snow National Monument. Huge areas of public 
land being locked up from public access.
    Yes, the bill right now says that all current uses will 
continue. We know that doesn't hold true. There is kind of a 
historic precedence set that as soon as a bill becomes or the 
land becomes a national monument, steps are taken to change the 
management plan, and uses that are in there today are phased 
out. We are very concerned about that.
    I would like to present that map as testimony in this 
presentation. Thank you for the opportunity to have our views 
heard.
    [The prepared statement of Mr. Baker follows:]

     Prepared Statement of Harry Baker, Vice President, California 
     Association of 4 Wheel Drive Clubs, Sacramento, CA, on S. 2921
    The California Association of 4 Wheel Drive Clubs is opposed to S. 
2921. We oppose legislation that restricts the public's access to 
public lands. We oppose the creation of new National Monuments and 
Wilderness areas that withdraw lands from public access and close 
existing routes. We oppose the creation of new Wilderness areas that do 
not meet the standards of the Wilderness Act of 1964, which established 
the National Wilderness Preservation System. We oppose legislation that 
attempts to close any area or route of travel without verification of 
the economic impact to the area. And we oppose legislation that 
proposes to use public lands for development on private land.
    The California Association of Four Wheel Drive Clubs, a state wide 
organization, is the largest organization of its type in the United 
States. It was founded in 1959 and has over 50 years of service to the 
recreating public. The Association works to maintain access to public 
lands and promotes responsible use of those lands. Our members come 
from all walks of life and economic circumstances. We represent 
families and individuals, virtually anyone that uses a vehicle, 
including the handicapped, to access public land be it for work, 
recreation, sightseeing, trail head access, film making, or just 
relaxing.
    We are joined in these efforts and in this opposition by the 
California Off Road Vehicle Association whose members recently voted to 
oppose to this Legislation. We have also received petitions containing 
more than 6000 signatures from individuals that use public lands 
stating their opposition to this bill. Copies of the petitions have 
been provided electronically for the record and are available from our 
office.
    This proposed legislation, S. 2921 the California Desert Protection 
Act of 2010, will limit or curtail those activities or access, by 
creating new National Monuments, by setting aside land for Wilderness, 
by designating a Special Management Area, by transferring BLM managed 
land to the National Park Service and by using public lands as 
mitigation for development on private lands. It will have a severe 
impact on the local communities, desert residents, hunters, property 
owners, miners, wildlife and off-road recreational enthusiasts. The 
American taxpayer will be tasked with paying for the enormous cost for 
the provisions in this bill.
    This legislation is really about changing the classification of 
public land, to please special interest groups, and not because these 
lands present an opportunity to protect a special environment.
    The proposed new National monuments, The Mojave Trails National 
Monument, 941,000 acres and the Sand to Snow National Monument, 134,000 
acres, will block Alternative Energy and Natural Resource development 
in prime areas that has been identified for potential use. They will 
block future growth and development and or will create hardships for 
any community or individuals in the area of the monuments. The bill 
proposes to take land that was purchased by the federal government, 
with no caveats, and protect it from development for a special interest 
group and thereby eliminating other groups from using it. Any and all 
land that is taken out of exploration, recovery or production of 
natural resources makes us more dependent on other areas and even 
foreign countries, like China, for our future needs.
    Proponents will say that all current uses can continue should these 
Monuments be approved but we know from experience that this is not the 
case. In places like the Carrizo Plains National Monument in California 
and the Escalante National Monument in Utah and in other National 
Monuments, access has been limited, roads have been closed and time 
honored historic uses such as grazing and mining have been eliminated. 
This legislation does call for a new management plan for this area that 
will set new regulations for the use of the land within the monuments. 
We are very concerned that while this legislation calls for the 
continued management of the land by the BLM, the management could very 
easily be changed to the National Park Service and thereby increase the 
cost of managing the land and change the regulations that would govern 
it.
    This proposed bill would increase the areas that are wilderness in 
the California Desert District, which already has more than 9 million 
acres of Wilderness. While some of these proposed areas are currently 
Wilderness Study Areas, there is additional land being included as 
wilderness which in our opinion is an attempt to further restrict 
alternative energy development and curtail any future development of 
mining, expansion of military bases or any other types of land use. 
These new wilderness areas would be on lands managed by the National 
Park Service, the U.S. Forest Service and the Bureau of Land 
Management. Much of the land that is proposed for wilderness does not 
meet the criteria for designation as set forth in the Wilderness Act of 
1964 which established the National Wilderness Preservation System. 
There are more that 14 million acres of Wilderness in California and we 
believe that enough is enough.
    There is language in the legislation that certain Off Highway 
Vehicle (OHV) areas, but not all of the OHV areas in the Desert 
District, will be congressionally protected, but there is no guarantee 
that this language will remain in the bill and it has been stated by 
Senator Feinstein's staff that the Environmental community is adamantly 
opposed to having these areas congressionally designated. There is 
nothing in the legislation that would require that the OHV areas would 
remain as unrestricted cross country travel ``open'' areas. There is a 
requirement for new management plans to be developed or the existing 
plans to be reviewed. We object to the language in the bill that would 
restrict the amount of acreage that can be set aside for OHV use. The 
largest OHV area, proposed for designation is the Johnson Valley OHV 
area, which although being considered is not fully protected. It is 
under study for possible expansion by the Twentynine Palms Marine Base, 
should this expansion occur it would severely impact the amount of 
acreage available for recreational use. We believe that a deal has been 
made with the Marines to facilitate their expansion into Johnson 
Valley, with little concern for the impact that this would have on the 
desert communities of Johnson Valley and Lucerne Valley. A Marine Base 
expansion into the Johnson Valley area will devastate the local 
economy, create a hardship on, and have a severe impact on the way of 
life of those citizens living in the surrounding area. While we support 
National Defense and the Marines with their need for training, if 
expansion is required, we believe that an expansion to the east would 
be best. It would have the least impact on the citizens and still 
enable the Marines to complete their mission.
    The 74,000 acres being added to the National Parks, are now managed 
by the BLM as limited use areas. Do we really need to transfer this 
land to the National Park Service at this time of economic decline and 
incur the added cost of managing that land by the Park service? It 
seems to us that this is not a prudent use of the tax payer's money.
    A Special Management Area, of 76,000 acres, is proposed of which 
49,000 acres will be managed as potential Wilderness. Again we see this 
as an attempt to lock up more land in the guise of protection, to block 
out alternative energy, other natural resource development and public 
access. This special management area and potential wilderness is also 
catering to a special interest group which wants the land removed from 
potential development.
    This legislation also calls for the setting aside of a minimum of 
200,000 acres of land, in no specified areas, as mitigation for 
alternative energy development on private land. Why should public land 
be used to mitigate development on private land? We believe that this 
action, should it be approved, will further erode the public's access 
to public lands. Alternative energy development should be encouraged on 
private land but not at the expense of public lands.
    This proposed legislation is about more than vehicle use, 
alternative energy and National Monuments, it is about limiting public 
access to public lands, catering to special interests, removing land 
from potential alternative energy development, blocking the military 
from further expansion for national defense needs, and ignoring the 
economic impact to the surrounding areas. This proposed legislation is 
using the terms; conservation, recreation, special management areas and 
renewable energy to push a goal of locking up the California Desert and 
ultimately all public lands to all forms of entry and use.
    We cannot support legislation which has been conceived and 
championed by special interest groups as being what the majority of 
Californians need, or wants and supports.
    We respectfully request that field hearings be held in the areas 
that would be affected by this legislation to allow the local 
communities and desert visitors to have their voices heard, and that 
all the current and cumulative financial ramifications be fully 
examined.

    The Chairman. Thank you for your testimony. We are glad to 
get the map. Thank you.
    Mr. White.

    STATEMENT OF V. JOHN WHITE, DIRECTOR, CENTER FOR ENERGY 
     EFFICIENCY AND RENEWABLE TECHNOLOGIES, SACRAMENTO, CA

    Mr. White. Mr. Chairman, thank you very much for the 
invitation to be here. My name is John White. I am the director 
of the Center for Energy Efficiency and Renewable Technologies. 
We are a partnership of renewable energy developers and 
environmental organizations committed to working on global 
warming and air pollution reduction.
    This collaboration and the kind of discussion we are having 
today is crucial for moving forward with respect to balancing 
and integrating our renewable energy goals with resource 
protection goals and other uses.
    In recent years, we have had a renewal of interest in solar 
energy in the desert, along with wind energy, after many years 
of being asleep. During the time that we were off on other 
adventures, even though we had the early years of development 
of renewables in California, the largest solar plant existing 
in the world today are in the Mojave Desert. But there hasn't 
been any new plants developed since the 1980s.
    During the planning period that a lot of the desert 
conservation work was done, the solar voice wasn't really much 
part of the discussion. So we are grateful to Senator Feinstein 
for recognizing the importance of including the renewable 
industry in these deliberations, and also we want to note the 
extraordinary cooperation that has gone on between the Obama 
administration Department of Interior and Governor 
Schwarzenegger's administration.
    We have an intensive State and Federal planning efforts now 
underway, as you noted, with regard to the Renewable Energy 
Action Team and the Desert Renewable Energy Conservation Plan. 
In our written testimony, we make some specific suggestions for 
how these can be best coordinated. We think a combination of 
statutory direction and oversight by the committee is 
important.
    We have a couple of specific areas that we would like to 
commend Senator Feinstein for, particularly her statement this 
morning about adding a new solar energy study zone for the west 
Mojave area. This is an area that is not affected by the 
monument proposal but is an area with significantly better 
solar resources than in the east by about 10 percent. It is 
also land that is closer to transmission, largely disturbed, 
but will require intensive coordination on wildlife management 
and also with the military.
    We also commend Senator Feinstein for getting the military 
to recognize their role with regard to renewable energy 
development, as well as with regard to, we hope, helping with 
species planning.
    The mitigation bank proposal that is included in the 
legislation is a very important one, but it needs to be closely 
coordinated with the State effort so that the mitigation is put 
to its best use. Scarce resources are deployed effectively.
    Also we would note that the discussion about moving more 
renewable development to private land is a position of the 
conservation community and one that we share. However, there 
are significant barriers to the development of renewables on 
private land, including specifically the issue of coordinating 
review by the U.S. Fish and Wildlife Service.
    Unless there is a Federal nexus, it can take significantly 
longer to get a Fish and Wildlife review on private land. So, 
that is an area that we would urge the committee to give some 
attention to. We also think that the mitigation bank should be 
made available to private--excuse me, to private as well as 
public land so that we can, again, coordinate with the ongoing 
planning efforts.
    California has a really unique resource in this, in solar. 
Some of the very best land in the world within 100 miles of 10 
million people and all the air conditioning that we need in 
southern California. Secretary Salazar, when he was out in 
California in March, said that we are the point of the spear in 
the Nation's fight to get more renewable energy on the ground.
    We are doing an extraordinary amount of coordination and 
cooperation between and among all of the various groups and the 
agencies, State and Federal, and we urge the Congress to work 
with us. Senator Feinstein's legislation can be a vehicle for 
ensuring some of that cooperation, although we note the 
chairman's leadership also with regard to renewable energy and 
transmission, and we would like to see these efforts merged, 
coordinated, and overseen once they are passed.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. White follows:]

   Prepared Statement of V. John White, Director, Center for Energy 
          Efficiency and Renewable Technologies, Sacramento,CA
    It is with great appreciation and respect that the Center for 
Energy Efficiency and Renewable Technologies (CEERT) offers this 
testimony regarding the California Desert Protection Act of 2010. CEERT 
is a partnership of major environmental groups and private-sector clean 
energy companies who strive to advance global warming solutions and 
renewable energy policies in California and the West. Collaboration 
between environmentalists and renewable energy developers, among other 
stakeholders, is crucial for the holistic planning and protection of 
California's desert resources, so our organization appreciates the 
opportunity to present our views on how to improve this important 
legislation.
    California and the Federal Government have a long history of desert 
conservation that spans the legacy of the late Senator Alan Cranston 
and culminated with the passage of Senator Feinstein's California 
Desert Protection Act in 1994. In addition to Senator Feinstein's 
legislation, the Bureau of Land Management adopted the West Mojave 
Management Plan, which further restricts development in the critically 
important West Mojave; home to some of the best solar radiation land in 
the United States. These desert protection efforts, while critically 
important for wildlife conservation, wilderness and recreation 
interests, largely failed to consider or evaluate future development 
needs and opportunities for the abundant and strategic renewable 
resources which lie within California's desert.
    Even though California launched the global wind and solar 
industries in the 1980's, our state and the federal government fell 
asleep shortly thereafter, lulled by low energy prices and electricity 
deregulation. When desert conservation and recreation planning efforts 
were launched in the 1990's in California, everyone was at the table 
except the renewable energy industry and renewable energy advocates. 
Consequently, vast tracts of land were set aside for habitat 
conservation for protected species, along with expansion of military 
lands, recreation, and wilderness. But virtually no land was reserved 
for renewable energy in areas with some of the highest solar radiation 
in the world. This failure to identify and reserve areas for solar and 
wind development has come back to haunt California and jeopardize the 
strategic national interest in renewable energy.
    In recent years, the return of high oil prices and global attention 
to climate change sparked a revival in renewable energy. A solar land 
rush resulted in a flood of speculative lease applications on the 
Bureau of Land Management's desert lands at the end of the Bush 
Administration. More than a million acres of lease applications were 
filed, with no effort by BLM to weed out speculators and paper 
projects. The desert conservation community became alarmed, which 
prompted calls for a moratorium on lease applications and late but 
comprehensive solar planning initiatives by BLM.
    Our failure to plan for large-scale solar development, combined 
with the continuing expansion of protected lands for desert 
conservation, recreation, and military training, has exposed us to the 
possibility that much of the most productive high solar radiation land 
in the state has already been taken off the table. As a result, we are 
struggling to find a way to integrate and balance environmental 
conservation and recreational needs with the imperative to develop and 
reserve our extraordinary renewable resources in the desert.
    We support the protection of lands for conservation purposes, but 
believe that protection should be accorded for those lands that have 
true conservation value, not just all lands that are available for that 
purpose. In so doing, we can prioritize our conservation objectives 
without unnecessarily eliminating the best sites for solar and wind 
energy. As Congress takes on energy legislation over the coming months, 
and examines the need to increase our long-term domestic energy supply, 
we must think about the most sustainable path toward energy 
independence. The California Desert is a national resource which we 
feel should be considered for long-term energy needs, especially as we 
discuss reopening other areas of national significance for oil and gas 
exploration.
    Part of the challenge involves identifying areas where renewable 
development would not be restricted due to other designations and 
protections. Of public lands in the California desert, 4.8 Million 
acres are protected for the Desert Tortoise and 1.7 Million acres for 
the Mohave Ground Squirrel, a state-protected species. Although the 
Mohave Ground Squirrel management area allows 1% of the covered land 
for development, BLM has, so far, been unwilling to designate even a 
fraction of 1% of this land for solar development in this most valuable 
solar resource area. Seven hundred thousand acres are open to off-
highway vehicle use. Furthermore, two large military training 
facilities lie within in the most productive and valuable solar lands 
in the Mojave Desert; China Lake and Edwards Air Force Base, which 
together comprise 1.4 Million acres.
    For these reasons, we strongly urge the Committee and Senator 
Feinstein to direct the BLM to revisit the West Mojave Plan's 
provisions limiting solar development. This review of the West Mojave 
Management Plan should consider the best available scientific 
information on habitat and species protection, and take into account 
the availability of disturbed land with very high solar radiation 
levels, which is also close to electric transmission lines.
    We would also urge the Committee and Senator Feinstein to encourage 
BLM to clear out speculative lease applications and those which 
represent projects which are not moving forward, and only approve those 
projects which are commercially feasible and have a reasonable 
expectation of being developed.
    In order to reach the 2020 goal of 33% renewable energy, California 
needs to develop fifty to one hundred thousand acres of prime solar 
land in the desert (ideally previously disturbed land with high solar 
radiation). To achieve the 2050 climate goal, approximately 350,000 
acres of desert land are needed for development. The amount of land 
that should be considered for renewable energy development is quite 
small in comparison to land that has already been conserved for other 
purposes. And although BLM has set aside around 200,000 for a PEIS 
study area in Riverside East, one BLM field manager has suggested that 
a maximum of one-eighth of that area could be developed while avoiding 
environmentally sensitive lands, leaving the need for developable solar 
lands unmet.
    Of course, the sun is not the only extraordinary renewable resource 
found in California's Desert, and so we urge the Committee and Senator 
Feinstein to consider the area's other renewable resources alongside 
other desert attributes. For example, we understand that the California 
Wind Energy Association (CalWEA) has proposed very minor adjustments to 
the Monument's border areas, mostly on already disturbed lands, which 
would preserve the viability of four projects totaling 1,300 MW. We 
suggest consideration of all renewable resources in future planning 
efforts in the desert.
    To limit reliance on public lands for renewable energy development, 
the conservation community often suggests construction of renewable 
energy facilities on private land. A number of barriers require 
attention in order to make development on private lands a viable 
option. First, if no federal nexus exists (i.e. the project is not on 
federal lands), Section 10 consultation by the US Fish and Wildlife 
Service is necessary. Renewable project developers tell us that this 
takes significantly longer than a Section 7 consultation; and can take 
as long as 7-10 years. This creates a practical disincentive not to 
develop on private lands. Furthermore, the extreme parcelization of the 
region to multiple landowners-often over 100 per square mile-severely 
limits the acquisition of plots of private land large enough to sustain 
a large-scale renewable electricity generation facility.
    We are encouraged by the leadership and cooperation provided by 
Secretary Salazar and Governor Schwarzenegger in achieving an 
unprecedented level of interagency cooperation on renewable project 
permitting, and for integrating conservation and renewable resource 
planning. We look forward to sustaining and expanding this cooperation, 
and extending it to the recently initiated California Desert Renewable 
Energy Conservation Plan (DRECP). In addition, California recently 
enacted Senate Bill 34, which requires the California Department of 
Fish and Game to develop a funded interim mitigation strategy for 
``fast-track'' renewable energy projects in the desert.
    Section 205 of the California Desert Protection Act of 2010 
establishes an innovative mitigation banking system to encourage 
development of renewable energy projects on private lands, which may 
help remedy the Section 7 issue we identified earlier. This language 
was drafted prior to the initiation of the DRECP and enactment of SB 
34, and therefore should be modified so as not to undermine the current 
rigorous scientific and consensus-building planning efforts in 
California. More specifically:

  <bullet> Design and implementation of the proposed federal mitigation 
        program should be coordinated with the DRECP. Upon completion 
        and approval of the DRECP by the BLM, the mitigation program 
        should be subsumed into the DRECP conservation structure.
  <bullet> Design and implementation of the proposed federal mitigation 
        program should coordinate with the California Department of 
        Fish and Game's (DFG) interim mitigation strategy, per 
        California Senate Bill 34, so that any land acquisition or 
        other mitigation actions identified by BLM for conservation are 
        done in collaboration with DFG's strategy. This modification 
        will prevent any overlap and potential conflict between 
        separate mitigation efforts.
  <bullet> The cap to limit the mitigation payments for land 
        acquisition to 75% of the fair market cost of purchasing the 
        acreage needs to be changed to 100% of fair market value in 
        order to ensure conformance with the developing DRECP and the 
        state's interim mitigation strategy. This will ensure that it 
        does not unintentionally limit the use of this fund for 
        projects.
  <bullet> The Mitigation Council should include one representative 
        from the DRECP.
  <bullet> This section should apply to all projects, not just those 
        located on private land.
  <bullet> All funds provided by BLM land rents or leases should 
        support conservation and should be directed toward mitigation, 
        monitoring, and management.

    We are grateful to Senator Feinstein that a number of elements of 
the proposed legislation will assist the state, region, and country in 
identification and development of solar development lands. We applaud 
the designation of Renewable Energy Coordination Offices throughout the 
west to accelerate the issuance of federal permits for renewable energy 
projects and transmission lines to integrate renewable energy 
development. This will accelerate the often sluggish permitting 
process. Additionally, we support the proposed establishment the 
California Desert Mitigation Bank Pilot Program, under which eligible 
lands in the California Desert Conservation Area will be made available 
as habitat mitigation zones for the development of renewable energy 
projects on non-federal land. Because of the noted constraints on 
development on private land, we would respectfully urge the mitigation 
bank be made available to projects on federal land as well. Finally, we 
support the proposed statute's requirement for a study analyzing the 
impacts of a program to develop renewable electricity generation 
projects on military installations in California and Nevada. 
Identifying the potential for development in these areas will be a key 
first step in building a productive partnership between the renewable 
energy industry and the Department of Defense.
    In conclusion, CEERT strongly believes that we can achieve the 
proper balance between desert protection and renewable energy 
development, recognizing the multiple uses demanding land in the 
desert. We support the protection of valuable habitat and historical 
viewsheds. We appreciate Senator Feinstein's significant efforts to 
ensure timely and orderly renewable energy development in the desert, 
and hope that land use restrictions will be based on conservation value 
and best available science, while taking into account the most valuable 
solar and other renewable energy resources. In order to more 
effectively manage the needs of various stakeholders and desert 
resources, and to identify the appropriate lands for solar development 
in such a rich and important region, we urge every effort be made to 
improve consistency with ongoing state and federal planning and 
permitting. Such cooperation has already advanced the dialogue between 
parties within the region, and will continue to shape the sustainable 
management of desert character and resources in the future.
    We commend Senator Feinstein for her leadership in protecting 
California's fragile and extraordinary desert resources, and for her 
and the Committee's willingness to listen and respond to the 
constructive suggestions from the wide variety of citizens and 
interests seeking to coexist in a manner that preserves the desert's 
environment.
    Thank you.

    The Chairman. Thank you very much.
    Ms. Wald, you are the final witness. Thank you for being 
here.

 STATEMENT OF JOHANNA WALD, SENIOR ATTORNEY, NATURAL RESOURCES 
               DEFENSE COUNCIL, SAN FRANCISCO, CA

    Ms. Wald. Thank you, Mr. Chairman. Thank you for the 
invitation to appear today.
    I am Johanna Wald, and I am a senior attorney with the 
Natural Resources Defense Council. NRDC is a national nonprofit 
environmental organization, which has worked for 4 decades to 
protect lands managed by the Department of Interior's Bureau of 
Land Management and to promote sustainable energy policies.
    NRDC supports the overarching goals of S. 2921 to protect 
unique and special places on the public lands while 
facilitating renewable development on appropriate areas, and we 
commend Senator Feinstein for her leadership on these issues. 
At the same time, we have some serious concerns about the 
energy title that we would like to work with this committee and 
the Senator to resolve.
    Like Senator Feinstein, NRDC believes that we do not need 
to sacrifice special places on public lands to obtain the 
renewable energy necessary to meet the unprecedented challenge 
of global warming. Not all lands in the California desert are 
appropriate for renewable energy or other development, and the 
protections this bill would extend to wildlands and wild rivers 
in the desert are certainly warranted.
    Like the Senator, NRDC believes we need to develop 
renewable energy as quickly as possible to address global 
warming. However, we must do that development right, whether on 
public or private lands. We must put more emphasis on 
conservation, efficiency, and distributed generation, and we 
must have sound environmentally responsible renewable energy 
programs.
    More specifically, we must have a renewable energy program 
for the public lands that ensures that necessary development 
takes place on appropriate areas and that allows the Secretary 
of the Interior and BLM to learn from experience gained in the 
permitting and operation of solar and wind projects.
    The Interior Department and administration have said that 
they want this kind of program. But BLM and Interior have very 
little experience with these technologies. What is more, the 
scale of these projects is unprecedented, and we do not yet 
know the full range of their impacts.
    BLM and Interior are learning, though, and we should expect 
them to adapt their environmental reviews, decision-making, and 
policies to reflect what they learn from the permitting and 
operating of these projects. So, our fundamental concern with 
the energy title is that it would legislate key components of a 
renewables program for the public lands at the very beginning 
of its life rather than allow the agencies to learn from 
experience.
    For example, the bill would impose very tight deadlines on 
BLM review of permit applications, jeopardizing the quality of 
those reviews. Rather than locking in deadlines, Congress 
should tell the Secretary to establish deadlines and report 
back on their effectiveness.
    The bill would also legislate a categorical exclusion for 
the National Environmental Policy Act for certain wind and 
solar testing projects. This is unwise and unnecessary. 
Interior has authority underneath it to establish categorical 
exclusions where appropriate, and BLM has already decided that 
an administrative exclusion can be used for wind testing 
projects under certain circumstances.
    Similarly, the bill would legislate baseline statistics 
that BLM would have to use in calculating rental fees for solar 
projects. We are concerned that the specified statistics will 
undervalue public lands. Instead, the Secretary should retain 
the authority to set an appropriate fee for solar projects, 
which is the approach the bill takes for wind projects.
    We are also very concerned about the fact that this bill 
accepts the right-of-way system as the basis for allocating 
wind and solar development rights on public lands. We 
understand the bill aims to enhance this system, which is what 
BLM is using now, but we are concerned that it would, in 
effect, codify a system with known shortcomings.
    Instead, Congress should clearly acknowledge that a more 
robust, not simply a faster system, such as competitive 
leasing, is needed and give the Secretary discretion to adopt 
such a system. Our written testimony goes into greater detail 
about these and other aspects of the bill.
    Thank you again, Mr. Chairman, for your invitation and for 
your consideration of our views.
    [The prepared statement of Ms. Wald follows:]

Prepared Statement of Johanna Wald, Senior Attorney, Natural Resources 
                   Defense Council, San Francisco, CA
    Mr. Chairman and Members of the Committee:
    Thank you for the invitation to testify today regarding S. 2921, 
the California Desert Protection Act of 2010. My name is Johanna Wald, 
and I am a senior attorney at the Natural Resources Defense Council 
(NRDC). NRDC is a national, nonprofit organization of scientists, 
lawyers and environmental specialists dedicated to protecting public 
health and the environment. Founded in 1970, NRDC has more than 1.3 
million members and online activists nationwide, served from offices in 
New York, Washington, D.C., Chicago, Los Angeles, San Francisco and 
Beijing.
Introduction
    NRDC has a long history of efforts to protect and conserve the 
nation's federal lands and resources, including the lands and resources 
managed by the Department of Interior's Bureau of Land Management (BLM) 
in California and other western states. In addition, we have an 
extensive history of advocacy promoting the increased use of energy 
efficiency and renewable energy sources to meet the nation's energy 
needs. NRDC believes the nation must transition away from fossil fuels 
as quickly as possible in response to the unprecedented threats posed 
by global warming. We must employ energy efficiency, conservation and 
demand side management practices, and develop clean renewable energy at 
multiple scales, from distributed generation to utility scale renewable 
energy projects to reduce the nation's output of greenhouse gas 
pollution.
    The three main points that we will make in our testimony today are 
as follows:

          1. The nation does not need to sacrifice special and unique 
        places on the public lands to still have renewable energy on 
        public lands--energy that we need to address the climate 
        challenge.
          2. We do need to develop renewable energy as quickly as we 
        can, because of the unprecedented threat posed by global 
        warming to natural resources as well as public health and 
        wellbeing, and because treasured natural resources are already 
        suffering the effects of warming.
          3. We need a renewable energy program for the public lands 
        that ensures that necessary development takes place in 
        appropriate areas and that allows the Secretary of the Interior 
        and the BLM to learn from and adapt to experience gained in the 
        permitting and operation of renewable energy projects.

I. We do Not Have to Make a Choice
    The President has expressed clear and strong support for the public 
lands to play a critical role in his vision of a clean energy economy. 
For almost three years, NRDC has been heavily engaged in efforts at the 
national level as well as in the West, and particularly in California, 
to ensure that renewable energy development on these lands will take 
place in a balanced and environmentally responsible manner. We 
affirmatively support the twin goals of Senator Feinstein's 
legislation--to protect unique and sensitive publicly-owned wildlands 
in California while simultaneously lighting the way toward a cleaner 
energy future. We commend her for the leadership she has shown in 
advancing these goals.
    Senator Feinstein's legislation is an important step toward 
balancing America's need to shift to clean energy as quickly as 
possible with the need to protect our precious wildlands. Coupled with 
support for its goals, however, we remain concerned about some aspects 
of the Energy title, Title II, which addresses features of renewable 
energy planning and siting. It is those concerns that our testimony 
will focus chiefly on today.
    To summarize our views, we believe that this Title would legislate 
matters that should be left to the discretion of the Secretary of the 
Interior, given the fact that renewables development on the public 
lands is in its infancy. The Interior Department, the BLM and indeed 
the nation would benefit greatly from the ability to learn from and 
adapt to experience gained with the permitting and operation of these 
new projects. We very much look forward to working with the Senator and 
with Committee members to address our general and specific concerns 
going forward.
    As indicated, NRDC agrees with the overarching goals of the 
Senator's legislation. First, we believe that our country does not have 
to choose between protecting our special places and having the 
renewable energy that we need to address the climate challenge. Senator 
Feinstein knows this as well and it is reflected in her bill.
    The California Desert is a unique and special environment, as 
Congress recognized more than 30 years ago when it enacted the Federal 
Land Policy and Management Act of 1976 (FLPMA) and established the 
California Desert Conservation Area (CDCA).\1\ This vast landscape is 
home to diverse biological communities, scenic and wild places, and 
other resources including significant renewable resources. Not all of 
the lands in the Desert are appropriate for renewable energy--or other 
economic development--and the protections that the Senator's bill would 
extend to important wild areas and wild rivers as well as the lands 
within the two new National Monuments are certainly warranted.\2\
---------------------------------------------------------------------------
    \1\ See 43 U.S.C. Sec.  1781(a)(1)-(4). Upon passing this 
legislation, Congress found the following:

      (1) the California desert contains historical, scenic, 
archeological, environmental, biological, cultural, scientific, 
educational, recreational, and economic resources that are uniquely 
located adjacent to an area of large population;
      (2) the California desert environment is a total ecosystem that 
is extremely fragile, easily scarred, and slowly healed;
      (3) the California desert environment and its resources, 
including certain rare and endangered species of wildlife, plants, and 
fishes, and numerous archeological and historic sites, are seriously 
threatened by air pollution, inadequate Federal management authority, 
and pressures of increased use, particularly recreational use, which 
are certain to intensify because of the rapidly growing population of 
southern California;
      (4) the use of all California desert resources can and should be 
provided for in a multiple use and sustained yield management plant to 
conserve these resources for future generations, and to provide present 
and future use and ejoyment, particularly outdoor recreation uses, 
including the use, where appropriate, of off-road recreational vehicles 
 . . . 
      Id.
    \2\ Other positive aspects of title I of this legislation include 
its recognition of the need to allow for the possibility of 
transmission expansion in the new monuments: it may be necessary to 
transmit renewable energy produced on appropriate sites outside of the 
monuments or outside the state to population centers of southern 
California to meet the state's ambitious renewable goals (although we 
believe that the bill's language on this issue can be improved.) 
Futhermore, NRDC welcomes the Senator's acknowledgement of the 
importance of addressing the equitable interests of legitimate solar 
developers with proposed projects within the new monuments. See S. 
2921, Sec. 101(a) (amending the California Desert Protection Act of 
1994, Pub. L. 103-433 (1994) to add Section 1307, which grants 
applicants who meet specified terms a ``right of first refusal'' in 
solar energy zones to be designated by BLM). With other organizations, 
NRDC advocated for such a provision for companies which have invested 
substantially in areas with BLM's encouragement (although again we 
believe that the proposed statutory language can be improved). Lastly, 
as an organization with a longstanding interest in the BLM's 
administration of grazing privately-owned livestock on the public 
lands, we also appreciate Senator Feinstein's inclusion of provisions 
authorizing the Secretary of the Interior to permanently retire grazing 
permits within the Mojave Trails National Monument and to prohibit 
grazing on lands within the CDCA that were acquired using federal funds 
or donated funds. See Section 101(a) (amending the Sections 1304(c)(3) 
and 1904(b)(2)(C) of the California Desert Protection Act of 1994, Pub. 
L. 103-433 (1994)) (although, to be sure, we would have preferred this 
grant be for the entire California Desert Conservation Area).
      On the other hand, we are very troubled by the proposal to 
legislatively designate permanent off-highway vehicle recreation areas. 
In our view, land use decisions such as these are better left to land 
management agencies to make through their established planning 
processes.
---------------------------------------------------------------------------
II. Renewable Energy is Needed as Quickly as Possible due to Climate 
        Change
    We agree with Senator Feinstein that the nation needs to increase 
the generation and use of renewable energy as quickly as we can. The 
devastating and ongoing oil spill in the Gulf of Mexico provides tragic 
evidence of the need to break our nation's addiction to fossil fuels.
    What is more, global warming itself represents an unprecedented 
threat to the survival of ecosystems and wildlife, including publicly 
owned resources, and the human communities that depend on those 
resources. Indeed, distinctive resources of publicly-owned lands in 
California and elsewhere are already suffering the impacts of global 
warming. To take just two examples: conifer forests and pikas, small 
chinchilla-like animals, are moving uphill in places like Yosemite 
National Park to escape warming temperatures. Joshua trees may not 
persist much longer in Joshua Tree National Park and other high desert 
areas because of climate warming.\3\
---------------------------------------------------------------------------
    \3\ Stephen Saunders, Tom Easley, Dr. Jesse A. Logan, & Theo 
Spencer, Losing Ground: Western National Parks Endangered by Climate 
Disruption (Rocky Mtn. Climate Org. & NRDC), July, 2006, at 6, 11, 
available at http://www.nrdc.org/land/parks/gw/gw.pdf.
---------------------------------------------------------------------------
    However, while the nation needs renewable energy quickly, we must 
ensure that its development is done right. We are at the very beginning 
of a new era, one which will culminate with the transformation of this 
country's economy from one based on fossil fuels to one based on clean 
and green energy. To ensure that this new economy has the soundest 
possible footing, we must be ``smart from the start'' in where and how 
we obtain that energy, whether on private or public lands. We must not 
only put more emphasis on conservation, efficiency, demand side 
management and distributed generation, we must have sound, 
environmentally responsible renewable energy development programs.
    The Interior Department and the Obama administration have expressed 
a clear desire to have an environmentally responsible renewable energy 
program for our public lands--and NRDC, is committed to helping them 
achieve this objective. Developing such a program is a challenge, 
however. We are talking about new technologies with which the Interior 
Department and the BLM have very little experience. The Bureau has only 
just begun permitting these new technologies: as of this date, no solar 
projects have been permitted and only 202 wind projects have been 
approved on the public lands\4\--representing less than two percent of 
the total installed wind capacity within the nation.\5\ What is more, 
the scale of these projects is unprecedented--one of the proposed solar 
projects in California that the BLM is reviewing at this time involves 
more than 7,000 acres, and the average footprint of the solar projects 
now under review is about 5,000 acres.\6\ Given the scale of these 
projects alone, we really cannot know what the full range of impacts 
might be. Because so few of these projects have been permitted, BLM and 
other federal agency staff have almost no experience in predicting 
their impacts, in developing best management practices or in evaluating 
the efficacy of such practices and mitigation measures. In short they 
have little to no expertise in renewables development on the lands 
under their jurisdiction.
---------------------------------------------------------------------------
    \4\ Figures based on right-of-way authorizations through fiscal 
year 2009. See BLM, DEP'T OF THE INTERIOR, BUDGET JUSTIFICATIONS AND 
PERFORMANCE INFORMATION FISCAL YEAR 2001 (IV-165 (2010), available at 
http://www.doi.gov/budget/2011/data/greenbook/FY2011_BLM_Greenbook.pdf
    \5\ In fiscal year 2009, the BLM administered 427 megawatts of 
installed wind capacity. In comparison, the nation has 29,440 megawatts 
of total installed wind capacity. See id. at I-20.
    \6\ See BLM, Fast-Track Renewable Energy Projects, May 7, 2010, 
http://www/blm.gov/wo/st/en/prog/energy/renewable_energy/fast-
track_renewable.html (providing a frequently updated list of projects 
receiving fast-track review by the BLM).
---------------------------------------------------------------------------
    They are learning, however, and NRDC and other members of the 
environmental community are expecting that they will learn a great deal 
from the experiences that they are having in permitting the fast-track 
projects--that is, those projects that are potentially eligible for 
approval by December 2010 and thus for funding under the American 
Recovery and Reinvestment Act of 2009. In California, the BLM is not 
only gaining experience in permitting projects on lands it manages, it 
is learning how to work with state agencies--and particularly the 
California Energy Commission and the California Department of Fish and 
Game--in new and effective ways that we believe will ultimately help 
speed the approval and construction of renewables projects on not just 
public lands within the state and elsewhere, but also private lands.
    As indicated, we appreciate and share the goal of the energy title 
of the Senator's bill--namely to speed development of renewable energy 
on appropriate public lands, including lands managed by the U.S. Forest 
Service and Department of Defense, as well as BLM. This title 
incorporates a number of praiseworthy concepts including its 
recognition that the lands managed by the Bureau are not the only 
federal lands that should help the nation meet its needs for renewable 
energy. See S. 2921, Sec. Sec.  203-204 (requiring the Forest Service 
and the Defense Department to prepare programmatic NEPA documents 
assessing the suitability of federal lands under their respective 
jurisdictions for renewable energy development).
    The bill also includes language to address the significant backlog 
of solar applications that accumulated during the last administration, 
and specifically provisions aimed at weeding out applications for 
renewable generation projects that are either speculative in nature or 
proposed in locations that are unsuitable for development. See S. 2921 
Sec.  202 (providing for deadlines for applicants and direct authority 
for the Secretary of the Interior to screen applications for 
significant resource conflicts). It is our understanding that there are 
projects of both types now pending in California. To achieve a rapid 
transition to a clean energy economy, investments of federal staff and 
resources must go to viable proposals whose proponents have recognized 
the value of getting projects on line quickly by avoiding and 
minimizing adverse environmental impacts.\7\
---------------------------------------------------------------------------
    \7\ We were also pleased to see the inclusion of provisions that 
aim to promote advanced, high-efficiency electricity transmission in 
Section 209, and that recognize the importance of using some of the 
revenues from renewable energy development on public lands for 
conservation purposes. See S. 2921 Sec. 201(k)(ii)(directing a 
significant sum of those revenues to the Land and Water Conservation 
Fund (LWCF) beginning in 2021).
---------------------------------------------------------------------------
III. Renewable Siting--Smart From the Start
    At the same time, however, and as noted above, the Energy Title 
raises some serious concerns that we would like to work with the 
Committee to resolve.
    Our fundamental concern with this title is that it seeks to 
legislate key components of a renewable energy program for the public 
lands at the very beginning of its life, rather than allow the federal 
agencies to learn from and adapt to experience gained in both the 
permitting process and the operation of these projects going forward.
    For example, Section 202 of the bill seeks to legislate ambitious 
and ill-conceived deadlines for BLM review of permit applications, 
placing a heavy resource burden on the agency, while also jeopardizing 
the quality of its environmental reviews. Rather than locking in 
deadlines for these critically important reviews, we believe that the 
Secretary of the Interior should be required to establish appropriate 
deadlines and to report to Congress on the effectiveness of those 
deadlines once established.
    In addition, the bill seeks to establish a class of wind and solar 
testing projects that would be eligible for categorical exclusion (CE) 
from compliance with the National Environmental Policy Act (NEPA). The 
conservation community is very critical of efforts to legislate CEs and 
with good reason: historically they have created confusion and resulted 
in administrative abuses.\8\ What is more, such exclusions do not 
necessarily guarantee expedited development would occur for numerous 
reasons, including the increased likelihood of litigation.
---------------------------------------------------------------------------
    \8\ U.S. Gov't Accountabilitability Office, Energy Policy Act of 
2005: Greater Clarity Needed to Address Concerns with Categorical 
Exclusions for Oil and Gas Development Under Section 390, GAO-09-872, 
at 30 (2009). (referring to the CE created by Section 390 of the Energy 
Policy Act, GAO found that ``BLM's use of section 390 categorical 
exclusions has frequently been out of compliance with both the law and 
BLM' guidance  . . . ''). The report further found that ``[a]lack of 
clear guidance and oversight contributed to the violations and 
noncompliance. While many of these are technical in nature, others are 
more significant and may have thwarted NEPA's twin aims of ensuring 
that BLM and the public are fully informed of the environmental 
consequences of BLM's actions.'' Id.
---------------------------------------------------------------------------
    NRDC has a long history of opposing attempts to legislate CEs and 
we oppose this one. Not only is it bad policy, it is also unnecessary. 
The Interior Department has broad discretion under NEPA to establish 
administrative CEs where appropriate, including in connection with 
proposed renewable energy activities. Furthermore, as a consequence of 
BLM's Wind Energy Development Programmatic Environmental Impact 
Statement,\9\ the Bureau considered the extent and breadth of such 
proposed activities for wind resources at a policy level. Through that 
process, the Bureau established that an administrative CE can be 
applied to meteorological testing of wind under certain 
circumstances.\10\
---------------------------------------------------------------------------
    \9\ 71 FR 1768
    \10\ See BLM, Dep't of the Interior, Inst. Memo. No. 2009-043, Wind 
Energy Development Policy (Dec. 19, 2008) (expiring on September 30, 
2010), available at http://www.blm.gov/wo/st/en/info/regulations/
Instruction_Memos_and_Bulletins/national_instruction/2009/IM_2009-
043.html. BLM, Dep't of the Interior, H-1790-1, National Environmental 
Policy Handbook, 152 (2008), available at http://www.blm.gov/pgdata/
etc/medialib/blm/wo/Information_Resources_Management/policy/
blm_handbook.Par.24487.File.dat/h1790-1-2008-1.pdf.
---------------------------------------------------------------------------
    Similarly, the bill seeks to legislate the baseline statistics that 
BLM must use in determining the fair market value of public lands and 
thus the rental fees to be charged solar energy developers. See S. 2921 
Sec.  201(k)(2)(A). We are concerned that the specified statistics--
from the National Agricultural Statistical Service--will likely 
undervalue the public lands because they are derived from activities 
unrelated to energy production of any kind, such as dryland 
agriculture. Rather than encourage undervaluation of these lands, 
Congress must ensure that DOI receives fair market value when the right 
to develop public lands for wind and solar resources is conveyed to 
private interests.
    Traditionally, energy development on the public lands has been 
governed by a system that addresses both the need to recompense 
American taxpayers fairly for the loss of a limited resource (surface 
area, subsurface minerals, or both) and the need to compensate 
taxpayers for the loss of other uses of the area subject to 
development. This legislation does not address the issue of a royalty--
which would compensate for loss of other uses. We understand the 
Secretary is now contemplating such a policy. NRDC would support a 
royalty system as part of a comprehensive program for the development 
of renewables on public lands. At a minimum, rather than require use of 
the specified baseline metrics which would discount the value of lands 
allocated to renewable development, Congress should ensure that the 
Secretary retains the discretion to determine an appropriate fee at an 
appropriate time. In fact, that is the approach the bill takes for wind 
projects. See S. 2921 Sec.  201(k)(2)(B) (providing that the Secretary 
shall establish a fee schedule).
    We are also extremely concerned about the fact that this 
legislation is predicated on an historic realty-based system--the right 
of way system codified in Title V of FLPMA--as the basis for allocating 
wind and solar development rights on public lands. While we understand 
that the aim of the legislation is to enhance this system, which is the 
one the BLM is currently using, we are concerned that it would instead 
in effect codify the system--even though its utility for use in 
authorizing large scale renewable developments is unproven and it has a 
number of structural flaws that make it ill-suited for the long-term 
management of solar and wind resources.
    For one, the right of way system was designed to issue conveyances 
for linear facilities such as irrigation ditches, roads and 
pipelines.\11\ As well, the system is agnostic about ensuring that the 
best energy resources are chosen and planned for development. Rather, 
the process of developing these energy resources is dependent on the 
priorities of an administration. Whatever emphasis a particular 
administration may or may not place on approving projects can be the 
determinant factor for success or not. This also means that strategic 
decisions to develop the best available energy resources are often 
foregone. That is, often the system does not attempt to ensure that the 
types of projects considered are actually the most suitable for 
approval and will produce the greatest dividends. Additionally, terms 
of approval can be changed arbitrarily, which undermines the type of 
long-term economic certainty these kinds of projects require. Lastly, 
the system does not ensure that taxpayers receive a fair share of 
revenues in allocating public assets to private enterprises. This also 
means that mitigation payments and other reclamation assurances are not 
guaranteed in the current right of way system.
---------------------------------------------------------------------------
    \11\ See 43 CFR Sec.  2801.6
---------------------------------------------------------------------------
    Rather than reinforce use of the right of way system, we think 
Congress should clearly acknowledge that a more robust--not simply a 
faster--system, such as competitive leasing, is needed and the 
Secretary should be given the discretion to develop and update as 
appropriate such a system. In this regard, we commend to the 
Committee's attention Section 366 of S. 1462, the American Clean Energy 
Leadership Act of 2009.
    Last but not least, we are concerned about Section 205 of the bill 
which would establish a creative mitigation banking system to encourage 
development of renewable energy projects on private lands in 
California. NRDC supports the goal of this section because we believe 
that renewable development should not be limited to public lands, but 
rather should be balanced between private and public lands. This 
section was drafted prior to the start of the Desert Renewable Energy 
Conservation Plan (DRECP)--a major effort involving the state and 
federal governments and multiple stakeholders, including members of the 
conservation community and renewable developers, to identify 
appropriate zones for renewable development and for conservation along 
with a comprehensive mitigation strategy for public and private lands 
in the California Desert. The DRECP's first official meeting occurred 
in March of this year with the first meeting of its independent science 
advisors' panel occurring in April.
    The bill was also drafted prior to the enactment, in March, 2010, 
of California's Senate Bill 34, which requires the California 
Department of Fish and Game to develop an interim mitigation strategy 
for ``fast track'' renewable energy projects in the Desert.\12\ Under 
these circumstances, we urge that careful consideration be given to 
ensure that this section does not undermine the rigorous scientific and 
public participation requirements that the DRECP is subject to under 
the State's Natural Communities Conservation Planning Act of 1991. 
Provisions of particular concern include Section 205(d)(3)(C)(i), which 
provides that only 75% of the cost of acquiring mitigation lands need 
to be paid by participants. We also urge that consideration also be 
given to ensuring that the 200,000 acres or more of land required to be 
identified as part of this mitigation banking system under Section 
205(c)(1) is done in collaboration and consistent with state mitigation 
and planning efforts.
---------------------------------------------------------------------------
    \12\ Cal, S.B. 34 (2010). The California Senate reported that the 
bill, S.B. 34, would authorize the [California Department of Fish and 
Game], in consultation with the Energy Commission and, to the extent 
practicable, the United States Fish and Wildlife Service and United 
States Bureau of Land Management, to design and implement actions to 
protect, restore, or enhance the habitat of plants and wildlife that 
can be used to fully m itigate the impacts of the take of endangered, 
threatened, or candidate species (mitigation actions) resulting from 
certain solar thermal and photovoltaic powerplants in the planning area 
of the Desert Renewable Energy Conservation Plan, as defined. The bill 
would establish the Renewable Energy Resources Development Fee Trust 
Fund as a continuously appropriated fund in the State Treasury to 
serve, and be managed, as an optional, voluntary method for developers 
or owners of eligible projects, as defined, to deposit fees sufficient 
to complete mitigation actions established by the department and 
thereby meet their requirements pursuant to CESA or the certification 
authority of the Energy Commisssion.
    Id. at 2.
---------------------------------------------------------------------------
Conclusion
    In conclusion, NRDC supports the goals of Senator Feinstein's 
legislation and believes that it is an important step toward balancing 
America's need to shift to clean energy with the need to protect unique 
and sensitive lands. We stand ready to work to resolve the concerns 
detailed above with the Senator and with this Committee.
    Thank you for considering our views.

    The Chairman. Thank you very much.
    I just have a few questions. Mr. Myers, as I read this, the 
legislation establishing the monuments, it seems that current 
uses of these areas are expressly allowed to continue, 
including hunting, off-road vehicle recreation in certain 
areas, electric transmission rights-of-way, grazing. The one 
thing which would be prevented, of course, is the sighting of 
renewable energy projects in these areas.
    Is that the main thrust of the legislation or the 
establishment of these monuments, as you would see it?
    Mr. Myers. Yes. The goal is to preserve the status quo. The 
status quo is a product of many years of public hearings, both 
with BLM and at a local level, and nobody has disputed these 
uses over the last 10 years, and these existing uses have all 
been challenged by renewable energy projects that would 
displace them. So the goal of this is not to change the 
existing recreational uses of these lands.
    The Chairman. Ms. Wald, let me ask you, I put a question to 
the earlier panel about whether or not it was premature for us 
to be legislating all of the various things that are in this 
legislation, particularly with regard to the permitting of 
renewable energy projects on Federal land. It seems as though 
that is somewhat the gist of your testimony.
    You seem to be saying let us let the Federal land managers 
develop and refine their permitting system before we step in 
and try to legislate or prescribe how it would work in detail. 
Is that a correct paraphrasing of what your testimony is?
    Ms. Wald. Yes, it is, Mr. Chairman. These technologies, 
these projects, these programs are in their infancy now on 
public lands. We think it is appropriate for the Interior 
Department to be given the opportunity to develop experience--
gain experience and develop the expertise in permitting these 
projects and in seeing how they operate. Now as I----
    The Chairman. Go ahead.
    Ms. Wald. I wanted to make clear that we understand the 
desire for accountability and would encourage the Secretary and 
encourage Congress to tell the Secretary to establish 
deadlines, to report back on the progress that he is making. 
But we think it is too early in time to decide what the program 
for developing renewable energy on public lands ought to look 
like.
    The Chairman. We have in the bill we reported last July 
from the committee a provision that calls on the Secretary to 
look at this issue of competitive leasing rather than the 
issuance of rights-of-way. Is that an appropriate action by the 
Congress, as you see it?
    Ms. Wald. Yes. Yes. I think that is a very constructive 
suggestion. We understand that, in fact, the Secretary is 
considering competitive leasing as part of the solar 
programmatic EIS that is under preparation and that Director 
Abbey spoke about. We certainly think that consideration of a 
leasing framework is something that they ought to look at 
extremely carefully, and a pilot project I think would be 
helpful in that regard.
    The Chairman. Mr. White, did you have a position on that 
point?
    Mr. White. Yes, Mr. Chairman. We generally agree with Ms. 
Wald's view on this matter. I think the key is to have an 
interactive relationship between the oversight and statutory 
direction of the Congress and the process as it is unfolding.
    We are learning a lot as we speak and as we move forward. I 
think one of the areas I wanted to mention about the leases, 
however, is the notion of rental fees and raising revenues for 
solar projects needs to be carefully done, and done in a way 
that is consistent with what has already been done with wind. 
We also need to be sure that at least some of those revenues 
are dedicated to help support the ongoing mitigation work that 
is going to be required.
    These projects are fragile themselves. The technologies are 
expensive, but they are very important. We think that there is 
also going to be an extraordinary amount of mitigation that is 
going to accompany these projects and how that mitigation gets 
managed and how the land, as a whole, works together is going 
to be important.
    I think we also think the BLM should be more careful in the 
way the lands are leased now. They are currently sort of first-
come, first-served, and there is a lot of projects that have 
applied for leases that we don't believe will ever be built. 
So, weeding those out and then maybe moving to some kind of a 
competitive system, considering, though, that the revenues that 
are gained from these lands need to be balanced against the 
cost of the projects and not be too heavy on the front end.
    The Chairman. All right. We have, I think, got good 
testimony here from all of you. As I indicated at the 
beginning, we want to, if you have additional points that you 
think we need to understand, please supplement your testimony 
here in the next few days. We would appreciate that.
    But I think this has been a good hearing, and we appreciate 
you all being here.
    We will conclude the hearing.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Harry Baker to Questions From Senator Murkowski
    You have complained that many of these areas proposed for 
Wilderness do not meet the Definition of a Wilderness as set forth in 
the 1964 Wilderness Act.
    Question 1. Could you give me some specific examples of how the 
proposed Wilderness areas conflict with your understanding of the 1964 
Wilderness Act?
    Answer. The Wilderness Act of 1964 specified among other criteria 
that Wilderness is where earth and its community of life are 
untrammeled by man, where man himself is a visitor who does not remain. 
Wilderness further excludes all forms of motorized and mechanized 
equipment. There can not be any roads within a Wilderness area and the 
area can not be less than 5,000 acres, nor can there be any mining, 
structures, radio towers or other signs of man in Wilderness areas.
    In the proposed Avawatz Wilderness Area there are existing roads 
which were traveled on with Senator Feinstein's staff, by vehicle on 
May 28, 2010. Also on that tour, mine adits were seen as well as mine 
tailings and debris. The ruins of several structures were also 
photographed as well as a modern radio tower, all within the proposed 
Wilderness area.
    The Proposed Wilderness Area has been expanded to the Right of Way 
of Highway 127 and now includes an area that was considered for siting 
of alternative energy development.
    The Proposed Kingston Range Wilderness Addition also is expanded 
out to the Right of Way of Highway 127 and includes part of the area 
that was considered for alternative energy. The proposed area is cut by 
the Tidewater and Tonopah Railroad grade and another non wilderness 
corridor that truncates the proposed Wilderness into an area of less 
than 5,000 acres.
    Both the Avawatz and Kingston additions include flat alluvial fans 
that are not wilderness quality land and appear to be nothing more that 
a land grab to block alternative energy.
    The southern section of the proposed Golden Valley Wilderness Area 
is bisected into six sections, five of which are less than 5,000 acres, 
by several non-wilderness motorized corridors. These proposed corridors 
include the historical Twenty-Mule Team Road.
    The northern section of the proposed Golden Valley Wilderness Area, 
along with the southern portion and the existing Golden Valley 
Wilderness and the Grass Valley Wilderness will completely block any 
westward expansion of the China Lake Naval Weapons Center should it 
become necessary in the future for national defense.
    The proposed Great Falls Basin Wilderness could be supported as 
wilderness as it meets the criteria for wilderness except that when it 
is combined with the existing Argus Range Wilderness any potential 
expansion of the China Lake Naval Weapons Center to the east is 
blocked.
    If a road, a mining operation or mans presence exists in a proposed 
Wilderness area and is recognized by the proponents of Wilderness, is 
the area really Wilderness? I think not.
    Question 2. Could you provide me with some specific examples of 
where future growth and development will be blocked by these National 
Monuments?
    Answer. A study of areas for alternative energy development 
included the area that is now included within the proposed Mojave 
Trails National Monument and will be blocked by this legislation. A map 
depicting the Solar Energy Study Areas in California which was prepared 
June 5, 2009 and available through the Washington BLM Office clearly 
shows the land in the proposed Mojave Trails National Monument as being 
analyzed for Solar Development. There were proposals submitted to the 
BLM for Solar sites within the proposed MTNM. These potential 
alternative energy areas have been omitted from the map that is being 
used to show where the boundaries of the proposed MTNM would be in an 
attempt, I believe to disguise the fact that the area of the proposed 
monument is prime for the siting of solar.
    Any of the communities that are within the boundaries of the MTNM, 
such as Amboy, Ludlow, Goffs, etc., will not be allowed to expand in 
the future. Conversely these communities could benefit and expand if 
alternative energy sites are constructed in their vicinity.
    The proposed Wilderness areas and the MTNM are all on the 
perimeters of military bases and if designated, will stop any further 
expansion by the military for National Defense needs; an example of 
this is the proposed expansion of the Twentynine Palms Marine Base. The 
study areas for the expansion are to the East, South and West but the 
Eastward expansion away from homes and business is limited by the Sheep 
Hole Wilderness Area. Although dedesignation of the northern portion of 
the Sheep Hole Mountains Wilderness Area would enhance the Marine Base 
expansion, Senator Feinstein has stated that this is a non starter and 
not to be considered. This, in my opinion says that once an area is 
designated as Wilderness even the needs of the Marine Corps will not 
trump Wilderness.
    Question 3. Could you provide me with some specific examples of the 
hardships on communities and individuals that these designations will 
impose if passed?
    Answer. We know from past experiences that with new management 
plans such as are mandated by this legislation, that the present usages 
are not guaranteed, and will likely not be allowed to continue, for 
example in the Carrizo Plains National Monument in California grazing 
is being eliminated, rock hounding is no longer allowed and access 
roads are being eliminated. Existing roads and uses are also being 
eliminated in the Escalante National Monument in Utah. These were all 
existing uses that were to be allowed to continue in the monuments per 
the original legislation.
    Question 4. In your mind what part of the state of California 
should be reserved in a combination of Wilderness, Wilderness Study 
Areas, National Monuments, National Parks, Wild and Scenic Rivers and 
other set-asides?
    Answer. I do not believe that a certain percentage or quota needs 
to be set, rather the criteria for special designation be it 
Wilderness, National Parks and Monuments, Wild and Scenic Rivers or 
other set-asides should be on merit, what the land designation 
currently is, it's use and the potential national need. National 
Monuments and Wilderness should not be used to appease a special 
interest group, Wild and Scenic River designation should not be used 
for dry river beds and to block motorized access to private property, 
and other set-asides must not be used to stop public access. No more 
land should be locked up for an exclusive use.
    Fifty percent of the total land in California is privately owned. 
Presently there is approximately 16 percent of the land in California 
designated as Wilderness or 32 percent of the public land! I believe 
that the initial Wilderness Act envisioned about 20 million acres in 
the United States as suitable and today we have over 109 million acres, 
when will enough be enough? There is constant pressure to take more 
land out of production in the name of protection which diminishes our 
tax base and limits our ability to extract natural resources and makes 
us more dependent on foreign countries.
                                 I11___
                                 
   Responses of David P. Hubbard to Questions From Senator Murkowski
    Question 1. If we are not going to develop renewable energy on 
federal lands in the desert, where do you recommend these resources be 
developed?
    Answer. Although my client, EcoLogic, would like to see renewable 
energy projects sited on private as opposed to public land, it realizes 
that this is not always possible. For this reason, EcoLogic does not 
believe that renewable energy projects should be excluded categorically 
from federal lands in the California desert. However, the matter is 
complex. We are concerned that the intense federal and state interest 
in developing renewable energy resources has attracted speculators who 
will tie up public land but never really produce a project that 
generates significant renewable energy. We are also concerned that the 
push for renewable energy may operate to forfeit recreational 
interests, with little or no mitigation for the loss. Specifically, if 
the federal government is going to site these large energy projects in 
popular recreational areas of the desert, the entities who will profit 
from those projects should be required to develop compensatory 
recreational areas at a 1:1 ratio. In short, our support for renewable 
energy development in the desert comes down to a single issue--
mitigation.
    Question 2. Are you concerned that actions by the Congress, the 
Administration or the Courts to prohibit renewable energy development 
every time a project is proposed on Federal land will result in 
investors being less willing to invest in renewable energy projects in 
our country?
    Answer. Legal regulation is always a deterrent to business 
development; but it is a necessary evil, as it ensures the well-being 
of the public and of the resources held in trust by the federal 
government. So the question is not whether regulation will deter, to 
some extent, investment in renewable energy, but whether the 
regulations are so stringent as to strangle such investment altogether. 
As stated above, EcoLogic does not wish to unduly impede the 
development of alternative energy sources--in the California desert or 
anywhere else. That does not mean, however, that renewable energy 
development applicants should be given a free pass and be relieved of 
all regulation. That would be a huge mistake, and an unnecessary one. 
Given how little the energy companies will be paying to use the federal 
land on which the projects will be located, and given how much those 
companies stand to make in terms of profit, there is no need to relax 
the regulatory controls that govern other business in the energy 
sector. Further, the proposed bill (S.2921) provides for a more 
streamlined approval process for renewable energy projects.
    Question 3. Is it your experience that being forced to develop on 
private land is more costly and time consuming than proceeding on 
federal land? If so how much on average does it cost?
    Answer. In the context of renewable energy projects, development on 
private land may be, and likely is, more expensive and time consuming 
than development on federal land, if only because the federal lease 
terms are very favorable to the project applicant. Indeed, one of our 
concerns is that the federal government, in an effort to attract 
renewable energy investment on federal land, may be lowering the bar of 
entry to such an extent that BLM will be inundated with applications 
from unworthy, unstable, and/or unreliable project proponents. This 
will serve only to clog the system and delay the actual development of 
bona fide renewable energy projects.
    Question 4. In your mind what percent of the State of California 
should be reserved in a combination of Wilderness, Wilderness Study 
Areas, National Monuments, National Parks, Wild and Scenic Rivers and 
other set-asides?
    Answer. I do not think this question can be answered by giving a 
percentage of land area. There are only so many areas in California 
that qualify as Wilderness, or may meet the criteria of a Wild and 
Scenic River. So these kinds of resources are highly location-specific. 
One must assess them on an individualized basis. That said, however, it 
has been our experience that the process of designating Wilderness 
Study Areas has been roundly abused and employed primarily as a means 
to tie up land that (1) has no hope of ever qualifying as Wilderness, 
and (2) could be put to better public use. This practice should be 
stopped. For this reason, we support the effort of S.2921 to release a 
number of Wilderness Study Areas that do not meet the established 
criteria for Wilderness.
                                 ______
                                 
     Responses of Pedro Pizarro to Questions From Senator Murkowski
    Question 1. The State of California has one of the most aggressive 
Renewable Electricity Standards in the nation--requiring 20% of 
electricity to come from renewable sources by this year and a whopping 
33% by 2020. Where is Southern California Edison on meeting this 
requirement? Doesn't legislation to block off some of the most 
promising solar areas in the desert make it even harder for California 
entities to comply with this standard?
    Answer. In 2009, SCE purchased and delivered 13.6 billion kWh of 
energy from eligible renewable resources. This represents about 17% of 
SCE's customers' needs. SCE has enough contracts with new renewable 
resources to achieve the current 20% goal framework for the foreseeable 
future.
    SCE's ability to meet future California renewables goals is more 
difficult to predict in light of programmatic changes currently under 
consideration. While there is an Executive Order in place setting a 33% 
renewables goal for California, the specific rules regarding what types 
of resources will count toward that goal are not final. Similarly, the 
structure of proposed legislation continues to be the subject of 
vigorous debate in Sacramento. SCE is working with energy agencies and 
California's legislature to ensure that any increased goals for 
renewables contain programmatic structures which recognize California's 
various environmental needs and do not unduly restrict the ability to 
meet new goals if the supply of renewables in California is 
constrained. Accordingly, if a renewables program is instituted that 
does not include necessary flexibility, 33% may be difficult for 
California to achieve. On the other hand, if a program containing 
appropriate flexibility is adopted, 33% may be more achievable.
    Question 2. Would you agree that the process laid out in the 
provisions of Title II Sections 201--208 to govern renewable energy 
permitting substantially differs from the process this Committee 
approved in Sec. 366 (Development of Solar and Wind Energy on Public 
Land) of S. 1462 the American Clean Energy Leadership Act of 2009?
    Answer. According to the Report language for Section 366, only a 
pilot program is being initiated and only two solar and two wind sites 
are to be chosen. Section 366 does not seem to contain modifications to 
the authorization process that would appear to shorten the process for 
obtaining a permit for renewable generation facilities located on 
federal lands.
    Question 3. If Title II of S. 2921 were to be stripped in the mark 
up process, would you and your company still support this bill?
    Answer. SCE endorsed S. 2921 as it was introduced in Congress. Any 
modifications to the legislation would require additional review to 
determine the impact on the company. SCE perceives the permitting 
components of the bill as a key benefit to SCE's customers in helping 
California meet its renewable energy goals. The permitting improvements 
are viewed by SCE as a reasonable tradeoff for the removal of portions 
of the California desert from potential development.
    Question 4. If we are not going to develop renewable energy on 
federal lands in the desert, where do you recommend these resources be 
developed?
    Answer. This legislation removes a relatively small amount of 
federal land with perceived important natural resources from 
development. Less environmentally valuable public land and private land 
is better suited for the development of renewable power.
    Question 5. Are you concerned that actions by the Congress, the 
Administration or the Courts to prohibit renewable energy development 
every time a project is proposed on Federal land will result in 
investors being less willing to invest in renewable energy projects in 
our country?
    Answer. There are many barriers to building on both private and 
government land. We believe this legislation will remove many of those 
barriers.
    Question 6. Is it you experience that being forced to develop on 
private lands is more costly and time consuming than proceeding on 
federal lands? If so how much on average does it cost?
    Answer. It is premature to determine whether developers face any 
difference in cost or time when it comes to site renewable projects on 
private vs. government land. Building on private land will likely 
require a longer time frame for the Endangered Species Act (ESA) review 
because there is no federal nexus. Potentially balancing the longer ESA 
review is the fact that private disturbed land may have less 
environmentally sensitive issues than building on non-disturbed 
government land.
    Question 7. In your mind what percent of the State of California 
should be reserved in a combination of Wilderness, Wilderness Study 
Areas, National Monuments, National Parks, Wild and Scenic Rivers and 
other set-asides?
    Answer. SCE believes that all protections of federal land should be 
reviewed on a case by case basis.
    Question 8a. he bill directs BLM to ``ensure that existing rights-
of-way and utility corridors within the [Mojave Trails National] 
Monument are fully utilized before permitting new rights-of- way or 
designating new utility corridors within the Monument.'' How should the 
BLM determine whether or not an existing right-of-way is ``fully 
utilized''?
    Answer. BLM should rely upon the utilities using established 
engineering, operations and maintenance standards, and transmission 
system planning criteria to determine whether a utility has the ability 
to safely and reliably install additional facilities within an existing 
right of way.
    Question 8b. What if an existing right-of-way is 100 miles away 
from a needed utility corridor?
    Answer. In that case, then an additional right of way should be 
granted. Utilities should not be required to route facilities into 
corridors that are not located in the general vicinity of the proposed 
route. The National Environmental Policy Act environmental review 
process requires that a federal permitting agency consider a 
``reasonable range of alternatives''. This standard should be used for 
determining when the use of an existing right of way should be 
considered for a proposed transmission line.
                                 ______
                                 
     Responses of Dorothy Robyn to Questions From Senator Bingaman
Military Lands
    Question 1. I understand that DOD is interested in using some 
public lands withdrawn for military purposes for utility-scale 
renewable energy development. Under what legal authority would DOD do 
this? Prior to authorizing a utility-scale project on these lands, will 
DOD review each applicable withdrawal order to ensure that utility-
scale renewable energy development is a ``military purpose'' within the 
meaning of the withdrawal order? How does DOD propose to dispose of the 
revenues received for these facilities?
    Answer. The Department of Defense has various authorities, mostly 
contained in chapter 173, Energy Security, of title 10, United States 
Code, that address renewable and alternative energy projects. In 
particular, sections 2916 and 2917 of that chapter deal with sale of 
electricity from alternate energy and cogeneration production 
facilities and development of geothermal energy on military lands. In 
addition, 10 U.S.C. Sec. 2667, the DoD's general leasing statute, may 
be utilized in appropriate circumstances to allow such a project.
    Section 203 of the 2005 Energy Policy Act (Pub. L. 109-58) and 
section 2911 of title 10, United States Code, both require that the 
Department of Defense increase the percentage of energy consumed from 
renewable sources. Each project authorized on a military installation 
must comply with all applicable requirements, including any 
requirements contained in withdrawal legislation. The various 
withdrawal statutes are not uniform, however. Consequently, projects 
need to be reviewed on an individual basis.
    Regarding revenues received from such projects, the Department of 
Defense can only use funds in a manner authorized by Congress. For 
example, 10 U.S.C. Sec. 2916 explicitly authorizes the use of proceeds 
from the sale of electricity from alternate energy facilities to be 
credited to the appropriation account currently available to the 
military department concerned for the supply of electrical energy. If 
the facility were constructed under a lease pursuant to 10 U.S.C. 
Sec. 2667, the DoD's general leasing statute, the proceeds could be 
used in accordance with the various uses authorized under that statute. 
Generally speaking, revenues are used to support the installation 
performing its mission. However, the Department may receive other 
benefits from these projects, such as direct provision of electrical 
power and guaranteed access to generation capability.
Coordination
    Question 2. Please describe and provide for the record any 
Memorandum of Understanding (MOU) or Cooperative Agreement between DoD 
or any branch of the Armed Services and the Bureau of Land Management, 
Department of the Interior, relating to the siting of renewable energy 
projects. If such agreements do not exist, is there a plan to enter 
into any such agreement? To help facilitate the authorization of wind 
and renewable projects?
    Answer. For the last two years, the Bureau of Land Management and 
the Department of Defense have had an MOU in place that establishes a 
process for DoD to review and comment on proposed wind energy 
applications on BLM-administered public lands and a process to develop 
mitigation measures. The MOU also includes an appeals process through 
existing BLM structures. The MOU is attached to this answer. We are 
considering expanding the scope of the MOU to include other renewable 
energy sources, such as solar.
Program Administration
    Question 3. BLM currently administers the oil and gas leasing 
program on National Forest System Lands and public lands withdrawn for 
military purposes, where consistent with the particular withdrawal 
order. Should BLM also administer the solar and wind energy development 
programs on these lands?
    Answer. The BLM and DoD have a long history of working together 
successfully on energy development issues, including the development of 
renewable energy on military installations. Moreover, DoD is actively 
seeking to develop renewable energy projects on its installations, 
including on withdrawn land where consistent with the withdrawal order. 
However, in contrast to the arrangement with oil and gas leases, DoD 
needs to be able to administer such projects, albeit in close 
consultation with BLM. First, unlike oil and gas development, renewable 
energy development on a military installation is usually designed to 
assure energy supply to the installation itself and thereby facilitate 
continuity of operations. The installation commander needs to have 
direct control over what could be a critical source of energy security. 
Second, renewable energy projects must be sited and managed in a way 
that preserves the installation's ability to meet its testing, training 
and other operational missions, which DoD can do most effectively. 
Finally, DoD has the incentive and ability to respond more quickly than 
other federal agencies to proposals for renewable energy development on 
military installations, thus facilitating their approval and 
implementation.
     Responses of Dorothy Robyn to Questions From Senator Murkowski
Boundaries Between the 29-Palms Base and the New Proposed Wilderness
    Question 1. If there will have to be negotiations on where 
boundaries are finally drawn between the 29-Palms base and the new 
proposed Wilderness wouldn't it make more sense to just wait to 
designate the Wilderness at some later point when the military and the 
BLM have completed their discussions?
    Answer. Answer: DoD supports the approach taken in S.2921, the 
California Desert Protection Act of 2010. The bill identifies a process 
by which lands may be withdrawn either as wilderness area or for 
military use. Although it may take some time to identify the final 
boundary between the installation at Twentynine Palms and the new 
proposed wilderness area, the bill establishes clear limitations on any 
future use of the land, protecting the interests of the Department and 
BLM while the decision-making process proceeds. Therefore, we have no 
objection to enactment of such legislative language, even before the 
final boundaries are agreed upon.
DOD Renewable Energy Goals
    Question 2. Is it correct that DOD has established a goal to 
generate 25% of its energy needs from renewable resources by 2025? What 
percentage of renewable electricity does the Defense Department 
currently use? How realistic is your 25% target by 2025?
    Answer. Yes. The Department established the goal to purchase and/or 
generate renewable energy equal to or greater than 25% of electricity 
consumed by 2025. The goal was then codified by section 2852 of the 
John Warner National Defense Authorization Act for Fiscal Year 2007 
(Public Law 109-364).
    The Department is currently on track to meet the 25% by FY2025 
goal. In FY2009, the Department produced or procured 9.8% of its total 
electricity from renewable energy sources. The goal is aggressive: to 
meet it, the Department will need to invest in small-scale renewable 
projects while also leveraging private sector capital to develop large-
scale renewable projects.
Renewable Energy Study
    Question 3. The legislation directs DoD to study the viability of 
developing a renewable energy program on Southwest military bases. Has 
this type of study been undertaken previously by the Defense Department 
in other areas? Has DoD considered a national approach to assessing the 
renewable energy potential on its lands?
    Answer. This legislation overlaps the requirements in the National 
Defense Authorization Act for Fiscal Year 2010, which requires DoD to 
examine the feasibility of renewable energy in its 2010 Annual Energy 
Management Report (AEMR) [and a study requested in the Department of 
Defense Appropriations Act for FY 2010]. Senate Report 107-68 
previously directed the DoD to conduct an assessment of wind, solar, 
and geothermal energy potential on U.S. military installations. The 
Department completed that assessment in March 2005. The Military 
Services are currently conducting renewable energy assessments to 
identify promising locations, rule out poor or marginal locations and 
identify the approximate capacity available. The results of these 
assessments will be included in the 2010 AEMR.
                                 ______
                                 
     Responses of Johanna Wald to Questions From Senator Murkowski
    Question 1. Your organization has been at the forefront of the 
renewable energy movement. Does the NRDC believe it is good public 
policy to set-aside 1.6 to 2 million acres of some of the most 
promising lands with solar potential for additional National Monuments 
and Wilderness-particularly in an area such as this which is already 
heavily populated with Wilderness and National Parks?
    Answer. NRDC believes that our nation does not need to choose 
between protecting special and unique places on our public lands and 
obtaining the renewable energy that we need from those lands. Indeed, 
we believe that the key to obtaining the renewable resources found on 
our public lands is to promote their development on lands with 
relatively low natural resource values and to avoid lands that are 
highly valued for preservation, such as the kinds of lands that would 
be set aside by S. 2921. Promoting development on lands with highly 
valued ecological resources will inevitably lead to conflict, 
controversy and delay whereas proposing development on lands with 
comparatively low potential for conflict and controversy should 
facilitate their timely review and processing.
    Question 2. If this bill is signed into law, what does that suggest 
about the potential future for renewable energy development on other 
federal lands?
    Answer. If S. 2921 is signed into law, it will, we believe, signal 
to all concerned that the nation does not have to sacrifice our special 
places to meet our needs for renewable energy. This result should help 
the renewable energy industry continue to cultivate the broad support 
it now has from the public given the measurable economic and 
environmental benefits this industry can provide for the nation. 
Passage should also help reassure concerned members of the public that 
places that are not appropriate for development will be protected as we 
transition to a cleaner energy economy.
    Question 3. Many of the companies who have begun the process to get 
leases in the area, did so after being encouraged by the BLM to look in 
this general area. If this bill is enacted do you think the federal 
government should compensate them for the investments they had already 
made to develop their proposals?
    Answer. Like Senator Murkowski, NRDC understands that a number of 
the companies which began the process of obtaining renewable rights-of-
way within one of the national monuments proposed by S. 2921, the 
proposed Mojave Trails National Monument, did so with the encouragement 
of some BLM field staff. However, it is well-established within the 
Code of Federal Regulations that pending right-of-way applications do 
not represent valid existing rights. Accordingly, if S. 2921 were 
enacted, they would not be entitled to receive compensation from the 
federal government for any investments they have made in the 
application process. That said, NRDC urged that S. 2921 acknowledge the 
equitable interests of legitimate solar developers with proposed 
projects within the proposed monument and we welcome the bill's 
inclusion of language that aims to do just that. See S. 2921, 
Sec. 101(a) (amending the California Desert Protection Act of 1994, 
Pub. L. 103-433 (1994) to add Section 1307, which grants applicants who 
meet specified terms a ``right of first refusal'' in solar energy zones 
to be designated by BLM).
    Question 4. In your mind what percent of the State of California 
should be reserved in a combination of Wilderness, Wilderness Study 
Areas, National Monuments, National Parks, Wild and Scenic Rivers and 
other set-asides?
    Answer. NRDC does not have any preconceived idea as to what percent 
of the public lands in California should be reserved for conservation 
purposes. While many areas have already been protected, for example by 
designation as Wilderness Areas, Wilderness Study Areas, and National 
Parks and still others are under consideration for protection, 
including the lands subject to S. 2921, we do not doubt that there are 
additional areas on public lands in California equally deserving of 
protection from commercial development, including energy development. 
Sound, environmentally responsible renewable energy programs for the 
public lands that are designed to guide development to the most 
appropriate places under the circumstances will minimize, if not 
entirely eliminate, conflicts over renewable development on our public 
lands. We are working with BLM to ensure that such programs are put in 
place as promptly as possible.
                                 ______
                                 
   Center for Energy Efficiency and Renewable Technologies,
                                     Sacramento, CA, June 18, 2010.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee on Energy and Natural 
        Resources,Washington, DC.
    Dear Senator Bingaman, Thank you for the opportunity to appear 
before the Senate Energy and Natural Resources Committee on Thursday, 
May 20, 2010 to offer testimony on S. 2921, and for the opportunity to 
respond to Senator Murkowski's questions regarding Senator Feinstein's 
California Desert Protection Act of 2010. Please find my responses to 
Senator Murkowski's questions below.
    Question 1. What signal does this bill send to those who might 
consider investing in the development of renewable energy projects in 
California?
    Question 2. What signal does this bill send to those who might 
consider investing in the development of renewable energy projects on 
Federal lands?
    Answer. Senator Feinstein's bill signals that land lease 
applications for renewable development in areas that had been donated 
for conservation purposes will be extremely difficult to successfully 
develop. In retrospect, there was too little effort by the Bureau of 
Land Management (BLM) to weed out speculative applications, and a 
failure to anticipate conflicts over areas that were likely to be 
controversial on the part of both BLM and some developers.
    The federal government and the state of California haven't done the 
kind of integrated planning for desert lands that should have been done 
decades ago. While great attention has been paid to the interests of 
the military, off road vehicle users, mineral extraction, as well as 
wilderness and wildlife conservation, too little attention has been 
paid to renewable energy development.
    We appreciate the recent efforts that have attempted to identify 
the best places for renewable energy development, such as California's 
Renewable Energy Transmission Initiative and the BLM solar Programmatic 
Environmental Impact Statement (PEIS). We are hopeful that the combined 
efforts of the BLM and the Department of the Interior, under the 
leadership of Secretary Salazar, and the state of California, through 
the work of the state and federal Renewable Energy Planning Group to 
expedite permitting of ARRA eligible projects, and the California 
Desert Renewable Conservation Plan (DRECP), can remedy these earlier 
conflicts, and create a sustainable environment for new investment.
    Question 3. You have complained that Off-Road Vehicle and 
motorcyclists are getting special treatment, are you suggesting that 
solar and wind and geothermal need their own reserves for dominant use 
too?
    Answer. Given the extraordinary dependence of our country on fossil 
fuels, and the body of evidence regarding their impact on the 
environment, human health, and the global atmosphere, it is 
inconceivable to me that our planning for the use of federal land in 
the California desert would have paid so much attention to the special 
interests of Off-Highway Vehicles users, while at the same time 
essentially ignoring the high quality abundant renewable energy 
resources on desert lands. More than 750,000 acres have been set aside 
for off-road vehicle use of desert lands, while virtually no renewable 
development areas have been identified as part of previous conservation 
and multiple use planning efforts. We realize that this disparity is in 
large part the result of historic practices and policies, but it is 
time to fix them. We are hopeful that efforts to identify and preserve 
the best renewable resource land as part of BLM's solar PEIS and the 
state and federal cooperative planning now underway as part of the 
California DRECP will remedy this disparity. We strongly support the 
suggestion Senator Feinstein made in her testimony before the Senate 
Energy and Natural Resources Committee that the BLM should include a 
new Solar Energy Study Area in the West Mojave, where solar radiation 
levels are among the very best in the world.
    Question 4. If so how much land should be set-aside in the State of 
California for these uses?
    Answer. We have estimated that the approximate amount of land 
needed for renewable development in California in order to meet the 
state's 33 percent by 2020 renewables target is between 50,000 and 
100,000 acres. We reached these numbers by making assumptions about 
energy demand, renewable resource areas, and land use requirements for 
each technology. We based the energy demand on a ``net short'' estimate 
produced with broad support by RETI and adopted by the California 
Transmission Planning Group (CTPG). To reach a renewable energy 
portfolio of 33 percent by 2020, we estimate that 52,764 GWh/yr would 
need to be produced. We assumed that 70 percent of the new renewable 
energy would come from inside California's border, and 70 percent of 
the in-state energy (roughly 23,000 GWh/yr) would likely come from land 
within the DRECP planning area. The ratio of in state to out of state 
generation is consistent with the CTPG estimates. We based our estimate 
of land used per MW on an energy analysis done by Black & Veatch.
    Additional land would be needed to meet the state's 2050 climate 
target, but the amount needed will depend on the quality of the 
resource and the proximity to transmission.
    Question 5. Are you concerned that actions by Congress, the 
Administrations or the Courts to prohibit renewable energy development 
every time a project is proposed on Federal land, will result in 
investors being less willing to invest in renewable energy projects in 
our country?
    Answer. Significant financial risks and uncertainty exist around 
permitting for renewable energy projects in California and in other 
regions for projects on federal as well as private land. No standards 
exist for the permitting process or timeline, or for mitigation. 
Because costs are uncertain when no standard process exists, we are 
concerned about the willingness to invest in renewable energy in our 
country. We believe the best way to overcome these risks and create a 
stable and attractive investment climate for renewable energy is to 
follow a policy of sustained, orderly development of renewable 
resources. Such development should occur through intensive cooperation 
among state and federal agencies and consensus-based planning that 
involves key stakeholders, including conservation and clean energy 
oriented environmentalists, native American tribes, as well as state 
and local governments.
    We believe the Obama Administration and California state government 
have made significant efforts to create a more predictable and stable 
environment for permitting and planning new renewable energy projects, 
especially with respect to ARRA eligible projects. We are hopeful that 
these efforts are expanded and sustained over the next several years, 
and that innovative strategies for wildlife conservation and recovery, 
such as California Senate Bill 34 (Padilla), can reduce conflict with 
important conservation objectives, while expediting renewable project 
approvals.
    Question 6. Is it your experience that development on private lands 
is more costly and time consuming? If so how much on average does it 
cost?
    Answer. We would agree that significant administrative and 
financial barriers exist in the development of renewable projects on 
private lands. The extreme parcelization of the region to multiple 
land-owners, including those who received a few acres of land through 
radio giveaways in the 1920s, severely limits the acquisition of plots 
of private land large enough to sustain a solar plant, and obtaining 
timely review of potential wildlife impacts from the U.S. Fish and 
Wildlife Service (USFWS) can take nearly three times the length of time 
required on BLM lands due to the lack of a federal nexus. While we do 
not have specific information regarding the magnitude of the additional 
cost of developing renewable projects on private lands, it is clear 
that the increased cost barriers of working with multiple land owners 
who own much smaller parcels of land than the federal government, 
combined with the longer response time from the USFWS, would increase 
both the time and the cost of most projects.
    The California desert conservation community is extremely 
interested in removing barriers to development on private land, and is 
working with renewable developers to try and make private land more 
available for renewable development. But many of these barriers, 
including state policy to require substantial mitigation for the loss 
of private land from agricultural use, will be difficult to overcome. 
In the meantime, it would be extremely helpful to eliminate the 
extraordinary delays that too often require reviews by USFWS on private 
land where no federal nexus exists.
    Question 7. In your mind what percent of the State of California 
should be reserved in a combination of Wilderness, Wilderness Study 
Areas, National Monuments, National Parks, Wild and Scenic Rivers and 
other set-asides?
    Answer. Conservation of land with wilderness value is crucial to 
maintaining California's ecological character, and we do not object to 
land designations for wilderness study areas, national parks and 
monuments, wild and scenic rivers, or other purposes. We do, however, 
believe that it is necessary to balance wilderness preservation with 
development of extraordinary renewable resource development. The amount 
of federal land needed for renewable energy development in the 
California desert to meet renewable energy and climate targets is 
modest, and can be ably accommodated alongside the preservation of land 
for wilderness, conservation, military and recreational uses. However, 
up until recently, renewable energy has taken a back seat to all of 
these other uses, and has been, at best, an afterthought in state and 
federal desert planning efforts. We believe it is essential that the 
highest quality renewable resource areas that are close to existing 
transmission corridors, such as the West Mojave, be given equal 
consideration alongside conservation, wildlife, and recreational uses, 
and protected and preserved for future development where appropriate. 
We also believe that military lands and training operations that are in 
close proximity to prime renewable resource areas and wildlife habitat 
corridors, such as the China Lake Weapons facility, should be planned 
and executed in a manner that supports strategic renewable resource 
development and wildlife conservation.
    Again, thank you for the opportunity to respond to these questions. 
If you or any other Members or staff have additional questions, please 
feel free to contact me.
            Sincerely,
                                             V. John White,
    Executive Director, Center for Energy Efficiency and Renewable 
                                                      Technologies.
                                 ______
                                 
      Responses of Faye Krueger to Questions From Senator Bingaman
    Question 1. Authorities--Under what legal authority does the Forest 
Service issue authorization for the use of National Forest System lands 
for wind and solar projects?
    Answer. Section 501(a)(4) of the Federal Land Policy and Management 
Act (FLPMA), 43 U.S.C. 1761(a)(4) (FSM 2701.1, paragraph 15) authorizes 
the Forest Service to issue rights-of-way for the use and occupancy of 
NFS lands for generation, transmission, and distribution of electric 
energy.
    Question 2. Guidelines--What is the status of the development of 
guidance by the Forest Service for the issuance of authorizations for 
wind and solar projects on lands administered by the Forest Service?
    Answer. The Forest Service is currently working to finalize its 
wind energy directives. It is anticipated that the final wind energy 
directives will be published in the Federal Register later this summer. 
The Forest Service has not developed directives specifically addressing 
solar projects on National Forest System lands. An application to 
construct and operate a solar project would be evaluated utilizing 
existing special use regulations and directives.
    Question 3. Status--Please provide for the record a listing of all 
wind and solar projects authorized to date by the Forest Service. 
Please also provide a listing of all applications for wind and solar 
energy production on National Forest System lands received by the 
Forest Service.
    Answer. No wind or solar projects have been authorized on National 
Forest System lands. However, recent interest in wind energy has 
spurred 14 projects to collect data regarding the feasibility of 
developing a wind energy facility on National Forest System lands. Nine 
of these testing sites are in California, two are in Michigan, and the 
remaining three are in Oregon, Washington, and Wyoming. One request for 
construction and operation of a wind energy facility on National Forest 
System lands, to be located in Vermont, is undergoing environmental 
analysis. Additionally, the Forest Service is analyzing one request for 
a permit to test the feasibility of converting a decommissioned radar 
installation site in California to a solar energy facility. A 
spreadsheet of wind and solar special use applications is attached.*
---------------------------------------------------------------------------
    * Spreadsheet has been retained in committee files.
---------------------------------------------------------------------------
    Question 4. NEPA--Has the Forest Service undertaken any 
programmatic analysis under the National Environmental Policy Act with 
respect to the development of wind or solar energy on National Forest 
System lands? If not, does the Forest Service plan to do so?
    Answer. The Forest Service has chosen not to prepare a programmatic 
environmental impact statement for wind testing on National Forest 
System lands. Given the diversity of National Forest System lands and 
their uses and the small number of projects proposed to date, the 
Forest Service believes it is more efficient and effective simply to 
look at each proposed wind and solar energy site and assess the 
potential effects of the proposed use as it relates to that site.
    Question 5. Program Administration--BLM currently administers the 
oil and gas leasing program on National Forest System Lands and public 
lands withdrawn for military purposes, where consistent with the 
particular withdrawal order. Should BLM also administer the solar and 
wind energy development program on these lands?
    Answer. No. We believe special use authorizations should remain 
under the administration of the Forest Service. It is unclear what 
efficiencies would be gained if solar and wind permitting were to be 
handled by BLM, since the Forest Service would still need to review all 
projects to ensure consistent and coordinated land management of all 
activities conducted on the surface of those lands.
     Responses of Faye Krueger to Questions From Senator Murkowski
    Ms. Krueger, you heard me ask Mr. Abbey for maps on land use 
designation vs. solar potential in the area. I see that the Forest 
Service has a number of small Wilderness Additions proposed in this 
legislation.
    Question 1. Could you have your agency personnel work with the 
Bureau of Land Management to provide my office with the maps and data 
tables that the BLM prepared for the State of California, as well as a 
map and data table that adds the lands authorized for protection in 
this bill? I would like those maps within three weeks.
    Answer. We have provided wilderness information to the BLM to 
include with the mapping information you requested. We do not have the 
renewable energy data you requested.
    Question 2. Does the Forest Service believe it is ever appropriate 
to site and build renewable energy projects and their associated 
transmission lines on Forest Service lands?
    Answer. Yes. The Forest Service is facilitating development of wind 
energy facilities on National Forest System lands by issuing directives 
for that purpose. Locating wind and solar energy facilities on National 
Forest System lands presents several challenges. For example, 
commercial solar operations generally require large, flat areas of 
land, which are more common on lands administered by the Bureau of Land 
Management. With regard to wind energy, the public has expressed 
concerns about impacts on scenery from ridge top development; as we 
make specific siting decisions, these concerns need to be reconciled 
with the clear benefits that wind energy development can provide.
    The Forest Service is updating Forest Service Manual 2703 to 
include policy and direction encouraging the authorization of renewable 
energy and electric transmission lines on National Forest System (NFS) 
lands where it is compatible with existing uses and land use plans, and 
where it complies with applicable agency and federal regulations.
    National Forest System lands have the potential for other types of 
renewable energy development as well. For example, there is significant 
potential for biomass production on National Forest System lands as an 
added benefit of our efforts to reduce hazardous fuels and develop 
healthier, more fire-resistant, and more sustainable national forests. 
In addition, there is significant potential to increase the efficiency 
of hydroelectric facilities located on National Forest System lands, as 
well as to provide for additional small-scale, environmentally 
compatible hydroelectric facilities. There are also additional 
opportunities for geothermal development on National Forest System 
lands.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

             The American Motorcyclist Association,
                                           D37 Competition,
                                    Garden Grove, CA, May 20, 2010.
Hon. Jeff Bingaman,
Senator, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Jeff Bingaman: I am writing to you today about S.2921, 
The California Desert Protection Act of 2010. My organization The 
American Motorcyclist Association District 37 (AMA D37) is non-profit 
and dedicated to providing our members with fun, family oriented 
events, and protecting the rights of our members to be able to enjoy 
the sport of motorcycling. AMA D37 has been involved with protecting 
the rights of motorcyclists for over 40 years. We have over 3500 
members and hold 40 off-road events a year in the high desert of 
Southern California. At this time AMA D37 is in support of S.2921 as it 
is currently written. If there are changes to the language as it moves 
through the legislative process we will have to re-evaluate our 
support.
    S. 2921 is a product of complex negotiations and compromises 
amongst a very diverse group of stakeholders. Senator Feinstein and her 
staff have done an amazing job of trying to fulfill the needs of the 
recreation, conservation and renewable energy communities that will be 
affected by this bill. We are concerned that certain components in this 
bill, the ones that are key to our support (listed below), might be 
removed and or changed during the legislative process.

  <bullet> The language that congressionally designates the 5 open 
        areas as Off-Highway Vehicle Recreation Areas.
  <bullet> The language that allows all current existing uses to 
        continue in both the proposed OHV recreation areas and proposed 
        monuments.
  <bullet> The language that allows the open areas to continue to 
        operate under their existing management plans until either the 
        DOI creates new plans or amends the existing ones.
  <bullet> The language that mandates the Department of the Interior 
        (DOI) study land adjacent to the open areas for possible 
        expansion.
  <bullet> The language that ensures continued use of OHV/green sticker 
        vehicles on designated trails.
  <bullet> The language that continues to allow commercial touring in 
        the proposed monuments.

    We are grateful to have been included in the formation of this 
monumental piece of legislation. Please consider this letter our formal 
request to have these comments included in the official record for this 
hearing.
            Sincerely,
                                              Jerry Grabow,
                                       AMA D37 Off-Road--President.
                                 ______
                                 
                                      Blueribbon Coalition,
                                       Pocatello, ID, May 20, 2010.
Hon. Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
Hon. Lisa Murkowski
Ranking Member, Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building Washington, DC.
    Dear Senators Feinstein, Bingaman and Murkowski, the BlueRibbon 
Coalition (BlueRibbon) is an Idaho non-profit corporation with over 
10,000 individual, business and organizational members representing 
approximately 600,000 individuals nationwide. BlueRibbon members use 
motorized and non-motorized means, including Off-Highway Vehicles 
(OHV), snowmobiles, horses, mountain bikes and hiking, to access and 
enjoy recreating upon state and federally-managed lands throughout the 
United States, including such lands throughout the National Forest 
System and Bureau of Land Management (BLM) lands.
    A significant percentage of BlueRibbon's members live in California 
and recreate on federally-managed lands throughout the state, including 
the lands affected by the California Desert Protection Act of 2010 
(S.2921). S. 2921 is a hugely complicated piece of legislation 
concerning a wide range of uses of public lands. S. 2921 addresses 
military base expansion, Wilderness designation, off-highway vehicle 
management, renewable energy development, habitat migration zones, and 
state land exchanges and transfers.
    Senator Feinstein's staff is to be commended for navigating the 
many challenges of issues and viewpoints across the political spectrum. 
In addition to the Senator's staff, BlueRibbon commends the leadership 
of the various stakeholder groups involved, including recreational off-
highway vehicle groups, local cities, counties and conservation groups. 
Given the dizzying array of hugely contentious issues, S. 2921 does a 
good job of balancing competing interests to provide some benefit to 
all of the stakeholders.
    One purpose of S. 2921 is to mitigate the loss of OHV recreation 
caused in part by the Marine base expansion at Twentynine Palms, CA, by 
establishing OHV Recreation Areas at El Mirage, Johnson Valley, Razor, 
Spangler, Stoddard Valley and Vinagre Wash. Associated language in 
sections 1801 and 1603 is especially important to our qualified support 
of S. 2921, and we request the language in those sections to remain 
intact as currently drafted and faithful to its originally intended 
purpose.
    Some preservationist special interests are likely to portray S. 
2921 as a ``pro'' off-highway vehicle bill. Our members wish Congress 
to understand that the military base expansion alone will eliminate 
meaningful, currently available, off-highway vehicle riding 
opportunities. While we recognize and appreciate the particular efforts 
in section 1801 and elsewhere to acknowledge the legitimacy of 
effectively-managed off-highway vehicle recreation, it remains likely 
that its opponents will continue to seek restriction of off-highway 
vehicle access throughout the desert, including in designated OHV 
Recreation Areas.
    Off-highway vehicle recreation is a very popular family activity, 
especially in Southern California. According to the California State 
Off-Highway Motor Vehicle Recreation Division (OHMVR), between 1980 and 
2007 the number of registered OHVs has increased 370%. Unfortunately, 
since 1980 the amount of desert lands available for this type of 
recreation has fallen dramatically. Due to its proximity to southern 
California metropolitan areas, Johnson Valley is one of the most 
important areas for serving this growing demand for both in-state and 
out-of-state visitors.
    Many off-highway enthusiasts feel conflicted; on one hand 
supporting the US Military and understanding the economic importance of 
Twentynine Palms to adjacent communities. On the other hand, off-
highway vehicle users have, over the years, been ``crammed'' into the 
Johnson Valley area after decades of Wilderness designation, 
administrative closures, and lawsuits that closed millions of acres of 
the California desert, making it a difficult pill to swallow to lose 
the area now to the base expansion.
    In light of this, we appreciate, as stated above, that S. 2921 
attempts to mitigate the loss of off-highway vehicle recreation areas 
and provide some assurance the remaining off-highway areas will remain 
open and be actively managed for off-highway vehicle and other types of 
recreation. In recognition of the effort to forge a difficult balance 
here, BlueRibbon supports S. 2921, provided that the locations and 
language addressing continuation of OHV recreation in OHV Areas, 
proposed monuments, and elsewhere in the bill, is not diluted.
    We appreciate the opportunity to provide this testimony and look 
forward to participating in this and other public lands management 
efforts.
            Sincerely,
                                                 Greg Mumm,
                                                Executive Director.
                                 ______
                                 
                  California Off-Road, Vehicle Association,
                                     Simi Valley, CA, May 15, 2010.
Hon. Jeff Bingaman,
U.S. Senate Energy and Natural Resources Committee, Washington, DC.
    Dear Honorable Committee Members, At the Annual Meeting of the 
California Off-Road Vehicle Association (CORVA) held in Bakersfield, CA 
on May 15, 2010, the Members voted in opposition to the California 
Desert Protection Act of 2010. CORVA has joined the California 
Association of 4WD Clubs in opposition to the Act, which if passed may 
have a major negative impact on the desert environment, the business 
environment, the recreational choices of the public and the 
availability of access to the desert by future generations.
    Further, the Association states the main reasons for opposition 
includes (but is not limited to):

          1) The addition of more than 290,000 acres of Wilderness to 
        the already 9 million acres of Wilderness currently designated 
        in the California Desert recognizing that the Wilderness 
        designation removes this land from all human visitation except 
        hikers.
          2) The removal of vast Desert areas currently and 
        historically used by the American public for multiple uses with 
        no guarantee that more areas will not be removed from use in 
        the future.
          3) The addition of yet another management plan replacing the 
        management plan currently controlled by the Bureau of Land 
        Management, without stipulated funding to implement the new 
        plan or guarantees that the management plan will match the 
        original bill.
          4) The plan to locate necessary solar energy resources in the 
        desert, geographically distant from where the power will be 
        used necessitating a transmission infrastructure and perhaps 
        further eroding multiple use land.

    Although our Association, which represents over 5000 Californians 
who use off-highway motorized vehicles, has voted in opposition to 
S2921, we acknowledge the courtesy and professionalism of Senator Diane 
Feinstein and her staff for including our members, most of whom are her 
constituents, in the discussion. We further encourage the Senator to 
continue this practice and include all stakeholders in continuing 
discussion of this legislation and future legislation affecting OHV 
recreation.
    Respectfully submitted,
                                                 Jim Woods,
                                                         President.
                                 ______
                                 
                        California Wind Energy Association,
                                        Berkeley, CA, May 18, 2010.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Chairman Bingaman, The California Wind Energy Association 
(CalWEA) offers the following comments on S. 2921, the California 
Desert Protection Act of 2010 (CDPA), for the Committee's consideration 
at the upcoming hearing on May 20th. In brief, we have significant 
concerns about the negative impact that the bill, in its present form, 
would have on wind energy development in California and the West. We 
have discussed these concerns with Senator Feinstein's staff and have 
provided staff with a relatively modest set of proposed changes that, 
if accepted or otherwise addressed, would enable CalWEA to support the 
bill.
    CalWEA is a trade association comprised of 25 companies engaged in 
wind energy development in California and other Western states. The 
CDPA, which would significantly affect the siting and permitting of 
wind energy projects, is therefore of significant interest to CalWEA 
and its members.
    CalWEA appreciates Senator Feinstein's desire to protect the 
California desert region from development that would reduce its 
essential character and unduly compromise its ecological values. This 
goal must be carefully balanced against equally important national 
energy interests and achievement of California's greenhouse gas 
reduction and renewable energy goals. In the case of wind energy, we 
believe this balance can be achieved with modifications to the bill as 
follows.
Title I: Wind energy resources lost to land preservation
    Only a small fraction of California's valuable wind energy 
resources remain available for development. In wind-rich San Bernardino 
County, for example, of almost 13 million total acres of land, nearly 5 
million acres host commercial-grade winds but only 1.3 million of those 
acres remain available for project development, due to military and 
environmental federal land designations. Under the CDPA, this amount 
would be reduced to just 800,000 acres (with some of this area 
undevelopable due to military, aviation, or other conflicts), 
eliminating some of California's most concentrated remaining wind 
energy resource areas.
    With its small ground disturbance ``footprint'' and careful siting, 
wind projects can be compatible with land preservation efforts while 
reducing reliance on traditional energy sources which are causing 
serious impacts on our climate, air quality, water resources, and human 
health. CalWEA has therefore proposed to Senator Feinstein limited and 
reasonable adjustments to the boundaries of the proposed conservation 
areas which, along with providing access to the existing transmission 
grid, would enable several commercially active project development 
areas to remain viable. Most of these developments are located on 
previously disturbed lands and/or are proximate to existing roads, 
pipelines, and other infrastructure. Our proposed boundary adjustments 
would:

  <bullet> Enable the development of four projects totaling over 1,300 
        MW of wind energy capacity--preserving about 45% of the 
        commercial wind resource potential that otherwise will be lost 
        to the monument.
  <bullet> Reduce the monument area by approximately 3%, while 
        disturbing less than 1,000 acres.
  <bullet> Provide an additional $18 million annually in property tax 
        revenues to San Bernardino County ($26 million in total from 
        the projects if built as proposed).
  <bullet> Create an additional 50 permanent direct jobs (with the 
        projects creating over 70 direct permanent jobs in total), and 
        an additional 200-400 construction jobs lasting 3 to 5 years as 
        these projects are constructed.
  <bullet> All told, these projects would create an estimated 6,000 
        job-years, including both direct and indirect jobs.

    Altogether, these projects would satisfy over 1% of California's 
total electricity supply, or 10% of the additional electricity needed 
to meet California's 33% RPS requirement.
Title II: Facilitating permitting on private lands
    CalWEA supports the primary objective of Title II of the CDPA--to 
facilitate permitting on private lands, thereby possibly reducing 
permitting pressures on public lands. We also appreciate proposed 
Section 207(b), which would facilitate the permitting of temporary 
resource measurement activities on public lands, which now requires an 
inordinate amount of time and resources.
    We have, however, identified many areas in which these objectives 
require clarification so as not to inadvertently complicate permitting 
on public or private lands. We have provided Senator Feinstein's office 
with specific suggestions for achieving much of the needed 
clarification.
    CalWEA looks forward to further discussions with Senator Feinstein 
to enable the achievement of both desert protection and wind energy 
development goals. We would be glad to share our detailed proposals 
with the Committee.
            Sincerely,
                                               Nancy Rader,
                                                Executive Director.
                                 ______
                                 
  Statement of Kim Delfino, California Program Director, Defenders of 
                                Wildlife
    Defenders of Wildlife (Defenders) thanks the Committee for the 
opportunity to submit testimony for the record regarding S. 2921, the 
California Desert Protection Act of 2010 (``CDPA'')\1\. My name is Kim 
Delfino, and I am the California Program Director for Defenders. 
Founded in 1947, Defenders is a nonprofit organization with more than 1 
million members and supporters across the nation and is dedicated to 
the protection and restoration of wild animals and plants in their 
natural communities.
---------------------------------------------------------------------------
    \1\ The California Desert Protection Act of 2010, S. 2921, 111th 
Cong. (2010).
---------------------------------------------------------------------------
Background
    As a conservation organization strongly committed to addressing 
both the causes and impacts of global warming, Defenders recognizes and 
supports the need to shift from greenhouse gas-emitting energy sources, 
such as coal-and oil-fired power plants, to renewable energy sources, 
such as solar and wind. In making this transition, however, we also 
strongly believe that, as with any other type of energy development, 
renewable energy development, including development of associated 
transmission facilities, must be carried out in a way that avoids 
significant adverse impacts on wildlife and ecosystems and minimizes 
and mitigates those impacts that are unavoidable.
    Defenders has taken the lead among conservation organizations in 
recognizing the benefits of renewable energy while also sounding a 
cautionary note, calling attention to the potential negative impacts on 
wildlife, habitat and ecosystems from the push for wide-scale renewable 
energy development on public and private lands. Defenders has provided 
comments highlighting the impacts to wildlife and habitat that will 
result from proposed projects, as well as comments on the Bureau of 
Land Management's (``BLM'') solar programmatic Environmental Impact 
Statement. In our comments, we highlight the need to protect wildlife 
and ecosystems and advocate for incentives to steer renewable energy 
development away from sensitive wildlife habitat and toward already-
degraded areas on public and private lands. Currently in California, 
Defenders is working with renewable energy companies to locate solar 
power plants in areas where the impacts on wildlife will be avoided 
and/or minimized. In addition, we are collaborating with California 
state energy officials to develop the Desert Renewable Energy 
Conservation Plan to help ensure responsible solar and wind development 
in the Mojave Desert.
    We appreciate Senator Feinstein's commitment to both protect 
conservation land and promote responsible yet rapid generation of 
renewable energy on appropriate lands. While we support the goals of 
the legislation, we continue to have concerns about Title I, California 
Desert Conservation and Recreation, and Title II, Desert Renewable 
Energy Permitting.
I. Title I: California Desert Conservation and Recreation
    Although California's Mojave Desert has recently drawn national 
attention as ground-zero in the nation's transition to renewable power, 
Senator Feinstein aims to put the spotlight back on what makes the 
Mojave such a remarkable place. The areas protected in Senator 
Feinstein's conservation bill will help numerous imperiled animals and 
declining desert plants, including the threatened desert tortoise, 
bighorn sheep, Mojave fringe-toed lizard and the iconic Joshua tree. 
Although we fully support the designation of new national monuments, 
wilderness, and additions to Joshua Tree and Death Valley National 
Parks and the Mojave National Preserve, we have concerns over the 
following aspects of the monument provision of the bill.
    First, while the bill would protect large areas from renewable 
energy development, it would also mandate that certain areas be open to 
off-road vehicles, a determination which is currently made by the BLM 
on a case-by-case basis. One of the most important reasons to conserve 
our desert lands is to reduce the pressure placed on imperiled plants 
and animals. Our concern is that the bill would create permanent off-
road vehicle areas and take away the flexibility from the BLM in 
determining what areas should be open and what areas should be closed 
to this destructive use. Off-road vehicles can permanently scar the 
fragile desert with erosive tire tracks that fragment habitat and drive 
wildlife away from these important places.
    Unlimited off-road vehicle use in the CDCA is incompatible with 
standards for public land health established in the Federal Land Policy 
and Management Act\2\ and BLM policy. The possible expansion of the 
designated areas to adjacent public lands would result in impacts to 
recently designated conservation areas for the Desert Tortoise and 
Mohave Ground Squirrel. In addition, the possible establishment of 
competitive off-road vehicle racing corridors between the Johnson 
Valley and Stoddard Valley would involve the destruction of critical 
habitat for the Desert Tortoise. In addition, the bill would require 
the Secretary of the Interior to authorize the expansion of the open 
areas to include any such opportunities identified in a mandatory 
study. Defenders would support modification of the bill with regard to 
existing off-road vehicle recreation areas if it resulted in 
establishing sustainable and environmentally responsible opportunities 
for off-road vehicle use through application of land health 
assessments, mitigation and stabilization of areas that have been 
heavily impacted by intensive vehicle use.
---------------------------------------------------------------------------
    \2\ 43 U.S.C. Sec. Sec.  1701 et seq.
---------------------------------------------------------------------------
    The bill also authorizes motorized vehicle use within the new 
national monuments on currently designated open vehicle routes, and 
such use would be allowed for both licensed and unlicensed vehicles, 
including off-road vehicles. Defenders strongly supports only licensed 
(street-legal) motorized vehicle use on designated open vehicle routes, 
and a requirement that all vehicle operators have a state-issued driver 
license. An analysis of current open routes needs to be done and those 
routes found to be contrary to the purposes of the monument should be 
closed through a planning process.
    An additional concern is that, pursuant to the CDPA, new national 
monuments would be open to target shooting and plinking using firearms. 
Other than for legitimate hunting purposes, all firearm use in the new 
monuments should be prohibited. Target shooting and plinking is of 
concern to us because it contributes to accumulation of trash from 
discarded shell casings, targets, broken bottles, and appliances. It 
also poses a safety risk to the visiting public and increased incidence 
of wildlife injury and mortality from gun-shots. These issues are 
widespread in various parts of the California Desert and especially the 
western Mojave region.
    In addition, we would like the Committee to retain the entire Cady 
Mountains Wilderness Study Areas as wilderness. We would also like to 
extend wilderness protection to the southern portion of the Soda 
Mountains. These areas support the threatened Desert Tortoise and 
Desert Bighorn Sheep. We believe wilderness designation of these two 
areas is the most effective way of protecting these important habitats 
and species.
    We want to commend Senator Feinstein for recognizing the need for 
climate change and wildlife corridor studies, and requiring that those 
studies be done within two years of enactment of the bill. The studies 
include the identification of critical areas that should be preserved 
for maintaining wildlife movements through various habitats and regions 
in the California Desert. We support this and strongly recommend that 
the bill require the land managing federal agencies to implement the 
recommendations of the studies including the designation and 
preservation of wildlife movement corridors within two years after 
completion of the study.
II. Title II: Desert Renewable Energy Permitting
    This bill provides a good start at addressing some of the difficult 
issues surrounding the siting and permitting of renewable energy 
projects, timely processing of applications and coordination between 
federal agencies and states in wildlife matters. While we support the 
overall intentions of this provision, we continue to have reservations 
about several aspects of the bill including but not limited to: 
categorical exclusions for wind and solar testing facilities, 
permitting deadlines, designation of habitat mitigation zones; the 
distribution of solar and wind income; and determinations about fair 
market value of public lands.\3\ Although we welcome the opportunity to 
discuss all of our concerns in greater detail, we would like to take 
this opportunity to draw your attention to S. 2921 Sec. 201, the 
distribution of solar and wind energy income, and S. 2921 Sec. 205, 
habitat mitigations zones.
---------------------------------------------------------------------------
    \3\ See S.2921, Sec. Sec.  207, 202, 205, and 201
---------------------------------------------------------------------------
    The two main points that we will make in our statement for the 
record are:

          1. As our nation makes the transition to green energy, we 
        must ensure that efforts to mitigate the impacts of renewable 
        energy are adequately funded; and
          2. We need to ensure that a federal mitigation banking 
        program to encourage renewable energy development is consistent 
        with California Senate Bill 34 and other existing state laws.
  a. revenues from renewable energy development should be directed to 
                          conservation efforts
    The California Desert Protection Act sets out a revenue structure 
for income from solar and wind energy development.\4\ As currently 
drafted, the CDPA distributes income collected by the BLM for 
permitting as follows:
---------------------------------------------------------------------------
    \4\ Id. Sec. 201(a)(k)

          <bullet> 25% to the states and 25% to counties hosting 
        renewable energy development.
          <bullet> For fiscal years 2009-2040, 40% to the BLM Permit 
        Processing Improvement Fund
          <bullet> For fiscal years 2021 and onward, 40% to the Land 
        and Water Conservation Fund
          <bullet> 10% to the Solar Energy Land Reclamation, 
        Restoration and Mitigation Fund (SELRRM) to be used for 
        reclamation and mitigation of lands disturbed by solar 
        development, with a lifetime total cap of $50,000,000, with 
        surplus directed to the general Treasury fund.

    Defenders highlights two distinct issues with this section. First, 
we believe the funds directed to LWCF should instead be directed to the 
Cooperative Endangered Species Conservation Fund, and be deposited 
immediately, instead of delaying deposits until 2021. Second, given the 
significant impacts large scale energy development will have on the 
fragile California desert, including habitat fragmentation and direct 
impacts on species, we appreciate and support Senator Feinstein's 
acknowledgment that mitigation efforts and funding are essential to a 
comprehensive and robust renewable energy program. We believe any fund 
used for mitigation of lands disturbed by renewable energy development 
should analyze the costs of a mitigation project in order to provide a 
more realistic estimate of funding needs (i.e. 10% may not be enough). 
The development of a single major solar plant in the California Desert, 
for example, can involve leveling and clearing thousands of acres of 
biologically-fragile desert land that supports a wide range of 
sensitive and imperiled species (including the desert tortoise and 
Mohave ground squirrel) and unique habitats. Defenders would also like 
to highlight for the committee our position that all money directed to 
a mitigation fund should be dedicated without further appropriation, 
and without a lifetime total cap.
B. Habitat Mitigation Zones and Potential Conflict with New State Law
    Senator Feinstein's bill creates a mitigation banking system in the 
California Desert to encourage development of renewable energy projects 
on private lands.\5\ This includes a requirement that the Secretary 
identify at least 200,000 acres of federal lands to use as mitigation 
for private land development. At the time the bill was drafted, there 
was no comprehensive renewable energy planning or mitigation effort in 
place in California. With the enactment of California's Senate Bill 34, 
which requires the California Department of Fish and Game to develop an 
interim mitigation strategy for ``fast-track'' renewable energy project 
in the desert, and the official initiation of the Desert Renewable 
Energy Conservation Plan planning effort--both of which include the 
requirement of identifying areas for mitigation, Defenders believes the 
bill must ensure that the mitigation banking program is consistent with 
the new planning and mitigation efforts.
---------------------------------------------------------------------------
    \5\ Id Sec. 205
---------------------------------------------------------------------------
    In addition, the mitigation banking system limits the mitigation 
payments for land acquisition to 75% of the fair market cost of 
purchasing the acreage necessary for mitigation. Because the California 
Endangered Species Act requires ``full mitigation'' of impacts to 
threatened and endangered species, Defenders remains concerned that the 
bill does not adequately ensure that project developers will still 
meet, or can meet, state endangered species law requirements. In 
addition, in light of the new planning and mitigation tools which are 
being developed under the new California Senate Bill 34 and the Desert 
Renewable Energy Conservation Plan, it is unclear how the 75% cap on 
mitigation payments comport with these two efforts, which rely on full 
mitigation.
Conclusion
    In conclusion, Mr. Chairman, we appreciate and support Senator 
Feinstein's effort to conserve important lands in California and 
promote responsible renewable energy development. Defenders looks 
forward to working with the Committee to address the issues we have 
highlighted above. Thank you for the opportunity to submit a statement 
for the record.
                                 ______
                                 
 Statement of Terry Weiner, Imperial County Projects and Conservation 
         Coordinator, Desert Protective Council, San Diego, CA
    Honorable Senators,
    This testimony is submitted on behalf of the Desert Protective 
Council and its members. I request that these comments be placed in the 
record during the ten day window for additional testimony on S. 2921 
following the May 20 2010 Senate Energy and National Resources 
Committee Hearing on this legislation.
    The Desert Protective Council submitted comments to this committee 
on May 20 2010 regarding our concerns with several sections of the bill 
related to off-road vehicle recreation. The comments below will briefly 
cover our concerns with the renewable energy permitting provisions of 
the bill. Our support of the CDPA is qualified pending amendments to 
the off-road recreation and these renewable energy sections of the 
bill:

Section 1304 Uses of the [Mojave Trails National] Monument
Section 1404 Uses of the [Sand to Snow National] Monument
    These sections clarify non-prohibited uses of the proposed 
Monuments ranging from legal hunting and access to in holdings to 
expansion of energy transmission corridors as well as establishment of 
new transmission corridors, and rights of way to same.
          1) We are greatly concerned at the potential impact of this 
        section on some of the most unspoiled desert wild lands 
        remaining in the Southwest--lands the Monuments are expressly 
        intended to preserve. While the language of the bill reaffirms 
        that all new transmission corridors or expansions of existing 
        corridors must comply with Federal environmental law as well as 
        with the Monument management plans, insufficient specifics are 
        provided as to the evaluation of cumulative effects of 
        expansion of such corridors and rights of way on the landscape. 
        The cumulative effects with which we are concerned include but 
        are not limited to:

  <bullet> Fragmentation of habitat for retiring wildlife species such 
        as desert bighorn sheep;
  <bullet> Destruction of habitat for sensitive species such as the 
        desert tortoise, fringe-toed lizard, and other species within 
        the construction footprint of new transmission rights of way;
  <bullet> Disruption of normal wildlife behavior patterns with results 
        such as increased raven predation on desert tortoises due to 
        new development corridors in formerly intact desert, new secure 
        raven nesting sites in the transmission towers, and ravens' 
        increased facility in spotting vulnerable tortoises due to the 
        tall perching surfaces transmission towers would provide;
  <bullet> Introduction and spread of invasive exotic plants into 
        previously un-colonized lands, which spread is known to be 
        accelerated by development and road-building;
  <bullet> Increased risk of devastating wildfire sparked by faults in 
        electrical transmission lines or pipelines carrying combustible 
        fluids, and;
  <bullet> Loss or degradation of some of the most compelling visual 
        resources to be found in the continental United States, in 
        which hundreds of square miles of desert can currently be 
        viewed with no obvious human intrusion or presence apparent.
Title II: Renewable Energy Permitting
Sec. 201: Renewable Energy Coordination Offices
    This section mandates designation of BLM offices as Renewable 
Energy Coordination Offices for ten western states, and authorizes 
coordination of agency procedure and timelines for public lands energy 
project permitting.

          1) The current system of evaluation and permitting of 
        industrial energy development projects on public lands is 
        broken. Despite the best intentions and remarkable skills of 
        Federal employees charged with overseeing the permitting 
        process, the sheer volume of applications has overwhelmed the 
        system. Required environmental surveys of project sites have 
        been done in rushed and slipshod fashion, with deadline 
        pressures contributing to incomplete accountings of wildlife 
        populations, visual impacts, vegetative communities and 
        hydrological risks to construction. In many places contractors 
        have conducted surveys of project sites without leaving their 
        vehicles.

    The result has lead to incomplete and sometimes seriously 
misleading official assessments of the environmental impacts of each 
project. This poses a serious obstacle to informed citizen input where 
avenues for it exist, and deprives land managers of the information 
they need to make creditable decisions in the permitting process.
    It is clear that we need to do things differently. Coordination of 
state, local and federal agencies is an important first step. However, 
we have strong concerns that the language in the bill will be read as a 
mandate to ``streamline'' the permitting process. The process has been 
streamlined far too much already. In order to best protect our 
irreplaceable public lands and the resources thereon we feel that the 
best reform of the permitting process includes benchmarks rather than 
deadlines. We urge Senators to amend the bill to establish and/or 
reaffirm credible baseline standards for the environmental reports 
required of each applicant.
    The beauty and ecological integrity of the southwestern deserts, in 
particular, have been under-appreciated and under-researched. New 
species, and new populations of rare species, are discovered in our 
deserts with remarkable frequency. We owe it to future generations to 
ensure that those who would convert publicly owned desert wild lands to 
industrial use commit to basic due diligence in their surveys of the 
wildlife, archaeological, and other values of the land proposed for 
development.
          2) We feel strongly that fair market cost based on a right-
        of-way standard is an improper basis for establishing fees 
        charged developers of industrial energy projects on public wild 
        lands. These projects utterly and irrevocably change the 
        character of the land upon which they are sited. A right-of-way 
        standard that may apply to building of a road or railway, or of 
        a small facility such as a microwave repeater, seems to us 
        misapplied in projects that involve the wholesale destruction 
        of thousands of acres of desert land at a time. Given the slow 
        recovery of arid land habitat communities, these disturbances 
        are essentially permanent. Charging developers fees based on a 
        20-year right-of-way equates to charging a tenant rent on a 
        building when their plan is to demolish that building. We urge 
        Senators to amend the bill to establish a cost calculation that 
        takes into account the full and permanent destruction of these 
        lands' many values.

    Chairman Bingaman and members of the Committee, thank you for your 
work and for consideration of our comments.
    We look forward to working with you and with Senator Feinstein to 
improve and pass the California Desert Protection Act 2010.
                                 ______
                                 
 Statement of Frederic C. Johnson III, PG, Utah Licensed Professional 
                         Geologist, Virgin, UT
    Honorable Chairman Bingaman and Members of the Committee, thank you 
for this opportunity to discuss ramifications of S. 2921 upon the 
ability of the United States and the State of California to maintain 
and sustain a viable renewable energy program consistent with national 
security, and to discuss some necessary steps to help return the Nation 
and the State of California to economic good health.
    As a professional mining geologist with 36 years experience that 
includes living and working in the California Desert for 30 years and 
working as an advisor with BLM and Inyo County on the initial Sec. 603 
FLPMA mandated Desert Plan in the 1980's, I appreciate the opportunity 
to discuss this legislation that will so drastically affect the people 
of the desert. S. 2921 needs significant revision to keep from 
negatively affecting the people of the desert area and continuing to 
negatively affect California. Although the land designations for 
renewable energy projects are a good idea to keep from impacting the 
desert environment, the proposed designations of National Monuments and 
wilderness areas that were partially crafted by environmental lobby 
groups are not a good idea for California's fragile and collapsing 
economy.
    During my 25 years of work with the borate industry in and near 
Death Valley, California and experience in the deserts of the 
southwestern United States, I learned that many areas within the 
diversely and richly mineralized California Desert have never been 
adequately explored for important industrial minerals and much of it is 
now considered off limits to mineral exploration due to short-sighted 
legislations. These legislations that refused to address the importance 
of our mineral estate to this nation have damaged and almost destroyed 
what was a $1.3 to 2 billion dollar industrial mineral industry in the 
1990's in a State that is approaching financial bankruptcy. Today S. 
2921 proposes more withdrawals of mineral exploration territory from 
exploration, research, and development at a time when our nation needs 
to be independent for its energy (renewable or otherwise) and 
economically productive.
    S. 2921 unfortunately overlooks priority one. This first priority 
should be to study and address the ramifications of the proposed bill 
on national security and the socioeconomic viability of local, state, 
and national economies. S. 2921, ignores mining and mineral uses that 
should be considered to support not only renewable energy with 
products, but to help bolster a dieing economy, It is disturbing to see 
a country put itself out of business by adopting non-scientific short-
sighted land management practices that deter the research and 
development (exploration) necessary for the future.
    If the good things that lead to permitting land bases for renewable 
energy projects are to be realized with this S. 2921 Bill, then the 
bill needs to be re-written to allow exploration, research, responsible 
development, and innovative uses of local industrial minerals to 
support technological advances in renewable energy facilities in the 
future. This exploration and study should include all the lands in S. 
2921.
    To enumerate several important issues that are being overlooked and 
worst yet being stifled by S. 2921 please consider the following list:

          1. All renewable energy projects and their developing 
        technology are in their infancy and are still working on what 
        mineral bases make the best materials for energy capture. 
        Minerals are the basis for the capturing mechanisms and 
        research and development is on going. As some environmental 
        activists would advocate to preserve all land to make sure you 
        do not overlook an endangered species, one who understands the 
        importance of energy independence and the need for minerals to 
        supply that independence would state the obvious; `` If it 
        can't be grown, it has to be mined''. therefore, lets explore, 
        research, and responsibly develop the resources we have to heal 
        our country. New mineral species found in new ground could be 
        the next saving grace for the free world just like the finding 
        of new animal species can be the next great cure. Therefore the 
        continued removal of the shrinking federal land base from 
        exploration has dire consequences for the future.
          2. Much of the new wilderness proposed by S. 2921 does not 
        qualify as wilderness according to the descriptions of 
        wilderness in the Wilderness Act of 1964. Most newly proposed 
        wilderness areas have roads and/or were previously inventoried 
        by BLM and deemed unsuitable because other multiple uses 
        benefited the nation better. In fact, some of the wilderness 
        areas designated in the 1994 California Desert Protection Act 
        have roads that are not even signed. If Congress insists on 
        making wilderness with roads (contrary to the Wilderness Act), 
        then put a provision in the bill that the roads into a 
        wilderness can be driven to access the wilderness so that many 
        of our unsuspecting public do not become criminals.
          3. The small amount of exploration and mineral study that has 
        been done in some of the areas proposed for wilderness and 
        National Park expansions shows several areas with high 
        potential for the rare earths and other industrial minerals 
        that are critical to our technological world. Presently, 
        communist China is the only active producer of rare earths, and 
        they are trying to buy controlling interests in our rare earth 
        and other mineral deposits every day.
          4. At this time in our economic history, our country needs to 
        produce and manufacture and sell something ``Made in the USA'' 
        to climb out of the economic hole, but continuing to ignore the 
        problem will get us deeper in the hole.
          5. S. 2921 ignores another major economic factor. `Tourism 
        and being the ``service station'' for the rest of the world 
        will never give this nation sustainable economies, because 
        something has to be produced and sold somewhere for an economy 
        to allow tourism'. If it is only other nations' tourism we are 
        supporting then we truly will become the ``service station for 
        the world'' and we will be owned.
          6. S. 2921 will send more good paying jobs that produce 
        something in California to other countries by continuing to 
        scare producing industries off. No one will risk capital in a 
        country or state that legislatively restricts and prohibits 
        land use in most of its area; therefore, mining companies and 
        capital investors look beyond the U.S. and California to 
        countries that do not have the environmental conscience of our 
        nation.
          7. The job of wilderness lobby groups like the ones who have 
        helped draft this legislation is to put land into ``No Use'' 
        categories that subsequently put other people out of business 
        and take away jobs. As a country we have large amounts of 
        wilderness and many National Parks. Wilderness lobby groups say 
        there will never be enough wilderness because it is their jobs, 
        but it is time to consider putting someone who produces 
        something back to work. Enough wilderness has been reached, our 
        nation cannot economically stand to let it go on. We can 
        develop in an environmentally responsible way.
          8. No further lands should be withdrawn from mineral entry. 
        The self-initiative exploration promoted by the mining law is 
        the beginning of the research and development and discovery of 
        new mineral resources and uses. Removing lands from this 
        process sends all those willing to explore to other countries.
          9. A careful inventory of and use of existing roads for 
        access to all lands identified in the bill should be written 
        into the bill. Keep existing accesses open.
          10. Maintaining a significant landmass open to exploration 
        should be a critical concern in these economic and perilous 
        times. Mineral exploration can boost economies and may well 
        lead to more efficient energy alternatives like the uses of 
        Lithium, Gallium, Germanium, and other rare earths in solar and 
        computer technologies and the use of high quality Calcium 
        Carbonate to replace many petroleum product uses. Additionally, 
        mineral exploration should be considered vital to this nations 
        security. If we need it and we don't know where it is when we 
        need it, it just may be too late. Please, No more wilderness.
          11. Please realize that of all the millions of acres of 
        public land explored, less than 0.02% ever becomes a mine. So 
        we are not talking about mining the west here, we are talking 
        about exploring to maintain our country's security and to help 
        recover its economic viability.
          12. Contrary to projected belief by wilderness lobbyists that 
        the Desert is being destroyed, once one is away from the 
        populated centers, the peace and tranquility is there and ATV's 
        are not running amuck because the terrain is difficult. 
        Traveling the desert like I have around Death Valley for 36 
        years it seems that the trail riding ATV and Motorcycle folks 
        respect the Desert also and stay on the existing trails and 
        roads. The massive destruction scenario is a falsehood promoted 
        by those that are in the business of putting others out of 
        business.
          13. A few good things in this bill are the designation of 
        land areas for energy development and for ORV play.

    In these economic hard times an extremely important aspect of the 
mining sector is that each mining job creates 2 to 3 additional jobs, 
so why is S.2921 trying to run these jobs out of the country. At a 
recent meeting with the Inyo County, California Supervisors, the 
representative of the California Wilderness Coalition who helped draft 
and is promoting the wilderness portion of this legislation was asked 
why wilderness was proposed in areas where it was highly mineralized 
and roaded and previously rejected as non-wilderness in character. The 
answer from the Wilderness Coalition was that `` it is just to stop 
mining''. Is this the reason for legislating wilderness?
    Please consider implementing the following concerning S. 2921:

          1. Please consider a thorough mineral inventory for all areas 
        of the bill that are proposed for withdrawal from mineral 
        entry. After inventory results are made public, field hearings 
        would allow the public to express their support or opposition 
        of S. 2921. The inventories should be for all possible economic 
        mineral potential to insure that jobs and future needed mineral 
        developments are not prohibited by withdrawal.
          2. Please consider establishing the Monuments, if needed, 
        with provisions to allow mineral entry by exploration and 
        discovery, and potential mining under special use permits for 
        proven critical minerals. Enhanced reclamation standards can 
        apply in any specially designated areas. Any needed withdrawals 
        should be studied, proposed, and brought through the processes 
        that BLM is allowed under FLPMA and NEPA to insure that the 
        decisions to withdraw are backed by good science and not a 
        lobbyist's desires.
          3. Please write into S. 2921 that a thorough non-partisan and 
        non-biased socioeconomic study of the ramifications of all 
        aspects of S. 2921 on the local people of the affected areas 
        will be done before field hearings and consideration of the 
        bill for passage. The results of this study would be good 
        information for discussion at field hearings.
          4. Please allow field hearings for the public to voice their 
        support or reservations on this large public land withdrawal in 
        an area that is already economically devastated.
          5. Please consider no further additions to the Wilderness 
        system because a land base is needed in the mineral rich and 
        diverse California Desert for mineral exploration to help guide 
        our nation into the future and insure local minerals to support 
        renewable energy development.
          6. Please consider provisions in the bill to use the present 
        management structure for land protection under the FLPMA and 
        NEPA laws by bolstering the agencies with directives to help 
        all concerned with the desert to achieve their goals without 
        prejudice to others and in a fashion that protects while 
        expediting needed economic concerns. After all, the issue of 
        the environmental impact of permitting large land areas to 
        develop renewable energy was brought to light in the public 
        process mandated by NEPA.

    The designation of areas for renewable energy projects in S. 2921 
is a great idea, and I agree that the desert should be protected from 
over development. However, highly mineralized areas like the large rare 
earth areas in and adjacent to Joshua Tree National Park, un-studied 
mineralized areas in the Avawatz Mountains with roaded access, the 
highly mineralized and relatively unstudied Bowling Alley with roaded 
access and private lands, and the Soda Mountains with high and poorly 
studied mineral potential should be left open for mineral exploration 
and not put into wilderness.
    I am not totally against all aspects of S. 2921; however, the noted 
issues that are not addressed in S. 2921 are extremely important to 
California and our Nation. This legislation needs a lot of revision to 
help all concerned.
    Thank you again for this opportunity to testify on this important 
legislation that could be made good or bad.
                                 ______
                                 
Statement of Gary Niles, Resident, Walters Camp, Imperial County, Palo 
                               Verde, CA
Walters Camp Resident Supports Desert Protection
            A 25-Year Perspective of Local Land Use
    I am Gary Niles, a homeowner at Walters Camp since 1987 and full-
time resident since 2002. I am greatly concerned as special interest 
groups compete for the last vestiges of California's pristine desert 
lands. Walters Camp is especially vulnerable, where five wilderness 
areas and two wildlife refuges surround 58 homes and a BLM campground 
along the Colorado River. Surprisingly the growth rate here exceeds Los 
Angeles and San Diego where the majority of Walters Camp homeowners 
live permanently. New construction will soon add 34 more vacation homes 
to total 92, more than doubling the number of private residences over a 
25 year period.
            I strongly support Senate Bill S.2921 proposing 74,714 
                    acres in nearby Vinagre Wash as a Special 
                    Management Area (Title XVI, Section 1602).
Then and Now
    In 1985 most folks were lucky to share an old jeep with their 
entire family. The annual ``poker run'' of 20 or 30 vehicles was 
considered a big event and easily accommodated by local sand washes. 
Water sports dominated three seasons with hunting, rock-hounding and 
trail-riding reserved for winter months. A decade later the explosive 
popularity of off-roading changed all that.
    In 2010 families have at least one ORV for every man, woman and 
child, capable of going virtually anywhere at any speed. More visitors 
arrive here each year to escape the crowds at Glamis. Increased 
population and vehicle performance makes Walters Camp a convenient 
``launch point'' for hundreds of drivers to access backcountry lands on 
any given weekend.
Culture Shock
    A handful of neighbors at Walters Camp have worked diligently to 
identify local ORV trails to be included in the proposed legislation. 
However this is not our greatest challenge. What cannot be legislated 
is tomorrow's ``off-road culture'' which is a very socially-complex 
issue. Lacking the restraint of previous generations, some off-roaders 
show-off their vehicles and driving skills by competing on pristine 
hillsides and waterfalls in culturally significant areas. Rogue riders 
continue to make new trails which are soon followed by others and, even 
if corrected, the erosive scarring lasts for decades. A culture of 
trespassing on private and public property is rationalized by those who 
believe they have a ``prescriptive right'' to drive wherever they wish.
    This behavior is witnessed by youngsters eager to make their own 
mark on the world while maps, private land and wilderness boundaries 
are ignored. Like the nearby Glamis sand dunes, if left unchecked our 
desert wilderness will evolve into just another giant amusement park.
Off-Roading We Can Live With
    Any successful negotiation, they say, leaves all sides frustrated, 
no one getting every-thing they want. For better or worse, we are 
governed by compromise. Such is the ``battle'' over how public land is 
used. The river basin south of Walters Camp is bounded by remnants of 
California's wilderness first inhabited by our Native American 
ancestors. As citizens we have a responsibility to preserve these 
unspoiled areas for future generations. The proposed legislation is a 
first step toward responsible management and will determine the 
ultimate fate of our precious natural resources. Your support of Senate 
Bill S.2921 is greatly appreciated.
                                 ______
                                 
 Statement of Rose Chilcoat, Associate Director, Great Old Broads for 
                        Wilderness, Durango, CO
    Thank you for the opportunity to comment on this important piece of 
legislation. Great Old Broads for Wilderness is a national wilderness 
advocacy organization that uses the voices and activism of elders to 
preserve and protect wilderness and wild lands. We have more than 5,000 
members in all 50 states and exist to give voice to the millions of 
older and no longer so able Americans who still desire to see America's 
remaining wild landscapes protected for future generations. More 
information on our organization can be found at www.greatoldbroads.org 
<http://www.greatoldbroads.org> .
    We applaud Senator Feiinstein for her strong leadership regarding 
wilderness protections and we fully support the three new wilderness 
areas, Avawatz Mountains, Great Falls Basin and Soda Mountains and the 
additions proposed for the Golden Valley, Kingston Range, Death Valley 
National Park Wilderness and the San Gorgonio Wilderness in the San 
Bernadino National Forest. These are all important wild landscapes that 
deserve the strongest possible protection in a world of ever 
diminishing wildness. However, there are some further improvements that 
could be made to this bill. Please give wilderness designation to the 
entire Soda Mountains Wilderness Study Area or if that is not possible, 
please do not ``release'' the remaining WSA from its present 
protections.
    We believe that the Cady Mountains, a wilderness study area east of 
Barstow and west of the Mojave National Preserve also deserves to be 
designated as wilderness in this bill. Prior opposition is no longer 
relevant and wilderness would provide the greatest degree of protection 
for these lands. Inclusion of this area in the Mojave Trails National 
Monument, while good, would not protect this area from degradation from 
potential development, power lines or off-road vehicle use.
    There is one other area, Conglomerate Mesa, that we feel should be 
included in this bill. It would be a valuable and logical addition to 
the Malpais Mesa wilderness.
    The two new National Monuments, Mojave Trails and Sand to Snow 
would both provide valuable protected wildlife habitat corridors and 
connectivity with other protected landscapes. Please be sure to include 
language to ensure use of off-road vehicles is addressed via a 
management plan for these areas. We support and applaud these 
protective designations as a legacy for future generations of 
Americans. Our children and grandchildren will thank us.
    While we overall support this legislation, there are some aspects 
that we believe are mis-guided and troubling, namely the Congressional 
designation of more than 400,000 acres of off-road vehicle (OHV) use 
areas as National Recreation Areas. To enshrine permanently by law the 
use of public lands for off-road vehicle use/abuse is short-sighted and 
removes completely the ability of the managing agencies to reduce, 
regulate or stop such use should circumstances change or unacceptable 
impacts occur. This also sets a terrible precedent for similar language 
to be included in other future wilderness bills. Our public lands 
agencies already have the ability to respond to public demands for 
various types of recreational opportunities. This does not need the 
attention or action of Congress. Providing for multiple use while 
ensuring soil stability, water quality, air quality, wildlife habitat 
and other values are maintained and not degraded is part of every 
agency's purpose. Congress should not feel compelled to step in and 
interfere with this role. Land use and development is not lacking on 
our public lands, land protection is; this is why the Wilderness Act of 
1964 was passed by a bipartisan majority. Please do not weaken the 
intent of this landmark act by making permanent destructive concessions 
to a single user group for self serving and potentially dangerous and 
damaging purposes. Many communities across America are struggling to 
deal with the negative impacts of off-road vehicles. Putting into place 
Congressional direction for such use simply is incredulous. Our desert 
landscapes are already under assault from far more deserving proposals 
such as renewable energy development. Adding to the impacts and stress 
on these fragile resources makes no sense ecologically or 
legislatively. In the face of climate change, it further ties our hands 
in being able to ensure our public lands are healthy and resilient. 
Please remove the language designating these off-road vehicle areas 
from this legislation.
    Thank you for this opportunity to have input into such an important 
legislative proposal.
                                 ______
                                 
   Statement of David Lamfrom, California Desert Program Manager for 
      National Parks Conservation Association (NPCA), Barstow, CA
    Chairman Bingaman and committee members, National Parks 
Conservation Association appreciates the committee's consideration of 
the California Desert Protection Act of 2010 (S. 2921). We support this 
bill because an integral part of our mission is to protect and enhance 
the National Park System-S. 2921 will enhance these desert parks. 
S.2921 is another historic opportunity to better protect the California 
Desert, a location with diverse and sometimes competing industrial and 
recreational opportunities and interests. The bill balances the needs 
of both residents and visitors, with needed protection for world-
renowned, pristine ecological systems. It honors the history of the 
Westward Movement and Native Americans of the region through landscape 
preservation, while seeking to develop a responsible and responsive 
system for harnessing the California desert's immense renewable energy 
potential.
    National Parks Conservation Association has been the leading voice 
for the National Parks since 1919. We are comprised of 320,000 members, 
including 44,000 in California. We strive to uphold the protections 
awarded to the California desert national parks in the original 
California Desert Protection Act of 1994. We applaud Senator Feinstein 
for her leadership and vision in protecting these critical lands. 
Stakeholders and other California Desert residents have embraced her 
thoughtful and inclusive process to educate and engage communities and 
organizations about this opportunity to conserve our legacy, while 
carefully creating economic opportunities and a renewable energy 
future.
    Title 1 proposes the creation of two National Monuments; the 
protection of critical watersheds through Wild & Scenic designation; 
the designation of wilderness; and the expansion of Death Valley 
National Park, Joshua Tree National Park, and the Mojave National 
Preserve. NPCA is supportive of these recommended protections. The 
Mojave Trails National Monument, which incorporates hundreds of 
thousands of acres of Catellus lands, will protect 1.6 million acres of 
rugged mountains and sandy valleys that connect species like Desert 
Bighorn Sheep to their lambing grounds and along their ancestral 
migration corridors. This proposed monument will protect critical 
habitat for federally threatened species including the desert tortoise 
and preserve the longest remaining continuous stretch of Historic Route 
66. Mojave Trails National Monument will also connect Mojave National 
Preserve, Joshua Tree National Park, and 13 wilderness areas. This 
significant landscape level protection will incorporate varied 
elevational gradients and provide desert species protection from the 
worst effects of global climate change. Protecting connected ecosystems 
allows gene-flow across populations, and increases the resilience of 
many species in the face of a rapidly changing environment. Similarly, 
the Sand to Snow National Monument will connect a national parkland to 
neighboring conservation lands. In addition to being a tourist 
destination for Inland Empire, Morongo Basin, and San Bernardino 
Mountain communities, this monument will effectively connect Joshua 
Tree National Park to the San Bernardino Mountains. This monument, 
which includes the highest point in Southern California, will also 
protect critical watersheds such as the Whitewater River and the Big 
Morongo Canyon springs and bosque.
    Roughly 70,000 acres will be added to the California desert 
national parks through this legislation. These additions will protect 
watersheds, discourage inappropriate adjacent development and provide 
interpretative and educational opportunities. The 29,000 acre Castle 
Mountains proposed addition to Mojave National Preserve represents a 
parcel that was pulled out of the original California Desert Protection 
Act of 1994 due to the presence of gold. Viceroy Mine operated three 
open-pit mines on 700 acres of this parcel, and they retain 
approximately 1200 acres of patented land. Viceroy no longer actively 
mines this area, and has successfully re-vegetated much of the 
disturbed land. This largely-pristine parcel represents one of the 
rarest ecosystems in the California Desert, high desert grassland. The 
area, lush with Joshua Trees, Juniper, and native bunch grasses, was 
recognized in 1980 by the BLM as a Unique Plant Assemblage. Castle 
Mountains is home to both resident and migratory herds of Desert 
Bighorn Sheep and desert tortoise, and will be studied for the re-
introduction of pronghorn antelope by the National Park Service.
    The 32,000 acre Bowling Alley proposed addition to Death Valley is 
a long and thin parcel separating Death Valley National Park from the 
Fort Irwin Military Reservation. This rugged landscape is important 
desert tortoise habitat and is home to several perennial springs. 
Adding this parcel to Death Valley National Park will provide 
consistent management in this area, and is a common-sense boundary 
adjustment recommended by the National Park Service.
    Crater Mine, a defunct sulfur mine, is a BLM inholding within Death 
Valley National Park. This 6,300 acre parcel proposed for addition into 
Death Valley National Park will provide the National Park Service the 
opportunity to feature a sulfur mine as one of their interpretative 
programs which teach about mining history and the history of the West. 
The proposal of Wild and Scenic River designation for Surprise Canyon's 
perennial spring and stream and riparian area, as well as additional 
mileage of designation for the Amargosa River support critical riparian 
corridors on Death Valley National Park's Eastern and Southwestern 
boundaries. The protection of surface flow and riparian corridors in 
one of the hottest places on Earth is critical for the protection of 
species that depend on them for survival. The Amargosa River is a 
critical water resource for gateway communities in Southern Death 
Valley.
    The 2800 acres of additions to Joshua Tree National Park are 
currently managed by the BLM, and feature cactus gardens, old-growth 
Joshua Trees, and protect a wildlife corridor between Joshua Tree 
National Park and the Twentynine Palms Military Base. Similarly to the 
Bowling Alley, these parcels, directly connected to Joshua Tree 
National Park make common-sense additions to the park for consistency 
of management.
    NPCA looks forward to working with committee staff and Senator 
Feinstein to improve the legislation's language. We encourage more 
protective language within the National Monuments section of title 1. 
We request that all energy transmission corridors within Mojave Trails 
and Sand-to-Snow National Monuments be limited to existing right-of-
ways. We do not oppose the expansion or maintenance of existing 
corridors, consistent with the National Environmental Policy Act to 
meet energy transmission needs.
    NPCA also requests that the language forming a Memorandum of 
Understanding between Death Valley National Park and Inyo County be 
removed from the legislation. The National Park Service should retain 
discretion when managing park roads. At a minimum, the provision should 
be changed to include ``may develop a memorandum of understanding'' to 
ensure the agency has full discretion to allow or disallow use of a 
road for the stated purpose in the legislation.
    Additionally, we believe that commercial overflight language in 
both new national monuments should be consistent with the Santa Rosa 
and San Jacinto National Monuments of 2000. Language pertaining to the 
management of commercial air tours should be added that caps air tour 
operations at the same amount of tours taking place at the time the 
monuments are established. Such action will preserve natural values 
inherent to the proposed National Monument that makes this area prized 
by recreationists.
    Based on the significant positive impact of this proposed 
legislation to national parks in the California Desert, NPCA supports 
the improvement and passage of this bill. We look forward to continuing 
to work with both this committee and Senator Feinstein on this 
legislation.
                                 ______
                                 
                             Off-Road Business Association,
                                     Bakersfield, CA, May 20, 2010.
Hon. Jeff Bingaman,
Senator, Energy and Natural Resources Committee, 304 Dirksen Senate 
        Building Washington, DC.
    Dear Senator Bingaman: I am writing to you today about S.2921, The 
California Desert Protection Act of 2010, on behalf of the Off-Road 
Business Association (ORBA) a national non-profit trade association 
representing all aspects of the motorized recreation industry--from OEM 
manufacturers to aftermarket suppliers, distributors, and local 
retailers across the United States. We believe this bill strikes a good 
balance between recreation, conservation and responsible renewable 
energy development. At this time ORBA is in support of S.2921 as it is 
currently written. If there are changes to the language as it moves 
through the legislative process we will have to re-evaluate our 
support.
    S. 2921 is a product of complex negotiations and compromises 
amongst a very diverse group of stakeholders. Senator Feinstein and her 
staff have done an amazing job of trying to fulfill the needs of the 
recreation, conservation and renewable energy communities that will be 
affected by this bill. We are concerned that certain components in this 
bill, the ones that are key to our support (listed below), might be 
removed and or changed during the legislative process.

  <bullet> The language that congressionally designates the 5 open 
        areas as Off-Highway Vehicle Recreation Areas.
  <bullet> The language that allows all current existing uses to 
        continue in both the proposed OHV recreation areas and proposed 
        monuments.
  <bullet> The language that allows the open areas to continue to 
        operate under their existing management plans until either the 
        DOI creates new plans or amends the existing ones.
  <bullet> The language that mandates the Department of the Interior 
        (DOI) study land adjacent to the open areas for possible 
        expansion.
  <bullet> The language that ensures continued use of OHV/green sticker 
        vehicles on designated trails.
  <bullet> The language that continues to allow commercial touring in 
        the proposed monuments.

    We are grateful to have been included in the formation of this 
monumental piece of legislation. Please consider this letter our formal 
request to have these comments included in the official record for this 
hearing.
            Sincerely,
                                                Fred Wiley,
                                                     President/CEO.
                                 ______
                                 
    Statement of Karen Schambach, California Field Director, Public 
       Employees for Environmental Responsibility, Georgetown, CA
    Honorable Senators:
    I am writing on behalf of Public Employees for Environmental 
Responsibility, our staff and members. PEER is a national, nonprofit 
service organization dedicated to assisting federal, state and local 
resource professionals who fight to uphold environmental laws and 
ethics within their organizations. PEER protects public employees who 
protect our environment. There is probably no single issue about which 
we hear more about from state and federal employees in California than 
damage associated with off-road vehicles (ORVs) on our public lands.
    PEER generally supports S. 2921, but we have some serious concerns 
regarding portions of the bill that address off-road vehicles. Some 
sections of this bill are in conflict with existing laws and 
regulations that attempt to manage ORVs. Existing regulations require 
federal land managers to manage ORVs to minimize damage by these 
vehicles to soils, water, wildlife, wildlife habitat, vegetation and 
cultural resources. We fear the following provisions in S2921 weaken or 
nullify the Bureau of Land Management's ability to enforce those 
regulations.

          1. We are opposed to the creation of National Recreation 
        Areas in four current BLM ORV Open Areas.

    Not only does this provision not belong in a Wilderness Bill, but 
also it sets a terrible precedent to permanently dedicate public lands 
for ORV use. Current law requires BLM to monitor ORV use on its lands 
and close areas where damage to resources is significant. This 
provision would eliminate BLM's ability to responsibly manage ORV use 
in these areas. The Bill states there will be no new management plans, 
essentially tying BLM's hands should the need to protect natural or 
cultural resources require a management change. Wilderness Areas are 
subject to new or revised management plans, and often do adopt new 
plans to address changing needs. Why would we require less of a use 
that is far more challenging to manage, and which has the potential for 
very serious impacts on resources?
    We ask that the provisions for NRAs be removed from this bill and 
addressed in separate legislation. At a minimum, management plans must 
be required, with the ability for BLM to update and revise the plans as 
necessary to protect the public's lands and the wildlife and cultural 
resources that reside within those lands. Land managers must retain the 
authority to enforce existing regulations that allow them to close 
areas where unacceptable damage is resulting from ORV use.

          2. The Imperial County Vinegre Wash Special Management Area 
        (SMA) promotes off-road vehicle recreation in an area that 
        should be managed to protect its extensive Native American 
        cultural resources. The SMA would not even require a management 
        plan! We request this bill be amended to require a Management 
        Plan specifically crafted to protect the rich cultural 
        resources of the area and based on an inventory of those 
        cultural resources. Vehicle travel should be limited to street 
        legal vehicles. ORVs simply will not stay on designated routes, 
        and a designated route system is essential to protecting this 
        area.
          3. For the same reason, vehicle travel in National Monuments 
        should be limited to street legal vehicles. Too many ORV riders 
        simply refuse to stay on designated routes.
    Thank you for the opportunity to comment.
                                 ______
                                 
  Statement of Richard L. Russell, Sidekick Off Road, Apple Valley, CA
    To whom it may concern,
    I am against any further restrictions of access to public lands, 
especially by motorized use.
    My family and friends enjoy visiting and exploring the backcountry 
in off highway vehicles. We explore historic routes, old mining camps 
and remote areas. We car-camp and picnic in areas that S-2921 would 
close. The previous Wilderness Bill removed thousands of acres from 
public access by restricting motorized travel in newly established 
Wilderness Areas, severely limiting travel in the newly established 
Mojave Preserve and expanding restrictive National Park rules to many 
more acres that were previously accessible by off road vehicles under 
the management of the BLM. Even when motorized routes are ``cherry 
stemmed'' to protect motorized access, such as Surprise Canyon was in 
the S-21 Bill, the non-motorized groups pressure the land managers to 
close access. The land managers always seem to surrender to these 
minority environmental groups.
    I have been making and selling backcountry maps to the motorized 
community for over 20 years and am quite familiar with the areas 
covered by S-2921. Not only would this bill negatively affect my 
business, but also more than 150 stores who sell our products.
                                 ______
                                 
                                               Sierra Club,
                                                      May 20, 2010.
Hon. Jeff Bingaman,
U.S. Senate, Washington, DC.
    Dear Chairman Bingaman, on behalf of the more than 1.3 million 
members and supporters of the Sierra Club, I am writing to thank you 
for holding a legislative hearing on S. 2921. This bill is at the 
center of the ongoing conversation about balancing conservation of the 
California desert and appropriate renewable energy development.
    Sierra Club commends Senator Feinstein for her dedication to 
protecting the California desert and for her work to bring together 
many divergent interests and views to craft S. 2921, the California 
Desert Protection Act of 2010. This bill represents an important first 
step towards achieving balance between the protection of public lands 
and wildlife in the desert and the pressing need for renewable energy 
development to address the challenge of climate change. While the 
Sierra Club supports Senator Feinstein's goals and many of the bill 
elements, we continue to have concerns with S.2921, as it is currently 
written.
Balancing Renewable Energy Development and Land Conservation in a 
        Warming World
    For more than 100 years, Sierra Club members and activists have 
worked to protect the California desert from the traditional threats of 
development, pollution, and extractive industries. More recently, we 
have worked to protect the fragile desert ecosystems from a dramatic 
increase in off-road vehicle abuse. Today, the California desert is 
also threatened by the impacts of climate change. In the face of the 
unprecedented threats posed by global warming to our natural resources, 
public health, and local communities we need to develop clean renewable 
energy as quickly as possible. America's treasured landscapes, natural 
resources, wildlands and wildlife are already suffering the effects of 
global warming.
    However, we must not sacrifice special landscapes or important 
wildlife habitat in the rush to combat climate change. Instead, we need 
a renewable energy program that ensures that necessary renewable energy 
development takes place in areas inventoried and identified as 
appropriate for development while avoiding, minimizing and mitigating 
impacts; and that allows land managers to learn from and adapt to 
experience gained in the permitting and operation of renewable energy 
projects.
S. 2921--The California Desert Protection Act of 2010
    Sierra Club strongly supports the wilderness designations, wild and 
scenic rivers designations and the National Park expansions found in 
Title I of S.2921. The bill represents a good opportunity to preserve 
some of the California desert's most spectacular scenery, from rugged 
mountains and hidden springs to tranquil desert washes and Joshua tree 
woodlands. The bill will designate approximately 371,000 acres of 
wilderness from the Avawatz Mountains near Death Valley to Milpitas 
Wash, the largest Sonoran Desert woodland in North America. It will 
also create two new national monuments, the Mojave Trails National 
Monument and the Sand to Snow National Monument, expand Joshua Tree and 
Death Valley National Parks and the Mojave National Preserve, and 
protect important free-flowing rivers like the Amargosa River and Deep 
Creek as Wild and Scenic Rivers.
    Sierra Club also strongly supports several provisions included in 
Title II. The bill aims to clarify the BLM's solar and wind energy 
permitting processes and includes efforts to improve permitting of wind 
and solar energy projects on public and private lands. The bill 
recognizes the need for additional policy, guidance, and procedures for 
focusing federal resources on the most economically and environmentally 
viable renewable energy development proposals. In addition, the bill 
includes a strong provision that reinvests new revenues in important 
land acquisition programs.
    While we are supportive of much of the bill, we continue to have 
some concerns, and look forward to working closely with Senator 
Feinstein and the Committee staff to make improvements to the bill. 
Specifically, Sierra Club's remaining concerns with S. 2921 include:
Title I
            OHV Recreation Areas
    Sierra Club strongly opposes the designation of the proposed OHV 
Recreation Areas in Title I.

  <bullet> Title I would designate five `Off-Highway Vehicle Recreation 
        Areas' encompassing more than 400,000 acres. While these areas 
        are currently used for such purposes, we see no reason to tie 
        the hands of future land managers in requiring that these lands 
        be permanently focused on this destructive use.
  <bullet> We believe strongly that designating large areas of public 
        land, for a single type of destructive recreation, is bad 
        public policy. First, it assumes that the demand for such 
        recreation will continue for the foreseeable future. Second, it 
        assures that restoration of the lands in question will not be 
        possible regardless of future needs for other multiple uses, or 
        for habitat protection as a result of climate change.
  <bullet> We also worry that this provision will set a dangerous 
        precedent, which will significantly increase the pressure from 
        OHV groups for such designations in any new public lands bills, 
        not just in California but nationwide.

          <bullet> Sec 1801 (f), also requires that there be a study of 
        possible expansion of all four of these OHV recreation areas. 
        There are limitations including not exceeding the current acres 
        administratively designated for OHV use in the CDCA, and 
        excluding areas needed for conservation or renewable energy 
        development or transmission. However, the provision still opens 
        the door for including even more acreage in this permanent, 
        harmful, singleuse OHV system of designated management areas.
            Cady Mountains WSA release
    Sierra Club opposes the release of the Cady Mountains WSA (Sec 1503 
(b)(1)), the release of the Soda Mountains WSA, and the exclusion of 
the Conglomerate Mesa area from wilderness designation.

  <bullet> The Cady Mountains are included in the Mojave Trails 
        National Monument boundaries. However, the monument management 
        language would leave this area at risk from new utility 
        corridors and motorized vehicle routes. Preferably, we would 
        like to see this area designated as wilderness or otherwise 
        protected from potential negative impacts.
Title II
            Renewable energy permitting process
    Sierra Club would like to see the bill's tight deadlines in Section 
202 relaxed.

  <bullet> We would prefer a provision requiring the Secretary to 
        establish achievable deadlines and report to Congress on the 
        effectiveness of those deadlines once established.
  <bullet> Additionally, Section 202 should provide greater discretion 
        to the Secretary to determine and update the legal framework 
        most appropriate to govern commercial wind and solar energy 
        production on federal lands. While this legislation seeks to 
        enhance the current system that relies on rights-of-way grants, 
        we are very concerned this approach would, in effect, codify an 
        unproven system with known shortcomings.
            Categorical exclusion of wind and solar testing facilities.
    Sierra Club has long opposed attempts to legislate categorical 
exclusions.

  <bullet> The Interior Department has broad discretion under NEPA to 
        establish administrative CEs where appropriate, including in 
        connection with proposed renewable energy activities. Section 
        207 should be removed as it is unwarranted and unnecessary.
            Fair market value
    The baseline metric for calculating fair market value for solar in 
Section 201(k)(2) should be removed, and instead the bill should 
clearly spell out that the agency's responsibility and discretion for 
determining an appropriate valuation system that ensures a fair return.
    In conclusion, I would like to reiterate Sierra Club's gratitude to 
Chairman Bingaman and the other committee members for holding this 
important hearing on S. 2921. I also would like to express our 
appreciation to Senator Feinstein for her leadership in working to 
protect the California Desert. Sierra Club supports much of S. 2921, 
but we continue to have some remaining concerns. We look forward to 
working with Senator Feinstein and the other members of the Committee 
to make improvements to the bill, in order to offer our full support.
    Thank you for your consideration,
                                              Debbie Sease,
                           National Campaign Director, Sierra Club.
                                 ______
                                 
  Statement of Rhone Resch, President & CEO, Solar Energy Industries 
                              Association
    Mr. Chairman and Members of the Committee,
    Thank you for the opportunity to submit this testimony on S. 2921, 
the California Desert Protection Act of 2010. We are grateful that the 
Committee recognizes the important role that public lands play in 
shaping our clean energy future.
I. Introduction
    Established in 1974, the Solar Energy Industries Association is the 
national trade association of the solar energy industry. As the voice 
of the industry, SEIA works with its 1,000 members to make solar a 
mainstream and significant energy source by expanding markets, removing 
market barriers, strengthening the industry and educating the public on 
the benefits of solar energy. SEIA represents solar companies across a 
variety of solar energy technologies, including photovoltaic (PV), 
solar water heating and concentrating solar power (CSP). SEIA members 
include manufacturers, distributors, contractors, installers, 
financiers and developers of solar energy projects for both utility-
scale and distributed generation deployment.
    Despite the recession, the U.S. solar industry grew significantly 
in 2009--doubling the size of the residential photovoltaics market and 
adding three new concentrating solar power plants. In addition, the 
industry added 10,000 new solar jobs to the U.S. economy.\1\
---------------------------------------------------------------------------
    \1\ See the U.S. Solar Industry Year in Review 2009 at Attachment 
1.
---------------------------------------------------------------------------
II. Overview of the Solar Industry
    SEIA is grateful to Senator Feinstein for her long commitment to 
promoting the greater use of renewable energy in the United States. We 
commend her introduction of S. 2899, the Renewable Energy Incentive 
Act, which would extend the highly successful Treasury Grant Program 
for renewable energy and would create new incentives for renewable 
energy deployment.
    While many think of solar energy as a distributed generation 
resource, deployment of utilityscale solar power plants is increasingly 
common. Utility-scale solar can create domestic jobs across the country 
now and quickly diversify our energy portfolio. In July 2008, this 
Committee held a field hearing in Albuquerque, New Mexico, on 
concentrating solar power technologies where this trend was discussed. 
In addition to the CSP plants already operating in the Southwest, many 
announced projects intend to use photovoltaic arrays to generate 
hundreds of megawatts of electricity nationwide.\2\ Regardless of the 
technology, solar project developers share a common goal: 
environmentally-responsible solar development.
---------------------------------------------------------------------------
    \2\ 2 See Utility-Scale Solar Projects List at Attachment 2.
---------------------------------------------------------------------------
    Utility-scale solar power can generate significant amounts of clean 
energy as part of a diverse energy portfolio, providing one of the 
quickest ways for states to meet their renewable portfolio standards 
and reduce their greenhouse gas emissions. The Southwest U.S. has some 
of the world's best sunlight and we should take advantage of this 
limitless natural resource to generate clean energy and transmit it to 
America's population centers.
    While overwhelming support for increased use of solar energy has 
long been known (92% of Americans think it is important to develop and 
use solar energy\3\), a recent poll by Gotham Research found that the 
American public broadly supports the development of solar energy on 
public lands: three out four Americans support developing solar energy 
plants on public lands. This same poll shows that the most important 
energy challenge facing the country today is developing energy sources 
while protecting the environment, according to respondents.\4\
---------------------------------------------------------------------------
    \3\ See http://www.seia.org/cs/news__detail?pressrelease.id=638
    \4\ See Gotham Research Polling Results at Attachment 3.
---------------------------------------------------------------------------
    The last two years have brought many changes and an increased focus 
on the issue of developing solar energy on public lands. In 2008, the 
Bureau of Land Management initiated a Programmatic Environmental Impact 
Statement (PEIS) for solar development. Last year Secretary Salazar 
established four Renewable Energy Coordination Offices within BLM, 
initiated ``fast-track'' procedures for the permitting of 14 solar 
projects, and identified 24 ``Solar Energy Study Areas'' to undergo 
rigorous environmental review as part of the solar PEIS. Solar 
developers, Interior Department staff, and environmental stakeholders 
alike are adjusting to the increased activity and emerging processes 
for developing utility-scale solar power in the United States.
III. The Solar Industry Is Committed to Responsible Energy Development
    Development of solar energy on public lands is one important piece 
of the increased generation of renewable power in this country. There 
are numerous provisions in this proposed legislation that the solar 
industry supports, others that merit further review, as outlined below.
            A. Provisions the Solar
    Industry Supports SEIA supports the establishment of a mitigation 
bank to be accessed by any solar developer, whether on public or 
private lands. California's collaboration with BLM to establish a 
mitigation pool could serve as an effective model for this program. 
Allowing developers to pool financial resources and perform mitigation 
on high-quality habitat is a win-win scenario.
    The solar industry also supports having the Department of the 
Interior perform an analysis of climate change impacts. Further, we 
believe that this legislation should empower BLM to use those study 
results and take into account the positive impacts of renewable energy 
development on climate change when it considers right-of-way 
applications.
    Secretary Salazar's establishment of Renewable Energy Coordination 
Offices last year was lauded by the solar industry, and we support the 
continuation and expansion of offices whose employees are expert in the 
permitting of renewable energy applications. Continued coordination 
among BLM, the U.S. Fish and Wildlife Service, and state agencies will 
be necessary to achieve the goal of greater renewables deployment.
    Rents paid by the solar energy industry should be used to further 
the goals of better and faster permitting, full staffing of the 
Renewable Energy Coordination Offices, and a share could go to state 
and local government entities where these projects are located. On the 
broader topic of solar rents paid to BLM, SEIA supports a rental policy 
that provides fair, transparent, and consistent results that are 
comparable to private land transactions for similar uses.
            B. Provisions that Merit Further Review
    The proposed legislation would prohibit BLM processing of any 
right-of-way application that could affect native groundwater supplies, 
both within and adjacent to the proposed Mojave National Preserve. The 
National Environmental Policy Act and other laws already require the 
consideration of the environmental impacts of water use by any proposed 
project, and SEIA believes these existing provisions to be sufficient. 
The additional requirement proposed in S. 2921 could serve to restrict 
solar development, even on lands outside protected areas.
    Another provision in this proposed legislation would allow BLM to 
deny a right-of-way application for any project which is on 
``wilderness quality land'' or which may impact ``sensitive species 
listed by the BLM.'' SEIA is concerned that these provisions are overly 
broad and could unduly limit solar energy development in the Southwest.
III. Conclusion
    We cannot fight climate change without clean energy sources like 
solar. Solar energy is pollution-free, produces no carbon, and is 
fueled by an inexhaustible and renewable resource--the sun. Utility-
scale solar power plants will power millions of homes with clean energy 
as part of a diverse energy portfolio that includes distributed 
generation, solar water heating and other renewable sources.
    The solar industry is committed to solving our most pressing energy 
and environmental challenge in a thoughtful manner. Solar power plants 
can be developed in a way that balances environmental protection with 
our energy demands. The Southwest's plentiful solar resources can be 
harnessed in a way that safeguards water resources, habitat, and 
wildlife.
    Again, thank you for allowing SEIA to submit this testimony. We 
look forward to working with the Committee to improve this proposed 
legislation and the process for developing utility-scale solar power in 
the United States.
                                 ______
                                 
     Statement of Janine Blaeloch, Director, Western Lands Project
    I submit this testimony on behalf of the Western Lands Project and 
its members and request that these comments be placed on the record.
    Ours is the only organization in the country whose mission is to 
monitor federal land sales, exchanges, and conveyances and to oppose 
actions that would privatize federal public lands. Our goal is to keep 
public land public.
    We are opposed to S. 2921 as now proposed on the basis of three 
broad issues:

          (1) It employs a quid pro quo strategy that trades protection 
        on some federal lands for intensified use on others.
          (2) It sanctions, facilitates, and streamlines the 
        development of potentially massive ``renewable'' energy 
        developments that have the potential to greatly harm public 
        lands and fragile habitat-and which we believe entails virtual 
        privatization.
          (3) It provides incentives to the BLM that may 
        inappropriately facilitate permit approvals.
Quid pro quo protection
    In the past several years, we have submitted testimony to this 
Committee and worked in many other ways to oppose various quid pro quo 
wilderness bills that ``balanced'' wilderness designation in some areas 
with the sale, conveyance, or intensified use of public land elsewhere. 
Like those bills, S. 2921 seeks to buy the silence of wilderness-and 
protection-averse constituents such as off-road vehicle users by 
sanctioning their continued destruction of public land outside of the 
new, special-protection zone the bill creates. This type of legislation 
treats public land as a conglomeration of special areas to be afforded 
protection and purportedly not-so-special sacrifice zones doled out to 
satisfy political and utilitarian needs.
    S. 2921 repeats this pattern with the special designations and 
permanent consignment of vast acreages of public land to high-impact 
off-road vehicle use. This provision is similar to one that was 
proposed in an early version of the Central Idaho Economic Development 
and Recreation Act, whereby an overlay covering some 300,000 acres 
would have created a priority area for ORV use. The provision could not 
get through even under the former, anti-public land Republican 
majority, and this type of environmentally harmful political horse-
trading should not be brought back now.
    Similarly, S. 2921 seeks to secure protection of some public land 
by offering up other, unknown public lands for ``renewable'' energy 
development. It proposes to fast-track these potential projects by 
providing special deadlines for permitting and environmental analysis.
    In other provisions, it allows land exchanges between the State and 
Federal governments that entail special land-value arbitration 
procedures and waive regulations regarding land-value ``credit 
balances.'' Another allows lessees on state land acquired by the 
federal government whose leases expire to bypass the National 
Environmental Policy Act when applying for a continuation of the lease.
    We oppose any waiver or truncation of the NEPA process, and we 
continue to oppose this quid pro quo approach to protecting and 
simultaneously doling out public land.
Desert relegated to ``energy corridor''
    For more than ten years, from eastern California to southwest Utah, 
we have scrutinized numerous projects that treated the Mojave Desert as 
a disposable commodity. Land exchanges, sales, and outright disposals 
coming from both the BLM and Congress have posed an ongoing threat to 
the integrity of the Mojave, a perennially undervalued ecological 
treasure.
    Many of the projects we have reviewed have been located in habitat 
of the threatened desert tortoise, and have proposed to address effects 
on that species by ``translocating'' the tortoises, even though it does 
not appear translocation has been effective, and in some cases results 
in mortality. Another major issue in many projects we have scrutinized 
is water supply, which, like the tortoise issue, always seems to get 
ironed out in favor of more development.
    Recently, our concern has focused on the numerous, gargantuan plans 
in play to fast-track massive solar, wind, and geothermal projects on 
public lands of the arid West, many of which involve, among other 
things, both species viability and water supply issues. We fear that 
the Mojave and other biologically rich parts of the arid West are being 
carved up and sucked dry to the point of ecological collapse and to the 
detriment of the numerous benefits they offer the American public.
    A bottom-line issue for us, as pertains particularly to massive-
footprint solar projects, is that the multifaceted invasiveness and 
long-term, even permanent, impacts of these projects essentially add up 
to privatization of the public lands they would occupy. The fact that 
these are public lands belonging to all Americans is repeatedly glossed 
over with the unquestioned public value of ``renewable'' energy 
development.
    From our review of several environmental analyses for pending 
projects, it appears that what the National Environmental Policy Act 
(NEPA) calls the ``irreversible or retrievable commitments of 
resources'' associated with these projects are substantial.
    Most rights-of-way issued by the government are either small 
projects or linear rights-of-way such as for pipelines or transmission 
lines that have a comparatively small impact area within the right-of-
way and around or under which other activities and natural processes 
can continue. This doesn't appear to be the case with large-scale 
planned solar facilities: while footprints of the projects may not 
occupy the entire area under right-of-way, between the collection 
apparatus and other structures such as buildings and fences, their 
impact on the site is complete. Clearly, there is a big difference in 
intensity between the virtually permanent impact of a powerline 
corridor or road and that of one of these facilities.
    Considering the number and size of the projects that are planned, 
these will create impacts on a massive scale. The California Desert 
District of the BLM alone has nine fast-tracked solar projects pending 
that would occupy more than 43,000 acres. Those are just the fast-
tracked solar projects. Fast-tracked wind and transmission line 
projects will pose more distributed and linear impacts on about 20,000 
acres and along about 300 miles of new transmission-line corridors.
Misguided incentives
    We are very alarmed by Title II of this bill. Its provisions go far 
outside the California Desert Conservation Area to substantially amend 
the Energy Policy Act of 2005 and create a further-streamlined and 
incentive-laden process for energy project permitting in ten western 
states.
    Of particular concern is the proposed redistribution of proceeds of 
rental income from rights-of-way, including the allocation of 40 
percent of the funds toward BLM permit administration. There should be 
no direct nexus between the income from permitted projects and the 
income of BLM staff who issue them. The same is provided in regard to 
oil and gas processing. In light of recent events, including the 
consequences of fast-tracked permitting, we do not believe these 
provisions are remotely appropriate.
Conclusion
    The desert is not just an ``energy corridor.'' We cannot continue 
to treat it merely as a swath of cheap land to be the repository of any 
use we desire. We believe the headlong enthusiasm for ``renewable'' 
energy projects that has now become accepted policy needs immediate, 
serious reconsideration.
    In addition to rejecting this legislation as now proposed, we ask 
that the Committee begin a concerted effort to explore alternatives to 
these damaging projects, such as distributed solar-installations on 
rooftops, parking lots, etc.-and other more environmentally sound and 
efficient approaches.
    It may be possible to put fossil fuels, Deepwater Horizons, and 
Upper Big Branch Mines behind us, but the policy that is now being 
followed, and would be further facilitated in S. 2921, is not a 
responsible way to do that.
    Thank you for your consideration.
                                 ______
                                 
Statement of William H. Meadows, President, The Wilderness Society, San 
                             Francisco, CA
    Chairman Bingaman and members of the committee, thank you for 
scheduling this hearing on this important bill regarding conservation 
of the California Desert and renewable energy permitting.
    The Wilderness Society is a national non-profit conservation 
organization founded in 1935 with over 500,000 members and supporters. 
Our mission is to protect wilderness and inspire Americans to care for 
our wild places.
    Let me start by expressing my deep appreciation to Senator 
Feinstein not only for all of her work consulting stakeholders and 
crafting this balanced bill, but more broadly for her distinguished 
accomplishments championing the preservation of America's natural 
heritage.
    From Joshua tree forests to endless acres of spring wildflowers, 
from inhospitable salt flats to life giving streams, the California 
desert provides a multitude of variety where plants and animals 
flourish, including such noted species as bighorn sheep, Mojave ground 
squirrel, and desert tortoise.
    This landscape also benefits mankind in numerous ways. It provides 
places for a wide array of recreation and relaxation, substantial 
economic benefits from tourism and new residents, and has the necessary 
conditions for appropriate development of much needed renewable energy. 
These lands also help connect us with our past as they include many 
significant Native American sites, relics from America's pioneer 
history, and even noteworthy traces of our 20th century progress, such 
as historic Route 66.
    The California Desert Protection Act of 2010, which The Wilderness 
Society supports, comprehensively addresses the many needs of both 
society and nature in one of our country's most dramatic landscapes.
    Title I of the bill would designate two new National Monuments, 
create three new wilderness areas, expand four existing wilderness 
areas, protect over 70 miles of wild and scenic rivers, and designate a 
new Special Management Area. It would also transfer some Bureau of Land 
Management holdings to adjacent National Park Service units and protect 
the native groundwater of the Mojave Preserve.
    The new monuments and BLM wilderness will be important additions to 
the National Landscape Conservation System and expansion of the 
National Park units will continue our nation's tradition of protecting 
our most spectacular natural national treasures.
    You have heard testimony from some who say that the protection of 
these lands will significantly harm the prospects for renewable energy 
development in the California desert. Our review of the bill in the 
context of other efforts currently underway indicates that this is 
patently not the case. In fact, the BLM is now assessing the 
suitability of 351,000 acres in the California desert for potential 
solar energy development zones. This acreage is significantly more than 
experts estimate is needed to meet California's renewable energy 
portfolio goal. Also, the BLM is moving forward expeditiously with key 
projects across the west that will result in 5,300 megawatts of new 
wind, solar, and geothermal power. Neither the BLM study areas nor any 
of the projects in process are precluded by the land designations in 
Senator Feinstein's proposal. Further, no existing or designated energy 
transmission corridor would be adversely affected.
    Title I also designates five new National Off-Highway Vehicle 
Recreation Areas which would permanently give off-road vehicle users 
places to ride. Though The Wilderness Society is not supportive of 
permanent designation of off-road vehicle areas, the bill as written 
enables the BLM to manage these areas in a manner that protects their 
natural resources and non-motorized recreational opportunities.
    Ideally, The Wilderness Society would like to see a few changes 
made to Title I of the bill as it moves through the legislative 
process.
    First, regarding the management language for the national 
monuments, the bill currently contains provisions stating that monument 
designation does not preclude, prevent, or inhibit the maintenance, 
upgrade, expansion, or development of new energy transport facilities 
within the monuments (Sec. 1304 (f)(1) and 1404(e)(1)). We recognize 
the need for new electric transmission facilities in the region, but we 
believe this language is overly broad and unnecessary as the issue of 
energy transmission is addressed in other sections of the bill. We do 
not oppose the provisions allowing for maintenance, upgrade, expansion 
and development of energy transport facilities within existing 
corridors. The monument management language also contains ambiguous 
provisions that could be interpreted to require all existing off-road 
vehicle use within the monuments to continue (Sec. 1304(a)(1) and 
1404(a)(1)). It is our hope that this will be revised to make its 
intent to designate off-highway vehicle routes through the management 
planning process clearer.
    Next is the issue of releasing the entirety of the Cady Mountains 
Wilderness Study Area (Sec 1503 (b)(1)). The bulk of this released WSA 
would be designated as part of the Mojave Trails National Monument but 
as written, the monument management language would leave this area at 
risk from new utility corridors and motorized vehicle routes. 
Preferably, we would like to see this area designated as wilderness or 
otherwise protected from potential negative impacts.
    Sec 1603 (b)(1) and (2) of the bill prohibit the permanent closure 
of any off-highway vehicle routes within the Special Management Area. 
It is our strong belief that the BLM should be allowed to actively 
manage OHV use within the Special Management Area and that this 
authority include permanent closure of routes due to natural or 
cultural resource damage or public safety concerns.
    Finally, Senator Feinstein's proposal requires the BLM to survey 
lands adjacent to the newly designated National Off-Highway Vehicle 
Recreation Areas for potential inclusion in those areas (Sec. 1801 
(f)). We would like to see the potential expansion of the recreation 
areas more tightly limited.
    Title II of the bill would clarify the BLM's solar and wind energy 
permitting processes and includes efforts to improve permitting of wind 
and solar energy projects on public and private lands. The bill 
recognizes the need for additional policy, guidance, and procedures for 
focusing federal resources on the most economically and environmentally 
viable renewable energy development proposals. The bill includes a 
strong provision that reinvests new revenues in important land 
acquisition programs. The bill also affirms the government's authority 
to reject poorly-sited projects at any point in the time-bound permit 
process it establishes. While the bill is a step toward responsibly 
addressing renewable energy development, The Wilderness Society would 
like to see several changes to this title as the bill moves forward.
    Regarding the renewable energy permitting process, we would like to 
see the bill's tight deadlines in Section 202 relaxed, instead 
requiring the Secretary to establish achievable deadlines and report to 
Congress on the effectiveness of those deadlines once established. 
Additionally, Section 202 should afford greater discretion to the 
Secretary to determine and update the legal framework most appropriate 
to govern commercial wind and solar energy production on federal lands. 
While this legislation seeks to enhance the current system that relies 
on rights-of-way grants, we are very concerned this approach would, in 
effect, codify an unproven system with known shortcomings.
    The categorical exclusion of wind and solar testing facilities in 
Section 207 should be removed as it is unwarranted and unnecessary. 
According to the BLM, wind and solar site testing facility 
authorizations have been processed in a year or less on average, and 
the agency already has authority to execute such exclusions based on 
professional judgment under the National Environmental Policy Act.
    The baseline metric for calculating fair market value for solar in 
Section 201(k)(2) should be removed, and instead the bill should 
clearly spell out that the agency's responsibility and discretion for 
determining an appropriate valuation system that ensures a fair return. 
We believe the National Agricultural Statistical Service tool, which 
was designed to price land in agricultural production, could 
significantly undervalue the commercial value of land used for solar 
generation.
    Chairman Bingaman and members of the Committee, thank you for your 
consideration of our comments and we look forward to working with you 
and Senator Feinstein to both improve and pass this important 
legislation.
                                 ______
                                 
    Statement of Richard E. Stoddard, Chairman of the Board of Mine 
        Reclamation, LLC and of the Board of Kaiser Ventures LLC
    Recent testimony offered by Donna Charpied before the Senate Energy 
and Natural Resources Committee regarding S. 2921, the California 
Desert Protection Act of 2010, contained a number of factual errors and 
outrageous assertions that must be corrected for the record.
    At various points within the testimony there are references to 
lands owned by Kaiser Eagle Mountain (``Kaiser'') and by the Bureau of 
Land Management (``BLM'') as ``pristine'' and ``untrammeled by man''. 
In fact, the Kaiser and BLM lands approved in 1999 for development as 
the Eagle Mountain Landfill project are hardly ``pristine'' or 
``untrammeled by man'' as shown clearly in the *photo below.
---------------------------------------------------------------------------
    * Photo has been retained in committee files.
---------------------------------------------------------------------------
    In fact the lands referenced in the Charpied testimony of May 20, 
2010, are devastated by over 40 years of mining and were approved in 
1999 to be reclaimed for another purpose as a regional, rail-haul solid 
waste landfill. The project will be owned and operated by the Los 
Angeles County Sanitation Districts in cooperation with Riverside 
County, the jurisdiction charged with local land use authority.
    The Charmed testimony also seeks to rewrite history related to 
Kaiser and BLM lands, the landfill project, Joshua Tree National Park 
and the original California Desert Protection Act (``Act'').
    Originally, the boundary for the proposed Joshua Tree National Park 
(then Monument) included the lands proposed for the Eagle Mountain 
Landfill project. It was the leadership of Joshua Tree National 
Monument and local environmental interests that requested that the 
boundary be changed to exclude the landfill project.
    Throughout the processing of the proposed legislation and prior to 
the adoption of the Act, Senator Feinstein sought the support of 
numerous stakeholders, including Kaiser and one of its major owners, 
the New Kaiser Voluntary Employee Benefit Association (VEBA) and its 
then over 7,000 members. VEBA is a non-profit trust of retirees and 
their dependents who lost lifetime medical and death benefits during 
the 1987 bankruptcy of Kaiser Steel Corporation. VEBA was established 
for the purpose of restoring those lost benefits.
    After numerous meetings and consultations with stakeholders during 
the processing of the Act, Senator Feinstein simply agreed to make 
adjustments to the legislation as a result of their requests and with 
the support of the landowner.
    In 1995, Senator Dianne Feinstein clarified Desert Protection Act 
legislative intent in a letter to Kaiser Ventures Inc. Chairman Richard 
E. Stoddard. ``During the consideration of the legislation, I met with 
dozens of desert users, visited the region, and offered more than 50 
amendments to address different concerns,'' she stated. ``In reviewing 
the proposed Eagle Mountain Landfill project which is outside of the 
boundaries of the desert parks and wilderness areas, it appears its 
status is unchanged by the enactment of the California Desert 
Protection Act. It is not the intent of this Act to impose on the 
project any new or additional federal environmental regulations to be 
satisfied.''
    Senator Feinstein made perfectly clear prior to and subsequent to 
the passage of the Act that approval of the landfill was solely a 
matter for federal, state and local law. The proximity of the project 
to Joshua Tree National Park was not to be an issue.
    Landfill project developer and the land owner understood that the 
National Park Service opposed the project due to its proximity to the 
Park. There was never a dispute about their position. But the landfill 
was proposed many years before the federal government moved the Park 
boundaries closer to the project. The closest campground or trail is 
over 15 miles away from the landfill project site. The landfill is 
downwind from the Park. Visitors cannot see the landfill from the Park. 
Senator Feinstein indicated during Desert Protection Act hearings that 
the expansion of the Park boundaries should not interfere with the 
development of the landfill since that process was already well 
underway and in the hands of the local permitting authority.
    The legislative history of the original Act makes clear, and 
Senator Feinstein's repeated written clarifications underscore, that 
the Act was never intended to create a defacto buffer zone around the 
Park for purposes of land use. With these assurances in place, Kaiser 
pursued the required permits and approvals for the landfill and related 
land exchange. During the permitting process, and in response to a 
proposal by a former Joshua Tree National Park Superintendent, Kaiser 
agreed to go further than required to address issues of concern related 
to the Park and negotiated an agreement with the National Park Service 
to provide unprecedented protections and ongoing funding for the Park.
    In summary, the facts related to the Kaiser Eagle Mountain and BLM 
lands referenced by the Charpied testimony before the Committee are 
clear. The lands are devastated as opposed to ``pristine''. Further, 
the history of Senator Feinstein's leadership in insuring that 
thousands of acres of desert lands are protected for future generations 
is also clear, as is the legislative history related to the intent of 
the Act with respect to adjacent lands. The landfill project was well 
known to those considering boundaries for the proposed Joshua Tree 
National Park created by the Act. Moving the boundary closer to the 
Kaiser and BLM lands was never intended to add or create buffer zones 
around the Park or add any additional federal requirement or burden for 
the Eagle Mountain project.
    Thank you for allowing us to correct the record and underscore the 
importance, value and appreciation we all owe to Senator Feinstein for 
her consistent leadership and unrelenting efforts to insure that 
environmental and economic interests can effectively be served with 
desert protection legislation.

                                    

      

</pre></body></html>
